<html>
<title> - IMPROVING HIGHWAY AND VEHICLE SAFETY: REAUTHORIZATION OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION</title>
<body><pre>[Senate Hearing 112-330]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-330
 
                 IMPROVING HIGHWAY AND VEHICLE SAFETY:
                    REAUTHORIZATION OF THE NATIONAL
                 HIGHWAY TRAFFIC SAFETY ADMINISTRATION

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
73-540                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7e190e113e1d0b0d0a161b120e501d111350">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

MARK PRYOR, Arkansas, Chairman       PATRICK J. TOOMEY, Pennsylvania, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           JOHN BOOZMAN, Arkansas
AMY KLOBUCHAR, Minnesota             ROGER F. WICKER, Mississippi
TOM UDALL, New Mexico                DEAN HELLER, Nevada


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 27, 2011....................................     1
Statement of Senator Pryor.......................................     1
Statement of Senator Toomey......................................     2
Statement of Senator Udall.......................................    11
Statement of Senator Blunt.......................................    13
    Prepared statement...........................................    13
Statement of Senator Klobuchar...................................    57
Statement of Senator Thune.......................................    59

                               Witnesses

Hon. David L. Strickland, Administrator, National Highway Traffic 
  Safety Administration..........................................     3
    Prepared statement...........................................     5
Susan Fleming, Director, Physical Infrastructure, U.S. Government 
  Accountability Office..........................................    16
    Prepared statement...........................................    17
Jacqueline S. Gillan, Vice President, Advocates for Highway and 
  Auto Safety (Advocates)........................................    25
    Prepared statement...........................................    27
Hon. Nicole Mason, Former National Highway Traffic Safety 
  Administrator..................................................    41
    Prepared statement...........................................    43
Robert Strassburger, Vice President, Vehicle Safety and 
  Harmonization, Alliance of Automobile Manufacturers (Alliance).    44
    Prepared statement...........................................    45
Vernon Betkey, Chairman, Governors Highway Safety Association....    49
    Prepared statement...........................................    50

                                Appendix

Hon. John Thune, U.S. Senator from South Dakota, prepared 
  statement......................................................    65
Response to written questions submitted to Hon. David L. 
  Strickland by:
    Hon. Mark Pryor..............................................    65
    Hon. Claire McCaskill........................................    66
    Hon. Mark Warner.............................................    67
    Hon. John Thune..............................................    68
    Hon. Roger F. Wicker.........................................    69
    Hon. Roy Blunt...............................................    69
Response to written questions submitted to Susan Fleming by:
    Hon. Mark Pryor..............................................    70
Response to written questions submitted to Jacqueline S. Gillan 
  by:
    Hon. Mark Pryor..............................................    72
    Hon. Claire McCaskill........................................    73
Response to written questions submitted to Hon. Nicole Nason by:
    Hon. Mark Pryor..............................................    73
Response to written questions submitted to Robert Strassburger 
  by:
    Hon. Mark Pryor..............................................    74
    Hon. Claire McCaskill........................................    75
Response to written questions submitted to Vernon Betkey by:
    Hon. Mark Pryor..............................................    77
The Hertz Corporation, prepared statement........................    80
Jan Withers, National President, Mothers Against Drunk Driving 
  (MADD), prepared statement.....................................    84
American Car Rental Association, prepared statement..............    86


                 IMPROVING HIGHWAY AND VEHICLE SAFETY:
                    REAUTHORIZATION OF THE NATIONAL
                 HIGHWAY TRAFFIC SAFETY ADMINISTRATION

                              ----------                              


                        WEDNESDAY, JULY 27, 2011

                               U.S. Senate,
      Subcommittee on Consumer Protection, Product 
                             Safety, and Insurance,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:32 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Pryor, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. We are going to call our meeting to order.
    I want to thank everyone for being here. We have a full 
house today. We have some Senators who are coming and going. I 
know that Senator Rockefeller is working on the FAA bill. He is 
going to try to come by if he can, but he is trying to get that 
moved. I know I would rather him be there and work that out. 
But, anyway, I am glad that everyone is here. I want to welcome 
everyone to the Subcommittee today.
    We are here to discuss the reauthorization of the National 
Highway Traffic Safety Administration or NHTSA. We will also 
discuss how to improve safety standards in our vehicles and 
safety programs on our roadways.
    Today, we will hear from witnesses that represent the 
executive branch, the states, the automotive industry, and 
automotive safety advocates.
    I would like to start by thanking all of them for taking 
their time to be here today and for preparing their written 
testimony, and I hope that we're able to find common ground in 
improving safety on our roads and in our vehicles.
    The witnesses will provide us with a better understanding 
of NHTSA's two core missions; vehicle safety and highway 
safety. By improving in both areas, we hope to continue to 
reduce traffic fatalities. I was pleased to hear that the 
number of traffic fatalities fell 3 percent between 2009 and 
2010. But with over 32,000 traffic fatalities last year 
throughout our country, we need to keep on the right track in 
improving safety.
    Many of us may not think of how important traffic and 
vehicle safety can be until tragedy strikes. Unfortunately, 
many Americans have been touched personally by traffic 
fatalities. That is why I, along with Senator Rockefeller, have 
introduced the Motor Vehicle and Highway Safety Improvement Act 
of 2011 or, Mariah's Law, which aims to reduce the number of 
lives lost on roadway accidents. This law was named for the 
family of the high school student, Mariah West, from Rogers, 
Arkansas, who was killed in 2009. The day before her high 
school graduation in 2009, Mariah West was killed as a result 
of texting while driving.
    She lost control of her car, clipped a bridge and flipped 
into oncoming traffic to her death. Mariah's mother, Mary, has 
since become an advocate against distracted driving.
    In part, Mariah's Law will prevent others from a similar 
tragedy by concentrating resources to prevent distracted 
driving.
    In 2009, more than 5,400 people died, and about half a 
million were hurt in crashes involving a distracted or 
inattentive driver.
    This bill will also strengthen programs designed to stop 
dangerous driving behavior and step up vehicle safety so that 
families are protected by strong safety standards and devices 
when an accident does occur.
    Other provisions in the bill would update and consolidate 
highway safety programs, address emerging electronics and 
technologies in vehicles, prioritize transparency and 
accountability with vehicle investigations, and improve child 
safety.
    I want to thank Chairman Rockefeller for his input on this 
legislation that he and I have worked on in recent weeks to 
improve safety. I believe our legislation represents a 
reasonable, strong, smart, and lasting approach for dealing 
roadway and automobile safety concerns.
    Again, thank you to our witnesses and the visitors for 
attending today's hearing, and thank Senator Toomey for being 
here, and I'd like to recognize you for your opening statement.

             STATEMENT OF HON. PATRICK J. TOOMEY, 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Toomey. Thank you very much, Mr. Chairman, and 
thanks for holding this hearing today. I am sure there is not 
one of us that disputes the vital importance of vehicle safety. 
I think we also would acknowledge that we have got to make sure 
that we strive to play our modest role in contributing to that 
in the most efficient manner possible. And I think that we 
ought to acknowledge and recognize, as I am sure we all do, 
that manufacturers have an incentive to provide safe products 
and consumers will demand safe products as well.
    With that in mind, I will have a number of issues that I 
want to raise with the reauthorization bill in its current 
form. In its current form, I couldn't support this legislation, 
but it is certainly my hope that we can work together and get 
to a place where I can support it. I would like to be able to 
support this.
    And let me just touch on a few of the concerns that I have 
at this point in the legislation. Some have to do with mandates 
that are new and in this draft. Others have to do with the 
level of the total cost. I'm a little concerned about new 
mandates requiring disclosure regarding early warning data 
provisions.
    I have concerns about unintended consequences that would be 
associated with those provisions.
    I'm concerned about the increased costs that are associated 
with some of the new mandates on the event data recorders, and 
concerned about the way that it is/they are being implemented, 
given the development of this technology.
    I'm concerned, Mr. Chairman, about the increases in the 
civil penalties for defect violations and the impact that that 
will have on the cost to consumers. And I am concerned, 
frankly, that one of the things that I think is an important 
component of vehicle safety is not addressed in this bill, and 
that's the effect that CAFE standards have. I think there is 
mounting and very solid evidence that the weight productions 
that are effectively mandated by these CAFE standards result in 
increased fatalities, and I think we ought to find a way to 
address that.
    And, then, finally, I'm concerned about the cost of this 
bill. The chart over my shoulder is a chart that shows the 
increase in cost of this agency over the course of the last 10 
years. And since 2003 through last year, the spending has 
doubled. Now, I would argue that this is a microcosm of exactly 
why we are in the spot that we are in right now with very large 
deficits and a very significant budgetary problem.
    It's obviously not a relatively small agency that is 
causing our big budget problems, but it is the fact that this 
is not atypical of the Government as a whole. We have doubled 
the size of the Government since 2000. And when we do that, we 
find ourselves in very difficult circumstances. So, I would 
like to see if we can explore ways to do more with less because 
I think that is something that we are going to need to do.
    In any case, I appreciate your holding this hearing, Mr. 
Chairman, and look forward to working with you. And I want to 
thank the witnesses for being here today.
    Senator Pryor. Thank you. And our Senators who are in 
attendance today decided they'd like to submit their opening 
statements for the record in order to get on to the first 
panel.
    And our panelist today, our witness is the Hon. David L. 
Strickland. He is the Administrator of the National Highway 
Traffic Safety Administration, U.S. Department of 
Transportation.
    Mr. Strickland, welcome. I should say welcome back to the 
Committee. Thank you for being here again today and thank you 
for your service on this Committee and also where you are 
today.
    Thank you.

             STATEMENT OF HON. DAVID L. STRICKLAND,

 ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    Mr. Strickland. Thank you, Mr. Chairman and Ranking Member 
Toomey, Mr. Wicker, Mr. Udall. Thank you so much for the 
opportunity to be back here in front of the Senate Commerce 
Committee to discuss the future of the National Highway Traffic 
Safety Administration. It is very important work, and I know 
that you guys are all collectively very interested in what we 
do and collectively for the entire Department as a whole.
    According to National Highway Traffic Safety Administration 
data, the Nation maintained a steady downward trend in traffic-
related fatalities last year. While the projected number of 
32,788 deaths in 2010 is still too many, it is the lowest 
number of fatalities since 1949.
    Even more encouraging, the Nation's fatality rate is 1.09 
deaths per 100 million vehicle miles traveled, continuing its 
downward trend over the last 25 years. In spite of these 
encouraging trends, we face many challenges in maintaining and 
accelerating these improving numbers.
    Alcohol-impaired traffic-related fatalities account for 32 
percent of the Nation's losses. Approximately half of all 
occupant fatalities in traffic crashes are unbelted.
    Distracted driving is a growing concern, and many areas 
around the country are facing increased risks to pedestrians.
    I commend this Committee's work on reauthorization 
discussion draft, which includes certain helpful enhancements. 
While the Administration has not formally commented on this 
discussion draft, which will limit my remarks, I will be happy 
to discuss the issues generally and with more specificity where 
technical assistance was provided to the Committee.
    I'd like to begin my policy remarks on the issue of 
motorcycle safety. Between 2004 and 2009, the number of 
motorcycle crash fatalities increased by 11 percent to 4,462. 
Between 2008 and 2009, I'm happy to report that the number of 
motorcycle fatalities fell 16 percent, the first decrease that 
we have seen in more than a decade. I firmly believe that we 
can build upon that progress. The most important step that we 
can take to reduce the deaths of motorcyclists on our roads and 
highways is to assure that all riders wear a DOT-compliant 
helmet.
    The agency looks forward to working with the Committee to 
find an effective and flexible means to increase helmet usage.
    As you know, Secretary LaHood and I have been outspoken 
about the dangers of distracted driving, and, Mr. Chairman, I'd 
like to thank you and Mr. Rockefeller for your hard work on 
this issue as well. And we support a robust program to counter 
this program as presented in the reauthorization draft.
    As reflected in the technical assistance provided to the 
Committee, the agency would provide--ask for two modifications 
to this particular draft. Regarding the distraction grant 
criteria, the agency requests the provision of an authority to 
develop qualifying criteria through notice and comment 
rulemaking.
    Second, to close the safety authority gap regarding 
portable electronic devices in vehicles, the agency 
respectfully asks for the authority to develop in-vehicle 
safety performance standards for these devices pertaining to 
driver use.
    NHTSA also thanks the Committee for the provision of the 
new authority over used and rental vehicles in this draft. I, 
in particular, would like to call attention to Sections 411 and 
412 dealing with noncompliant or defective conditions in used 
passenger vehicles and rental vehicles. These two provisions 
would protect consumers in a significant segment of the motor 
vehicle population that NHTSA currently cannot reach 
effectively.
    The draft also contains a large number of rulemaking 
provisions with some relatively short time frames allowed for 
completion. However, I do appreciate the inclusion of the 
provision that would permit the agency, when necessary, to 
lengthen those time frames and explain to the Committee for 
jurisdiction why it must do so.
    NHTSA looks forward to working with the Committee and the 
Congress to share our thinking on rulemaking priorities and 
developing a consensus rulemaking agenda that will address 
risks to the driving public.
    One provision of the draft would also impose stricter post-
employment restriction on NHTSA employees. I believe that the 
Obama administration had the highest, the most comprehensive 
standards regarding ethics of any Administration.
    Secretary LaHood holds the staff of the entire Department 
to the highest ethical standard. If there is any evidence of 
violation of these rules, swift and appropriate actions will be 
taken.
    The agency looks forward to the opportunity to discuss 
effective and federally consistent ethics process improvements.
    Again, I would like to thank and commend the Committee and 
its staff for a thoughtful and comprehensive draft. I would 
like to, however, once again offer our assistance if requested, 
and I'm happy to take any questions.
    [The prepared statement of Mr. Strickland follows:]

    Prepared Statement of Hon. David L. Strickland, Administrator, 
             National Highway Traffic Safety Administration

    Mr. Chairman, members of the Committee, thank you for the 
opportunity to return to the Commerce Committee to testify on surface 
transportation reauthorization. As a staffer on the Commerce Committee, 
I had the opportunity to work on the last surface transportation 
reauthorization, SAFETEA-LU. Now I have the distinct honor of 
representing the Obama Administration in working with this Committee 
and the Congress to shape NHTSA's future. While my vantage point may be 
different, rest assured that I am as deeply committed to this 
reauthorization now as I was during SAFETEA-LU.
    According to NHTSA data, the Nation maintained a steady downward 
trend in traffic related fatalities last year. While the projected 
number of 32,788 deaths in 2010 is still too many, it is the lowest 
number of fatalities since 1949. Even more heartening, the Nation's 
fatality rate is 1.09 deaths per 100 million vehicle miles traveled and 
has been on a downward trend for 25 years.
    At the same time, we continue to face many challenges in ensuring 
ongoing improvement. Alcohol-impaired driving continues to account for 
32 percent of the Nation's traffic-related fatalities. Approximately 
half of occupant fatalities in traffic crashes are unbelted. Along with 
these more mature challenges, distracted driving is an increasing 
concern, and many areas around the country are facing increased risks 
to pedestrians.
    Improving NHTSA's statutory authority would better enable the 
agency to address these and other highway safety issues. The 
Committee's reauthorization discussion draft includes certain helpful 
enhancements. While the Administration has not formally commented on 
the discussion draft, which will limit my remarks, I will be happy to 
discuss the issues generally and with more specificity where technical 
assistance was provided to the Committee.

Streamlining the Grants Process
    First, I want to compliment the Committee on its proposal for 
streamlining the grant process for states and promoting performance-
based approaches and accountability. I believe that the Committee's 
provision to establish a single grant application deadline, along with 
efforts to consolidate reporting and applications, will allow states to 
spend less time on administrative details, and more time developing and 
implementing effective safety countermeasures.

Motorcycles
    Between 2004 and 2009, the number of motorcycle crash fatalities 
increased from just over 4,000 to 4,462; an 11 percent increase. The 
number of motorcycle fatalities fell 16 percent between 2008 and 2009, 
the first time there has been a decrease in more than a decade. I 
firmly believe that we can build on that progress. The most important 
step we can take to reduce the deaths of motorcyclists on our roads and 
highways is to assure that all riders wear a DOT-compliant helmet.
    A grant program emphasizing the use of motorcycle helmets would be 
effective in reducing fatalities. NHTSA's data show that, between 2005 
and 2009, motorcycle helmets saved more than 8,000 lives. NHTSA 
estimates that the use of motorcycle helmets by motorcyclists reduces 
the likelihood of a motorcycle crash fatality by 37 percent for 
operators and 41 percent for passengers. To address these crash 
fatality numbers, the addition of eligibility criteria to emphasize the 
use of motorcycle helmets would be an effective and positive step in 
protecting public health and safety, while recognizing the rights of 
states to make choices for their citizens. I appreciate the Committee's 
inclusion of a provision that would clarify the agency's authority to 
take action with regard to all-noncompliant or defective motorcycle 
helmets.

Distracted Driving Provisions
    As you know, Secretary LaHood and I have been outspoken about the 
dangers of distracted driving. We support a robust program to reduce 
distracted driving as presented in the Committee draft.
    Today less than 15 states have a primary enforcement law that bans 
drivers under the age of 18 from driving while using a cell phone. 
Given the complexity surrounding the eligibility criteria to receive a 
grant, I suggest that the Committee consider providing NHTSA with the 
authority to make this determination through notice and comment 
rulemaking.

Improved Authority
    I want to thank the Committee for including several helpful 
provisions that expand the agency's capabilities. These include:

  <bullet> Authority to ensure that notification of non-compliant or 
        defective conditions in used passenger vehicles and in rental 
        vehicles is provided to consumers;

  <bullet> Increased authority to address safety hazards caused by some 
        imported motor vehicle equipment;

  <bullet> Increases in the total amount of civil penalties NHTSA can 
        seek for a related series of violations; and

  <bullet> Support for collaborative research in developing and 
        deploying in-vehicle alcohol detection systems.

    I would like to call particular attention to section 411 on used 
passenger motor vehicle consumer protection and section 412 on safety 
of recalled rental motor vehicles. These two provisions would protect 
consumers in a significant segment of the motor vehicle population that 
we currently cannot reach effectively. Our statutory authority does not 
permit NHTSA to require action by used car dealers or rental companies 
with regard to recalled vehicles. We do not have any authority to 
protect consumers at the rental counter or those looking to purchase a 
used vehicle. These two simple provisions are critical to ensure that 
consumers are notified of recall issues before they purchase a used 
vehicle or rent a car.
    Together these enhanced authorities would permit NHTSA to ensure 
motor vehicle and equipment safety on a broader basis than we can 
today.
    However, the technical drafting assistance we provided to the 
Committee in May included agency policy proposals on several measures 
that are not in the Committee draft, including:

  <bullet> Authority over portable electronic devices in vehicles to 
        address the clear and serious distraction hazard they pose;

  <bullet> Authority over devices external to vehicles that will be 
        essential to ensure the safety, security, and effectiveness of 
        vehicle-to-vehicle communications in order to realize the 
        enormous safety benefits these systems may bring; and

  <bullet> Direct appellate review of recall orders to ensure that 
        manufacturers have the opportunity to challenge orders while 
        avoiding lengthy district court trials during which no recall 
        is in effect to protect consumers.

    Without the additional authority such provisions would provide, 
NHTSA would be hard pressed to adequately address some very serious 
safety issues. For example, vehicle-to-vehicle communications hold the 
promise of significant safety advances by enabling inter-vehicle 
communications to reduce the likelihood of many types of crashes. Such 
communications systems are likely to depend on electronic devices 
external to the vehicles working in concert with in-vehicle devices. 
NHTSA's issuance of standards concerning those external devices would 
be very helpful to ensure the reliability and security of those 
communications. A clarification of the agency's authority to do so is 
an important element in furthering the development of those systems.

Rulemaking
    The draft bill contains a large number of rulemaking provisions, 
some with relatively short times allowed for completion. However, I 
appreciate the inclusion of a provision that would permit the agency, 
when necessary, to lengthen those time frames and explain to the 
committees of jurisdiction why it must do so. This will permit the 
agency to continue to prioritize its regulatory work based on its 
judgment of the likely safety benefits and its available resources.
    While the agency is currently working on some of the safety 
challenges identified in the Committee draft, some provisions include 
subjects not currently on our agenda. We develop our research and 
rulemaking priorities by focusing on the most significant safety risks, 
particularly vulnerable populations and high occupancy vehicle issues. 
The agency looks forward to working with this Committee and the 
Congress to share our thinking on rulemaking priorities, and developing 
a consensus rulemaking agenda that will address risks to the driving 
public.

Post-Employment Restrictions
    One provision of the draft would impose stricter post-employment 
restrictions on NHTSA employees. We believe that a provision singling 
out NHTSA employees for stricter treatment is not the most effective 
means to achieve the intended goals of the provision, and could cause 
other unintended consequences that may affect the agency in 
accomplishing its mission. At the request of this Committee, the DOT 
Office of Inspector General conducted a full review of NHTSA's ethics 
procedures and their adequacy to prevent undue influence being exerted 
on NHTSA's safety defect investigations.
    I would like to call attention to a letter to the Committee dated 
April 4, 2011 from the Inspector General, which found that NHTSA had 
adequate controls in place to ensure employees' compliance with ethics 
requirements and found no evidence of undue influence during 
investigations. The Inspector General made no recommendations for 
changes in NHTSA's ethics policies, procedures, and practices.
    The Obama Administration has set forth some of the most 
comprehensive ethics rules of any administration. The Secretary holds 
the staff of the entire Department to the highest ethical standard. The 
agency looks forward to the opportunity to discuss effective and 
federally consistent ethics process improvements.
    I thank the Committee and its staff for paying such close attention 
to the important highway safety issues NHTSA confronts and for the hard 
work that went into preparing the Committee's thoughtful draft. I look 
forward to continue working with the Committee to address some of the 
issues discussed here today. Thank you for the opportunity to offer 
these comments. I am happy to answer any questions you may have.

    Senator Pryor. Thank you. And we will have some questions. 
Let me go ahead and ask the first one and that would be during 
the last several years, the U.S. has seen a decline in traffic 
fatalities. How can we keep that trend going in the right 
direction in the future?
    Mr. Strickland. Well, Mr. Chairman, there is a number of 
initiatives that I think have been very successful that we have 
seen from the effects of the last reauthorization in 2005 
SAFETEA-LU. In addition, there is some modifications that we 
believe as lessons learned from our behavioral programs, 
clearly getting belt usage up. We're currently 85 percent as a 
Nation. The closer that we get to 100 percent belt compliance 
is thousands of lives saved per year.
    Clearly, reducing the number of impaired fatalities is key. 
Thirty-two percent of those are still, unfortunately, alcohol-
related. And our work not only on the behavioral side 
supporting law enforcement efforts, but also our outreach 
campaigns, as we have done over the years along with the belt 
campaigns, have proven to be very successful.
    Also, as we mentioned, work on distraction, and our other 
issues that are very important to us, whether it is speed 
control, aggressive driving, red-light running, and a host of 
other behavioral issues is important.
    On the vehicle safety side, as you know, we are working 
very hard to work through our priority rulemaking agenda--I can 
talk about that in more detail--in addition to finalizing work 
on some significant safety issues, such as the Rearward-
visibility rule, which we will finish this year, and others. 
So, we think the comprehensive programs can be built upon, and 
I think the Committee strived to give us the ability to do just 
do that.
    Senator Pryor. Thank you. And I know that in Connecticut 
and New York, there has been some demonstration projects on 
distracted driving. Apparently, you know, sort of high 
visibility, you know efforts to stop the distracted driving 
there. Have those been a success and what have we learned 
there, and what else can we do? What other research are you 
doing to try to curtail distracted driving?
    Mr. Strickland. Well, Mr. Chairman, I think you highlighted 
those two programs, which were astounding successes. Basically, 
the reductions of both Hartford, Connecticut and in Syracuse, 
New York showed that our model for seat belt safety and for 
impaired driving worked, which is high-visibility advertising. 
We ran an ad campaign in conjunction with those two 
jurisdictions, phone in my one hand, ticket in another, along 
with high- visibility enforcement. We had great cooperation 
with the law--with the enforcement personnel in both of those 
areas and along with good, strong State laws, which actually 
had bans on hand-held cell phones, as well as texting bans. And 
we saw reductions of between 30 and 70 percent in texting and 
hand-held cell phone use in both of those jurisdictions.
    From that demonstration project, the Secretary's hope is to 
actually expand these programs to a statewide level in 
particular jurisdictions, and then we will get more lessons 
learned there, but we think that it's a rousing success.
    Senator Pryor. Let me ask about nomadic vehicles, you know, 
things like cell phones, even iPads, et cetera. Who should have 
the authority on the regulation of those, FTC or NHTSA or both?
    Mr. Strickland. Mr. Chairman, not to--not to sort of 
undercut my own efforts as administrator or the agency's 
efforts here, someone needs to fill that safety donut. Right 
now, NHTSA has a safety authority for vehicles, but not over 
nomadic device that can be brought into the vehicle.
    The Federal Communications Commission has authority over 
the nomadic devices, but they don't have safety authority or, 
specifically, how their products are used especially when 
they're tethered to motor vehicles. So, our suggestion would be 
in this particular scenario to provide authority for NHTSA to 
develop performance standards regarding nomadic devices in 
vehicles. The bottom line is people will bring iPhones or 
Droids or anything else into the vehicle. They have 
applications which are very alluring to people.
    Some of them are useful for the motorcycle, for the motor 
vehicle environment like GPS systems, but on a phone this big, 
it is not very effective, and it is dangerous for a driver. For 
telephonic communications and other things, the goal is to try 
to tether those devices to the vehicle. And the only way that 
the agency can effectively do that is to be able to perform and 
have standards so that at least to force the driver to tether 
the device to the vehicle or to disable it for the driver while 
it is in motion. So, then, you could use an on-board system for 
the vehicle. That's the only way that we can really be sure 
that we have an on-board system that really truly is safe and 
avoids distractions.
    Senator Pryor. OK. Mr. Toomey?
    Senator Toomey. Thank you, Mr. Chairman.
    Administrator Strickland, it is my understanding that 
currently the agency has about $472 million in unobligated 
funds on hand. And it is also my understanding that NHTSA 
recommends that $151 million of that be rescinded, and that 
that corresponds to an amount for which the states have not 
expressed any interest in available grants, and so that's 
appropriately being suggested for rescission.
    I guess my first question is, do I have those numbers 
right, approximately? And, second, does the agency plan to 
spend the remaining $321 million that's unobligated at this 
point by the end of this Fiscal Year, which is only 2 months 
away?
    Mr. Strickland. Well, Mr. Toomey, in terms of how the 
unobligated funds are actually--are actually optically seen by 
those reviewing the books and versus reality, that money, the 
$472 million that you alluded to, is actual funds that are used 
by the states to execute the programs that are so important and 
key for citizen safety on the roads throughout the country 
whether it is belt enforcement or alcohol-impaired driving 
enforcement or data improvement. There is a range of other 
issues. And because of eccentricities in the budgeting process 
here in Washington, D.C., inefficiencies with other matters, 
states sometimes have a little harder time executing, and 
actually obligating, and spending those funds. So, while it 
looks on the books, they are unobligated, those funds are 
actually accounted for by all 50 states in terms of how they 
use our programs.
    Senator Toomey. Does that include the $151 million that's 
been recommended for rescission?
    Mr. Strickland. I was just getting back that that, Mr. 
Chairman--I mean, Mr. Ranking Member, I apologize. The issue, 
there is as part of the 406 Incentive Program for primary 
belting, which is a large incentive for states to pass primary 
belt laws. So, therefore, if a state is not close or hasn't 
passed primarily belt law, you know, those funds can possibly 
go unused. It is getting close to the end of the fiscal year, 
which is the reason why the Department has suggested that some 
of those funds can be rescinded. However, those funds can be 
used in much more effective ways, which we have suggested in 
our technical--our technical comments to reauthorization. But 
that particular program is a very specific and special one that 
came from SAFETEA-LU, and I would not say it is typical of the 
typical programmatic work that NHTSA undertakes in terms of its 
usual work.
    Senator Toomey. OK. But getting back to the 321, though, 
I'm not sure if I understand completely, but am I--would I be 
correct to understand that these funds are committed? That they 
are--that grants have been applied for? They've been approved? 
The funds are earmarked? The money is going to these places? 
They just haven't been released yet? Is that a fair 
characterization?
    Mr. Strickland. It's a combination of things, Ranking 
Member. The issue really is that states, because of the 
budgetary eccentricities, by the time that money is actually 
released from the Federal Government through the Department to 
the states, by the time the states have an opportunity to get 
their programs up and running and then obligated, there is 
often a lag time. We work very hard through our regional 
offices to encourage the states to get these obligated funds 
spent. And sometimes as part of the eccentricities of the 
budgeting process--and I'm sure that Mr. Betkey at GHSA can 
sort of talk about this issue as well--that when there is an 
issue such as, you know, an extension, a lack of an extension 
for the Highway Reauthorization bill, these funds are often 
used as carry over by the states. It isn't intended to do so, 
but states sometimes plan it that way and we encourage them not 
to do that.
    Senator Toomey. OK. But let me move on. It is still not 
entirely clear to me what timeline is here.
    Mr. Strickland. We are happy to get back to you for the 
record.
    [The information referred to follows:]

    Question. NHTSA reported a current unobligated balance of 
$472,066,720 of Fiscal Year 2011 funds. Please explain what these funds 
are, and why this late in the fiscal year the Agency has this funding 
as yet unobligated. Explain how you plan to obligate the funds before 
the end of the fiscal year.
    Answer. The unobligated balance of $472 million is as of June 30, 
2011. Of the $472 million, $150 million has been identified to the 
Congressional Appropriations Staff as being available for rescission, 
leaving a balance of $322 million. Approximately $196 million (61 
percent) is the NHTSA formula grant program funding for Sections 408, 
410, 2010, and 2011 safety grant programs. By regulation, applications 
for these programs from the State Offices of Highway Safety are due 
late in the fiscal year--starting June 15 and up to August 1. 
Consequently, these funds are reported as unobligated until late in the 
fiscal year. We affirm that, as in past years, NHTSA personnel are on 
schedule to award the entire amount of available funding by the end of 
Fiscal Year 2011.
    The remaining $126,000,000 (39 percent) are programmatic and 
administrative dollars. As has been the case in previous years, we 
fully expect to obligate the majority of these funds by the end of this 
fiscal year, with the exception of the 2-year funding ($30 million). 
These funds are broken down as follows:

  <bullet> Approximately $30 million are for salary, benefits, and 
        general administrative support (such as rent and IT) for the 
        remainder of the fiscal year.

  <bullet> Approximately $20 million is 2-year vehicle research and 
        analysis money; these funds will be obligated by the end of 
        Fiscal Year 2012 on ongoing vehicle research projects, 
        including such items as biomechanics and crash avoidance.

  <bullet> Approximately $10 million is 2-year behavioral research 
        money, which will be obligated for data collection and 
        analysis.

  <bullet> The remaining $66 million funds other ongoing program 
        activities, particularly contracts that we plan to obligate by 
        the end of the current fiscal year.

    Senator Toomey. I would like to understand this better.
    Mr. Strickland. Yes, sir, absolutely.
    Senator Toomey. A separate question, if I could. Last year, 
you told the Committee that the information that you get from 
manufacturers through the early warning reporting process is 
helpful in identifying potential defects, and so I assume that 
is still your position that that is helpful information?
    Mr. Strickland. Yes, Ranking Member, it is.
    Senator Toomey. Now, at the time and subsequently in your 
report, the priority plan that you published in March, there 
was no suggestion by yourself, that I am aware of, that this 
information be made public. And, you know, one of the concerns 
that is expressed is that some of this could include unverified 
information, for instance. Some of it could create 
inappropriate liabilities. Are you at all concerned that this 
could hamper the flow of information that you have identified 
as helpful information?
    Mr. Strickland. Well, Mr. Toomey, the one thing that the 
Department as a whole, NHTSA, the Obama administration 
encourages is, is transparency, and we want to provide the most 
information that we can to the public. I think it serves, 
frankly, the Nation's best interest. However, the agency has 
acted in terms of rulemaking, in terms of protecting the 
proprietary and confidential business information. If there is 
anything that affects that information coming to the agency, it 
does impact our operations. Can that process be improved? Could 
there be a better screen and more transparency? There is always 
that opportunity. We are happy to discuss that. But, you know, 
to underscore, we do believe that anything that discourages the 
manufacturers from providing information to the agency that 
they consider proprietary or confidential would hamper our 
operations in terms of making safety evaluations.
    Senator Toomey. Thank you very much, Mr. Chairman.
    Senator Pryor. Thank you. Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Senator Pryor, Chairman Pryor, 
and thank you for holding this hearing.
    Mr. Strickland, I know that you and Secretary LaHood have 
previously stated support for the Research and Development 
Program which my legislation, the ROADS SAFE Act, would 
authorize and sustain. Could you explain to the Committee how 
NHTSA is working with leading automakers to develop new in-
vehicle technologies to prevent and potentially eliminate drunk 
driving?
    Mr. Strickland. Mr. Udall, you have highlighted the driver 
alcohol detection systems for safety work that we have been 
working on for the past 3 years with the manufacturers. This 
year is actually the fifth year anniversary of Mothers Against 
Drunk Drivers campaign to eliminate drunk driving. And this is 
one of the hallmarks of this work, which is to create an auto 
grade seamless unintrusive and variably accurate system for a 
vehicle to see if a person is driving over the legal limit, 
which is 0.08. And if the car detects that, to interlock the 
vehicle from actually being driven. We are in the third year of 
our work in Phase 2 of the research and from--frankly, when I 
was still working for Mr. Pryor, working on this Committee, I 
frankly as a staffer did not think that it was a possibility to 
have an in-vehicle technology which could be seamless to 
prevent a car from being driven by an impaired driver.
    The work that we have seen so far has shown that it is 
entirely possible. We have a long way to go. We have two more 
years' worth of work and more resources to expend, along with 
the manufacturers, but this really is our moon shot. It is an 
opportunity to make sure that no car with this type of 
technology can ever be driven by an impaired driver. We think 
there is huge promise in that, which is the reason why the 
Secretary and I have supported your legislation.
    Senator Udall. Well, I think that it is very promising what 
you say. And as we know, every new development and every step 
we make forward, we save lives, so that is----
    Mr. Strickland. Yes, sir.
    Senator Udall.--tremendously important.
    I want to talk to you a little bit about these event data 
recorders. We have had a number of hearings. I think you were 
here also in the past when we looked at this whole issue of 
data recorders.
    Mr. Strickland. Yes, sir.
    Senator Udall. There is no doubt they provide critical 
information in the event of a crash. This information can serve 
to determine whether a vehicle malfunction was to blame. The 
last Congress, I introduced legislation to require event data 
recorders in all vehicles, and I am glad to see that they will 
be required for all light-duty vehicles in the proposed 
legislation. Is there value in requiring event data recorders 
in medium and heavy-duty vehicles and what steps need to be 
taken before EDRs can be effectively deployed in medium and in 
heavy-duty vehicles?
    Mr. Strickland. Well, Mr. Udall, you highlighted the fact 
that event data recorders or EDRs are essential pieces of 
equipment for the agency to do analytical work on what happened 
in the case of a crash, which means rather than caused by a 
vehicle defect that poses an unreasonable risk. We are still in 
the research phases in terms of the effectiveness and the 
variables that may be involved in event data recorders on 
medium duty and heavy-duty vehicles. I definitely would like to 
have my staff get back to you specifically on the record in 
terms of where we are in that process and the things that we're 
looking that. But because EDR showed such promise in the light-
duty fleet, I think anecdotally there should be promise in the 
medium duty and heavy-duty fleet, but, clearly, there is more 
complexities, different physics issues that are involved, 
different technology issues that are involved which may take 
some work and some time, but we are happy to engage in a 
conversation with you and the rest of this Committee on that 
issue.
    Senator Udall. Great. Thank you. And I look forward to your 
responses there.
    The proposed bill includes a provision that would require 
the Secretary to establish a grant program for states that 
enact mandatory ignition interlock laws for all drunk-driving 
offenders.
    Mr. Strickland. Uh-huh.
    Senator Udall. In New Mexico, we found that ignition 
interlocks have been key to reducing drunk driving on our 
roads. Can you explain why interlocks as opposed to license 
suspension are the key to addressing these drunk-driving 
issues?
    Mr. Strickland. Mr. Udall, license suspension does not 
prevent a driver from getting behind the wheel impaired. People 
will often, throughout the fact that they are driving without a 
license, continue to drive anyway. And also recognizes the 
realities that people after they've been convicted of impaired 
driving still have, you know, lives to lead, school to go to, 
jobs to go to. And the first--then a first-offense interlock 
allows those people that have been convicted to then continue 
on with those activities safely. So, that is the reason why 
that we put so much emphasis on the grant program to encourage 
more states to undertake interlocks because the margin of 
safety is immeasurable. Just as a work in DADSS' long term, we 
know ignition interlocks work and we, hopefully, can encourage 
the Committee to maintain this provision going forward.
    Senator Udall. Well, we know they are very effective in New 
Mexico and I look forward to answering questions, and hope you 
answer questions from other states to see that they 
proliferate.
    Thank you, and sorry for going over a little bit, Mr. 
Chairman.
    Senator Pryor. Thank you. Senator Blunt?

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. I thank you, Mr. Chairman.
    Mr. Chairman, I have a statement for the record, and we 
will just put that in the record.
    [The prepared statement of Senator Blunt follows:]

    Prepared Statement of Hon. Roy Blunt, U.S. Senator from Missouri

    Chairman Pryor and Ranking Member Toomey, I appreciate you holding 
this important hearing this afternoon and for allowing me to make a few 
brief comments and observations.
    For more than 40 years, the National Highway Traffic Safety 
Administration has been charged with one very important task, and that 
is to help make our Nation's highways safer. This is a very important 
endeavor nationally, and as someone who represents a state with huge 
tracts of interstate highways and various other Federal highways it is 
equally important to me.
    In 2009, the most recent year for which the Missouri Department of 
Transportation has records, 577 fatal accidents occurred on Missouri's 
highways, resulting in over 650 deaths. I'm mindful that there were 
over 75,000 crashes on our highways that year as well, so I recognize 
that the cars on the road, and the roads themselves, are much safer, 
and NHTSA has played a role in facilitating better safety measures. But 
there is much more that can be done.
    I look forward to hearing today about some on-going issues that 
NHTSA is addressing, notably recall issues and revamping the state 
grant awarding process to better reflect performance and a streamlined 
application process. I think these are notable goals, and at a time 
when the Federal Government is reprioritizing spending, it goes without 
saying that our grant award processes should reduce redundancies and 
reward those that make their dollars go the farthest.
    We are all here today are looking for the best ways to make our 
highways safer and to streamline pertinent information about recalls 
and defects to NHTSA, manufacturers, retailers and consumers.
    Everyone from the drivers on the road to the manufacturers 
assembling our cars are best served when processes are in place to 
quickly repair cars that need fixing and to remove the ones that cannot 
from the road.
    We have come a long way in terms of automobile safety in the past 
30 years in reducing the number of accidents on our Nation's highways 
and the number of fatalities and injuries that result. There is much 
left to be done and, again, I look forward hearing today how we can 
work together to limit these types of tragedies further.
    Thank you Mr. Chairman.

    Senator Blunt. Mr. Strickland, thank you for being here. 
Let me ask a question, a follow-up question on the EDRs. I 
think this legislation expands the parameter of how long the 
EDR would report.
    Mr. Strickland. Uh-huh.
    Senator Blunt. Can you talk to me about--I think right now 
I just captured a little time before, during and after the 
accident. I wonder why that is not enough?
    Mr. Strickland. Well, right now, Mr. Blunt, we are actually 
undergoing a plan for rulemaking for changing certain 
parameters on event data recorders which we think will be of 
assistance to the agency. However, there has been no final 
decisions internally because we are researching what is the 
right time segment for us to collect information that would be 
helpful in crash reconstruction and investigations.
    While the Committee's draft does have a specific time 
period, I know that the technical staff at NHTSA is still 
considering that issue. We'll be happy to come back and discuss 
with you those particular parameters and where we are and what 
will be the----
    Senator Blunt. That will be great. Do you know what the 
correct time period is for EDR?
    Mr. Strickland. Actually, sir, I do not. I am not sure. 
It's 5 seconds, Mr. Blunt.
    Senator Blunt. Five seconds.
    Mr. Strickland. Five seconds. Five seconds.
    Senator Blunt. Well, I would like to talk a little more 
about that as the staff is ready to do that. And on the issue 
of recall, what are the annual recall completion rates now?
    Mr. Strickland. It is about 70 percent for full vehicles, 
sir, but it is less than that for motor vehicle equipment. It 
is something that we are working very hard to improve 
generally. I know that this is an issue that faces, frankly, 
every consumer protection agency that deals with products 
whether it is our agency or the Consumer Product Safety 
Commission, but we hope to work very hard and make some changes 
in the recall process to increase those completion rates, but 
it is about 70 percent for cars.
    Senator Blunt. Would it be your opinion that the fleet 
recall completion rate is higher than the overall rate like a 
rental company or another fleet rate? Would they more likely 
pursue the recall or less likely?
    Mr. Strickland. Well, comparatively speaking, I don't have 
those numbers, Mr. Blunt. We will get back to you. I will tell 
you----
    Senator Blunt. Well, somebody on your team may know back 
there.
    Mr. Strickland.--and, once again, I think--you know, we 
have stumped our senior associate administrator for vehicle 
safety on that one. I do not think we have done a complete 
comparison between fleet rates for rental cars versus the 
overall population, but I will say, Mr. Blunt, the concern that 
we have is the timeliness and the completion of rental car 
companies undertaking recall repairs. We have undertaken an 
audit query and we've engaged very actively with the rental car 
companies to improve that asset, because they are putting these 
cars in the stream of commerce and putting consumers at risk if 
these cars are not repaired.
    Senator Blunt. But you are trying to determine whether 
there really is a systemic problem or not with the--like the 
rental company?
    Mr. Strickland. Well, Mr. Blunt, to be honest, we have 
established it, and there is a systemic problem. That is the 
reason why.
    Senator Blunt. And the problem is they do not pursue the 
recall information or they do not tell people that this vehicle 
is under recall and hasn't been fixed yet?
    Mr. Strickland. Both, sir. They haven't--they do not fix 
them timely and they don't tell consumers.
    Senator Blunt. And that is--you have a report that verifies 
that?
    Mr. Strickland. Yes, sir, we do. Happy to--we will provide 
it to you post-hearing.
    Senator Blunt. I would like to see it.
    Mr. Strickland. Yes, sir.
    Senator Blunt. Chairman, I think that is all. Thank you.
    Senator Pryor. Thank you. And just to follow up on that 
last question, Senator Blunt. The bill that we are proposing or 
shopping around does not have a specific time period. It is 
just shall require data recorders to capture and store data 
related to motor vehicle safety covering a reasonable time 
period before, during, and after motor vehicle crash or airbag 
deployment.
    Senator Blunt. So, Mr. Chairman, do we think that might be 
5 seconds for that?
    Senator Pryor. Well, that is what--we are leaving that open 
right now and we need to talk about that. I just want to let 
you know just for clarification.
    Senator Blunt. Thank you, Chairman.
    Senator Pryor. Thank you.
    And, Mr. Strickland, thank you so much for being before the 
Committee today, our Subcommittee today. We really appreciate 
your efforts there. I know that I have some questions I want to 
submit for the record, and I think a few of my colleagues do as 
well, so we're going to leave the record open for 2 weeks. We 
are going to leave the record open for 2 weeks. Is that right? 
Do you want to go less? We may try to leave the record open 
just for a week because we may actually try to mark----
    [Laughter.]
    Mr. Strickland. Well, Mr. Chairman, when I served you, sir, 
I gave you 2 weeks, but I know what your current staff is 
doing.
    Senator Pryor. I know; I will tell you.
    [Laughter.]
    Senator Pryor. But anyway, whatever, we will talk to you--
--
    Mr. Strickland. Yes, sir.
    Senator Pryor.--and then figure out what that is exactly, 
but we'd appreciate those rapid responses, as always. Thank you 
very much for your time and your service.
    Mr. Strickland. No. Thank you, Mr. Chairman. I really do 
appreciate it, Mr. Toomey and Mr. Blunt, thank you for the 
time.
    Senator Pryor. Right. Well, what we will do now is, as Mr. 
Strickland excuses himself, we will move on to the next panel. 
And as we are getting this panel set up, we are going to try to 
do a quick change there and I will go ahead and introduce the 
panel, the five panelists here.
    We have Ms. Susan Fleming. She is the Director of Physical 
Infrastructure, U.S. Government Accountability Office.
    We have Ms. Jacqueline Gillan, Vice President, Advocates 
for Highway and Auto Safety.
    We have the Honorable Nicole Nason, which is former 
National Highway Traffic Safety Administrator.
    Mr. Robert Strassburger, Vice President, Vehicle Safety and 
Harmonization, Alliance of Automobile Manufacturers.
    And Mr. Vernon Betkey, he is the Chairman, Governors 
Highway Safety Association.
    So, as soon as we get set up, I will recognize Ms. Fleming 
for her opening statements and we are going to respectfully ask 
you all to keep your statements to 5 minutes, if at all 
possible.
    We are expecting a roll call vote sometime within the hour, 
so I'm going to try to move this along, if possible.
    Ms. Fleming, you're recognized.

             STATEMENT OF SUSAN FLEMING, DIRECTOR,

                    PHYSICAL INFRASTRUCTURE,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Fleming. Chairman Pryor, Ranking Member Toomey, and 
members of the Subcommittee, thank you for the opportunity to 
discuss NHTSA's traffic and vehicle safety programs.
    During the last several years, U.S. traffic fatalities have 
declined substantially from about 43,500 in 2005 to 
approximately 33,000 in 2010, yet far too many people are still 
killed or injured on our Nation's roadways every year.
    In addition, auto manufacturers recalled a record 14.9 
million vehicles in 2010 to address a range of safety issues 
such as malfunctioning airbags and faulty steering columns.
    On average, about 70 percent of vehicles subject to a 
recall are fixed while the remainder may continue to pose risks 
to vehicle owners, passengers, and pedestrians.
    My testimony today has three parts. I will discuss NHTSA's 
progress in improving oversight and performance management for 
traffic safety grant programs, NHTSA's oversight of the auto 
safety defect process, and issues for Congress to consider in 
reauthorizing funding for traffic and vehicle safety problems.
    First, NHTSA has taken several steps to better oversee 
State's management of safety grants and move toward a more 
performance-based framework. As we recommended in 2003, NHTSA 
has implemented a more consistent oversight process and now 
conducts a management review of each State at least once every 
3 years.
    In addition, NHTSA developed a tool called the corrective 
action plan to track States' implementation of management 
review recommendations and encouraged states to act on the 
agency's guidance.
    To improve performance measurement for traffic safety 
programs, NHTSA partnered with GHSA to develop and publish two 
sets of performance measures to help states implement and 
improve traffic safety programs and data systems. These 
measures are an important step toward a more performance-based 
data-driven grant structure and respond wholly or in part to 
GAO recommendations to improve State accountability for grant 
funds.
    Moving on to my second point, NHTSA's auto safety recall 
process. Our work identified a number of challenges that affect 
recall completion rates including notifying vehicle owners of 
auto safety defects, motivating vehicle owners to comply with 
notification letters and providing clear information to vehicle 
owners and the public.
    Additionally, NHTSA lacks authority to notify potential 
used car buyers about outstanding recalls.
    Our work also identified several options or changes that 
could address some of these challenges and improve safety for 
the motoring public. For example, NHTSA could modify the 
requirements for manufacturers to present information and 
safety defect notification letters and publicize information 
resources like the agency's website so that vehicle owners are 
better motivated and informed.
    NHTSA may also be able to use manufacturers' data to 
identify what factors make recalls more or less successful than 
others. Most of these options are within the scope of NHTSA's 
current authorities and would require minimal investment of 
staff and other resources.
    As Administrator Strickland noted, NHTSA is currently 
exploring a few of these options.
    Finally, reauthorization provides opportunities to further 
improve NHTSA's traffic and vehicle safety programs. For 
example, Congress could link traffic safety grant awards to 
performance to make states more accountable for their use of 
grant funds.
    In addition, Congress could reduce administrative 
challenges for states by streamlining the application process 
for incentive grants and allowing more flexibility in the use 
of grant funds.
    Reauthorization also creates an opportunity for Congress to 
modify NHTSA's recall authority in ways that would make 
consumers more aware of recalls and better protect consumers 
from unknowingly purchasing defective vehicles.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you or members of the 
Subcommittee might have.
    [The prepared statement of Ms. Fleming follows:]

Prepared Statement of Susan Fleming, Director, Physical Infrastructure, 
                 U.S. Government Accountability Office

    Chairman Pryor, Ranking Member Toomey, and members of the 
Subcommittee,

    I appreciate the opportunity to participate in this hearing to 
discuss the National Highway Traffic Safety Administration's (NHTSA) 
traffic and vehicle safety programs. NHTSA's traffic safety grant 
programs are a key part of Federal efforts to reduce traffic 
fatalities. During the last several years, the United States has seen a 
remarkable decline in traffic fatalities, from 43,510 in 2005 to an 
estimated 32,788 in 2010. Fatality rates have also dropped over that 
time, from 1.46 to 1.09 fatalities per 100 million vehicle miles 
traveled, the lowest rate since 1949. Despite this encouraging trend, 
far too many people are still killed or injured on our Nation's 
roadways every day. In addition, although traffic fatalities have 
decreased, in 2010 auto manufacturers recalled a record 14.9 million 
vehicles to address a range of safety issues such as malfunctioning air 
bags and faulty steering columns. On average, about 70 percent of 
vehicles subject to a recall are fixed within the 18-month period 
during which manufacturers provide recall completion data to NHTSA, 
while the remainder may continue to pose risks to vehicle owners, 
passengers, and pedestrians. Congress has also expressed concerns about 
whether NHTSA has the authority it needs and whether vehicle owners are 
being effectively motivated to remedy their vehicles. The upcoming 
reauthorization of Department of Transportation (DOT) programs offers 
the opportunity to revise Federal programs to better assist states in 
addressing traffic safety issues and to enhance NHTSA's recall 
authority.
    My testimony today addresses: (1) NHTSA's progress in improving 
oversight and performance measurement for traffic safety grant 
programs, (2) NHTSA's oversight of the auto safety defect process, and 
(3) issues for Congress to consider in reauthorizing funding for 
traffic and vehicle safety programs. My statement is based primarily on 
reports we issued since the enactment of the Safe, Accountable, 
Flexible, Efficient Transportation Equity Act: A Legacy for Users 
(SAFETEA-LU) \1\ on issues related to traffic safety--including NHTSA's 
oversight of state traffic safety programs, traffic safety grants, 
high-visibility enforcement, older driver safety, and teen driver 
safety--and NHTSA's auto recall process. (See the list of related GAO 
products at the end of this statement.) For the reviews related to 
traffic safety, we analyzed traffic fatality data from NHTSA and 
selected states; examined NHTSA's evaluations (triennial management 
reviews) of state processes and procedures, including corrective action 
plans; visited selected states; analyzed the quality of state traffic 
data systems; and reviewed relevant documents, including legislation, 
regulations, guidance, and state plans and reports. We also interviewed 
NHTSA officials, state traffic safety officials, and other traffic 
safety stakeholders, including representatives from local law 
enforcement agencies and safety organizations such as the state's AAA 
club or Safety Council association. For the review of NHTSA's auto 
recall process, we interviewed NHTSA officials, auto manufacturers, and 
other auto industry stakeholders about NHTSA's role in the recall 
process and the benefits and challenges of the recall process for NHTSA 
and manufacturers. In addition, we compared NHTSA's authority to the 
authorities of other selected Federal and foreign agencies that oversee 
vehicle recalls, and conducted focus groups with vehicle owners to 
better understand their awareness of recalls and willingness to comply 
with recall notices. We conducted these audits from July 2002 through 
June 2011 in accordance with generally accepted government auditing 
standards. More detailed information on the scope and methodology of 
our previous work can be found with each issued report.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 109-59, 119 Stat. 1144 (2005).
---------------------------------------------------------------------------
Background
    During the past decade, the number of motor vehicle fatalities has 
substantially decreased, from 43,510 in 2005 to an estimated 32,788 in 
2010. Fatality rates have also dropped over that time, from 1.46 to an 
estimated 1.09 fatalities per 100 million vehicle miles traveled (see 
fig. 1).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: GAO analysis of NHTSA data.

    Most traffic fatalities are related to human behavior, including 
speeding, alcohol impaired driving, and improper or no use of safety 
belts or child safety or booster seats. As the use of electronic 
devices has grown, distracted driving has also increasingly been 
identified as a cause. Certain populations, including motorcyclists and 
both elderly and teen drivers, are more likely to be involved in 
serious accidents. Data on these and other traffic safety areas are 
critical for NHTSA and states to identify and address key traffic 
safety issues and trends.
    Through SAFETEA-LU, Congress authorized $2.4 billion for Fiscal 
Years 2005 through 2009 for programs to provide safety grants to assist 
states in their efforts to address these issues and reduce traffic 
fatalities.\2\ The largest portion of funds provided by SAFETEA-LU, or 
about $1 billion, was allocated for the continuation of State and 
Community Highway Safety grants to states for a variety of traffic 
safety issues, including law enforcement activities, improvements to 
training programs, or media campaigns, among others. These grants are 
allocated to states through a formula that considers a state's road 
mileage and population. SAFETEA-LU also modified or added five safety 
incentive grant programs to enhance safety belt use, child safety and 
child booster seat use, alcohol impaired driving countermeasures, 
motorcyclist safety, and state traffic safety information systems. 
These incentive grants are awarded to states that meet certain criteria 
for each grant, such as enacting safety belt laws and child restraint 
laws, achieving alcohol-related fatality benchmarks, or implementing 
training programs, among others. In addition, SAFETEA-LU authorized 
funding for high-visibility enforcement campaigns that combine 
intensive enforcement of a specific traffic safety law--such as a 
safety belt use law or an impaired driving law--with extensive media 
communication to educate and persuade the public of the law's safety 
benefits. NHTSA and states use SAFETEA-LU grants--including State and 
Community Highway formula grants, safety belt grants, and alcohol 
impaired driving countermeasures grants--to support high-visibility 
enforcement campaign activities.
---------------------------------------------------------------------------
    \2\ Additional spending has been authorized since 2009. The most 
recent extension expires September 30, 2011. Continuing Appropriations 
Act, 2011, Pub. L. No. 111-242, 124 Stat. 2607 (2010) as amended.
---------------------------------------------------------------------------
    NHTSA is responsible for implementing programs designed to address 
two of the three types of factors that contribute to crashes--human 
behavior and vehicle factors.\3\ To address behavioral factors, NHTSA 
oversees state traffic safety grant programs by reviewing states' 
management of these grants and assessing states' progress in improving 
safety outcomes. For example, NHTSA monitors states' spending and 
conducts triennial management reviews designed to ensure that states 
manage grants effectively, efficiently, and in compliance with laws and 
regulations. NHTSA also assesses a state's performance against state-
established safety goals and national safety outcomes by examining 
state highway safety plans and annual reports. NHTSA conducts special 
management reviews of states with consistently high alcohol-related 
fatality rates or low safety belt use rates and less than half of the 
national average improvement in these areas over time. A special 
management review is an in-depth evaluation of a state's impaired 
driving or safety belt use program that NHTSA uses to recommend program 
improvements. In addition, at states' request, NHTSA coordinates 
voluntary technical program assessments conducted by leading 
independent experts who review state programs in one of seven traffic 
safety areas and recommend program improvements. In 2003, we reported 
that NHTSA used management reviews and resulting improvement plans 
inconsistently across its 10 regional offices.\4\ This inconsistency 
made it difficult to ensure that states used Federal funds in 
accordance with requirements and that they addressed program 
weaknesses. As a result, we recommended that NHTSA provide more 
specific guidance to its regional offices on when to conduct management 
reviews and use improvement plans, and how to measure state progress 
toward meeting safety goals. In response, NHTSA developed new policies 
for its regional offices on when it is appropriate to use management 
reviews and improvement plans to assist highway safety programs. The 
new procedures direct NHTSA to conduct management reviews in each state 
at least once every 3 years. In addition, they direct NHTSA to work 
collaboratively with states in developing performance enhancement plans 
(formerly known as improvement plans) when a state fails to meet 
performance goals, shows substandard performance, or fails to show 
improvement toward a priority safety goal over a 3-year period.
---------------------------------------------------------------------------
    \3\ The Federal Highway Administration is responsible for 
addressing the third type of factor that contributes to crashes--
roadway environment.
    \4\ GAO, Highway Safety: Better Guidance Could Improve Oversight of 
State Highway Safety Programs, GAO-03-474 (Washington, D.C.: Apr. 21, 
2003).
---------------------------------------------------------------------------
    As part of its mission, NHTSA is also responsible for the oversight 
of manufacturers' compliance with safety standards and the 
identification and remedy of vehicle and equipment defects that could 
pose an unreasonable risk to safety. NHTSA oversees compliance recalls 
(for instances of noncompliance, such as improper placement of warning 
labels for airbags), and safety defect recalls (for the potential of a 
vehicle component to fail and endanger safety--for example, a steering 
column could break and suddenly cause partial or complete loss of 
vehicle control), which represent the majority of recalls overseen by 
the agency. The auto safety defect recall process for motor vehicles is 
a concerted effort involving a number of stakeholders, including NHTSA, 
auto manufacturers, franchised dealerships, and vehicle owners.\5\ Auto 
manufacturers are primarily responsible for conducting auto safety 
defect recalls, while NHTSA oversees the recall process, in part by 
reviewing the actions manufacturers plan to take to remedy vehicles and 
monitoring the effectiveness of recall campaigns based on several 
considerations, including a campaign's completion rate (the number of 
defective vehicles that are repaired). NHTSA also provides guidance and 
information to the public on safety defect recalls, chiefly through its 
website, www.safercar.gov.
---------------------------------------------------------------------------
    \5\ Franchised dealerships are businesses that have franchise 
agreements with an auto manufacturer to sell or lease new vehicles it 
manufactures.
---------------------------------------------------------------------------
NHTSA Has Imporved Oversight and Performance Measures for Traffic 
        Safety Grants
    NHTSA has taken several steps to better oversee states' management 
of federally funded safety grants and move toward a more performance-
based, data-driven grant structure.
Oversight
    As we recommended in 2003,\6\ NHTSA improved the consistency of its 
traffic safety grant oversight process, including implementing the 
requirement added by SAFETEA-LU that NHTSA conduct a management review 
of each state at least once every 3 years.\7\ In addition, NHTSA 
developed a tool--the corrective action plan--to track states' 
implementation of management review recommendations and encourage 
states to act on the agency's guidance.
---------------------------------------------------------------------------
    \6\ GAO-03-474.
    \7\-23 U.S.C.  412(a).
---------------------------------------------------------------------------
    In 2008, we reported that NHTSA's initiatives to improve the 
consistency of its management reviews also had the potential to improve 
the information available to it for analysis--such as information on 
common grant management challenges faced by states--and thus could 
provide an opportunity for NHTSA to further enhance its oversight.\8\ 
However, NHTSA did not have a process for analyzing its management 
review recommendations on a national level, identifying common 
challenges faced by states, and directing training and technical 
assistance resources accordingly. Furthermore, NHTSA was not tracking 
at a national level the extent to which states had implemented its 
recommendations--information that we noted could help NHTSA assess the 
impact of its oversight. We recommended these steps, and, in 2009, 
NHTSA implemented an electronic tracking system that documents the 
recommendations NHTSA has made to states during its reviews. NHTSA also 
analyzed these recommendations and, in collaboration with the Governors 
Highway Safety Association (GHSA)--an association of state highway 
safety offices that implement programs to address behavioral highway 
safety issues--offered training to states on common challenges. Such 
training addressed planning and administration, equipment and indirect 
costs, and performance measures. NHTSA also used information on states' 
implementation of management review recommendations to develop webinars 
in conjunction with GHSA to help states address common issues that 
prevent them from implementing NHTSA's recommendations.
---------------------------------------------------------------------------
    \8\ GAO, Traffic Safety: NHTSA's Improved Oversight Could Identify 
Opportunities to Strengthen Management and Safety in Some States, GAO-
08-788 (Washington, D.C.: July 14, 2008).
---------------------------------------------------------------------------
Performance Measurement
    In collaboration with GHSA, NHTSA has developed a minimum set of 
performance measures to assist states in developing and implementing 
traffic safety grant programs. Such performance measures are a key 
component in tracking states' progress toward safety goals and to 
provide information on what areas should be prioritized for 
improvement. In the past, we have called for a fundamental 
reexamination of the Nation's surface transportation programs, 
including the institution of processes to make grantees more 
accountable by establishing more performance-based links between 
funding and program outcomes.\9\ More specifically, in 2008, we 
recommended that NHTSA establish a minimum set of performance measures 
for states to consistently report high-visibility enforcement 
activities funded with Federal dollars.\10\ While states are required 
to include performance goals and measures for high-priority program 
areas in their annual highway safety plans,\11\ states have not used 
such measures consistently in these plans. For example, GHSA reported 
that the number of measures used by states ranged from 4 to 115. In 
2008, NHTSA published a minimum set of 14 performance measures that 
cover key traffic safety program areas, such as overall fatalities and 
injuries, fatality and injury rates, seat belt use, impaired driving, 
speeding, motorcyclist safety, and teen driver safety. States were also 
encouraged to use additional measures for other priority areas as 
appropriate. The minimum set of measures includes measures that should 
fulfill our recommendation related to high-visibility enforcement 
activities: number of citations issued for failure to use seat belts 
and for speeding and number of arrests made for impaired driving during 
grant-funded enforcement activities. According to NHTSA officials, all 
states have used the minimum set of performance measures in developing 
their highway safety plans for Fiscal Years 2010 and 2011.
---------------------------------------------------------------------------
    \9\ GAO, Surface Transportation: Restructured Federal Approach 
Needed for More Focused, Performance-Based, and Sustainable Programs, 
GAO-08-400 (Washington, D.C.: Mar. 6, 2008).
    \10\ GAO, Traffic Safety: Improved Reporting and Performance 
Measures Would Enhance Evaluation of High-Visibility Campaigns, GAO-08-
477 (Washington, D.C.: Apr. 25, 2008).
    \11\ 23 CFR 1200.10(a)(1).
---------------------------------------------------------------------------
    NHTSA and GHSA also developed a set of model performance measures 
to help states monitor and improve the quality of the data in their six 
core traffic record systems: crash, vehicle, driver, roadway, citation/
adjudication, and emergency medical system/injury surveillance. States 
use these systems to collect and analyze data to help identify 
priorities for traffic safety programs. Improvements to these systems 
are funded, in part, by NHTSA's state Traffic Safety Information 
Systems Improvement grant. Last year, we reported that states were 
making progress in improving the quality of the six core systems, but 
that system quality--as measured by the performance attributes of 
timeliness, accuracy, completeness, consistency, integration, and 
accessibility--varied considerably by system and attribute.\12\ For 
example, across all data systems, we found that states met NHTSA's 
performance criteria for the attribute of consistency 72 percent of the 
time but met the criteria for the attribute of integration 13 percent 
of the time. We recommended that NHTSA take steps to ensure that 
traffic records assessments--which help states identify and prioritize 
improvements to traffic safety data systems--provide an in-depth 
evaluation that is complete and consistent in addressing all 
performance attributes across all state traffic safety data 
systems.\13\ In 2011, NHTSA published a model set of 61 performance 
measures that address the six performance attributes for the six core 
data systems. For example, the model includes two performance measures 
recommended for assessing the timeliness of a state's crash database--
the mean number of days taken to enter crash data into the database and 
the percentage of crash reports entered into the database within a 
certain number of days after the crash. According to NHTSA, states' use 
of these measures is voluntary, and states are encouraged to develop 
additional measures if needed. Establishing these measures was a step 
in NHTSA's overall plan for addressing our recommendation to ensure 
that traffic records assessments are complete and consistent.\14\ These 
measures are now available to help Federal, state, and local officials 
monitor the quality of the data in state traffic records systems. The 
measures are currently being used to evaluate applications for Traffic 
Safety Information Systems Improvement grants and will also be 
incorporated into the associated assessments of data systems starting 
in Fiscal Year 2013.
---------------------------------------------------------------------------
    \12\ GAO, Traffic Safety Data: State Data System Quality Varies and 
Limited Resources and Coordination Can Inhibit Further Progress, GAO-
10-454 (Washington, D.C.: Apr. 15, 2010).
    \13\ NHTSA technical teams or contractors conduct these assessments 
for states at least once every 5 years.
    \14\ In addition to establishing the performance measures, NHTSA 
recently finished a study that examined completed traffic records 
assessments and identified State concerns with the assessments and 
deficiencies in the technical aspects of the states traffic records 
assessment process. NHTSA has begun to update the Traffic Records 
Assessment procedures to incorporate recommendations from the study of 
assessments and address all performance measures across all State 
traffic safety data systems.
---------------------------------------------------------------------------
NHTSA Has Options to Improve the Safety Defect Recall Process
    As we previously reported, a number of challenges affect recall 
completion rates, including identifying and motivating affected vehicle 
owners and providing better information to the public about 
recalls.\15\ Through our interviews with industry stakeholders, focus 
group participants, and NHTSA officials, we also identified several 
changes that NHTSA could implement to address these challenges, most of 
which would require limited resources.
---------------------------------------------------------------------------
    \15\ GAO, Auto Safety: NHTSA Has Options to Improve the Safety 
Defect Recall Process, GAO-11-603 (Washington, D.C.: June 15, 2011).
---------------------------------------------------------------------------
Modifying Safety Defect Notification Letters
    Focus group participants we interviewed reported that the safety 
defect notification letters they reviewed did not always convey a clear 
description of the defect or the severity of the defect. Such confusion 
could affect owners' willingness to take their vehicles in for service 
and, ultimately, reduce the completion rates for certain recall 
campaigns. Though some information is already required by law and 
regulations, NHTSA has the ability to add requirements.\16\ In 
particular, focus group participants indicated that they might be more 
likely to respond to a notification letter that specifically indicated 
the defect affecting their vehicle and conveyed the urgency of the 
safety recall. NHTSA officials told us that although they are working 
toward increasing recall completion rates, they believe that adding 
content to the notification letters could be distracting and that the 
fundamental information needed to convey the defect, the actions the 
owner should take, and the remedy program is covered by the current 
requirements. As we previously reported, while we agree that adding 
lengthy and complex information to the notification letters is 
unnecessary, our focus groups have shown that describing the defect 
more clearly and adding content such as the owner's vehicle 
identification number (VIN) may encourage vehicle owners to comply with 
defect notifications.
---------------------------------------------------------------------------
    \16\ NHTSA requires defect notification letters to have: (1) a 
notation on the envelope that include the words ``SAFETY,'' ``RECALL,'' 
and ``NOTICE'' in all capital letters and in a font different from the 
address information; (2) a clear description of the defect; (3) an 
evaluation of the risk to vehicle safety related to the defect; and (4) 
a statement of measures to be taken to remedy the defect. 49 C.F.R.  
577.5.
---------------------------------------------------------------------------
Publicizing Existing Resources and Making VINs Available to Vehicle 
        Owners and the Public
    Our focus groups with vehicle owners also indicated that the public 
may not be aware of NHTSA's website, the primary method NHTSA uses to 
communicate information on recalls to consumers. In addition, a few 
industry associations told us that it would be useful to provide 
vehicle owners with the ability to search more easily for recall 
information using their VINs. As such, NHTSA has an opportunity to make 
vehicle owners and the public more aware of its website and to include 
more useful information. To do so, NHTSA could develop public service 
announcements and additional press releases or collaborate with auto 
manufacturers to develop methods of informing vehicle owners about 
available resources. NHTSA officials we spoke with agreed that 
additional efforts could be made to improve the public's awareness of 
www.safercar.gov and told us that the agency is currently redesigning 
its website to consolidate information so that consumers can more 
easily find information on vehicle 5-Star Safety Ratings and auto 
safety recall information.\17\
---------------------------------------------------------------------------
    \17\ NHTSA's 5-Star Safety Ratings measure the crashworthiness and 
rollover safety of vehicles. Five stars indicate the highest rating, 
one star indicates the lowest.
---------------------------------------------------------------------------
    In addition, NHTSA officials told us they are interested in finding 
additional ways to improve vehicle owners' access to specific 
information about recalls, and to that end, they are in the process of 
purchasing software to facilitate a VIN-based search engine on NHTSA's 
website. However, the officials noted that developing a centralized VIN 
database would require significant additional resources to fully 
implement. In addition, the officials told us that VIN searches can 
present problems because vehicle owners may not enter VIN information 
correctly into a web search. NHTSA officials are currently exploring 
ways to address this issue.

Using Data More Effectively
    Although NHTSA uses data it collects from manufacturers to track 
the average annual recall completion rate for all vehicle recall 
campaigns, NHTSA does not currently use its data to conduct aggregate 
analyses of completion rates across factors such as the manufacturer, 
component (such as steering), and vehicle type (such as car or pick-up 
truck). NHTSA also does not analyze completion rates based on the 
characteristics of defect notification letters, such as the format of 
the letter mailed to vehicle owners. Conducting these types of trend 
analyses could help NHTSA identify risk factors that might be 
associated with lower recall completion rates. In June 2011, we 
reported that our analysis of NHTSA's completion rate data for 
passenger vehicle recalls from 2000 through 2008 has shown that 
completion rates vary considerably across manufacturers and components 
and, to some extent, vehicle types.\18\ Additionally, NHTSA officials 
told us that other factors may also affect completion rates, including 
the owner's perception of the severity of the defect and the age of a 
vehicle at the time of the recall.
---------------------------------------------------------------------------
    \18\ See GAO-11-603 for additional information on our methodology.
---------------------------------------------------------------------------
    NHTSA has the opportunity to analyze its data in ways that capture 
the underlying complexities and variation in the risk factors 
associated with lower completion rates. With that information, NHTSA 
could target new recall campaigns that include such risk factors and 
take additional steps to monitor those campaigns. NHTSA officials told 
us they are interested in improving the completion rates of their 
recalls. For example, NHTSA officials explained that they contacted a 
child safety seat manufacturer that had experienced higher rates of 
recall completion than other child safety seat manufacturers, in order 
to learn how that manufacturer was achieving a relatively higher 
completion rate. While this method--isolating outliers in the data, 
then following up with a particular manufacturer to investigate--is not 
a routine monitoring activity for NHTSA, it could use such an approach 
more systematically when it notices differences in recall rates in 
other areas identified in the data. NHTSA officials told us they were 
currently re-evaluating how they used their data and would consider 
ways that additional data analysis could help increase recall 
completion rates.

Reauthorization Offers Opportunities to Improve Accountability and 
        State Administration of Traffic Safety Grants and Enhance 
        NHTSA's Recall Authority
    In reauthorizing traffic safety grant programs, Congress has 
opportunities to improve accountability by linking state performance 
with traffic safety grant awards and to reduce administrative 
challenges for states by streamlining the application process for 
incentive grants and allowing more flexibility in the use of grant 
funds. Additionally, in reauthorizing vehicle safety programs, Congress 
has an opportunity to increase consumers' awareness of recalls and 
protect consumers from unknowingly purchasing defective vehicles by 
modifying NHTSA's vehicle recall authority to help ensure that 
purchasers of used cars are aware of any defects that have not been 
remedied following a recall.
Accountability Mechanisms for Traffic Safety Grants
    The comprehensive set of traffic safety performance measures 
published by NHTSA and GHSA in 2008 is an important step in moving 
toward a more performance-based, data-driven grant structure. We have 
reported that linking grant funding with states' progress in achieving 
goals--as tracked through performance measures--could help improve 
accountability for Federal funds. However, while states are required to 
establish goals and related performance measures for high-priority 
program areas in annual safety plans, states' receipt of State and 
Community Highway traffic safety grant funds is not currently linked to 
progress toward those goals. In addition, criteria for continuing to 
receive traffic safety incentive grants are generally not tied to 
states' demonstrating safety improvements from the prior year. For 
example, while the Traffic Safety Information Systems Improvement grant 
requires that a state demonstrate progress in improving at least one 
system as a condition of continuing to receive the grant, the other 
incentive grants either include additional criteria that a state can 
meet to receive the grant or do not include any performance-based 
eligibility criteria at all. We have also noted that, given the scope 
of changes needed to transform Federal transportation programs--
including moving toward a performance-based, data-driven approach for 
the programs--such transformation might need to be achieved on an 
incremental basis.\19\ In reauthorizing traffic safety grant programs, 
Congress will be faced with deciding whether to move further toward a 
performance-based, data-driven grant structure by linking a state's 
receipt of grant funds to its achieving progress toward safety goals.
---------------------------------------------------------------------------
    \19\ GAO-08-400
---------------------------------------------------------------------------
State Challenges in Administering Traffic Safety Incentive Grants
    When we reviewed traffic safety incentive grants in 2008, state 
officials noted that NHTSA's traffic safety incentive grants are 
helping to improve traffic safety. However, these officials also 
identified challenges in applying for and using the grant funds. As we 
reported in 2008, each safety incentive grant has a separate 
application process, which has proved challenging for some states to 
administer, especially those with small safety offices.\20\ The five 
applications are each due within a 1\1/2\ month period between June 15 
and August 1. According to state highway safety officials, each 
application requires extensive amounts of staff time and resources. 
Although the application process is similar for each grant, having to 
complete it several times within a short time-frame presents 
administrative challenges for states. Several states, including those 
with larger safety programs and more staff and resources than those 
with smaller safety programs, expressed concerns about the demands the 
application process placed on their staff. According to NHTSA, the 
application requirements reflect statutory requirements; therefore, 
changing the application requirements would require Congressional 
action.
---------------------------------------------------------------------------
    \20\ GAO, Traffic Safety: Grants Generally Address Key Safety 
Issues, Despite State Eligibility and Management Difficulties, GAO-08-
398 (Washington D.C.: Mar. 14, 2008).
---------------------------------------------------------------------------
    Officials in some states also said they would prefer more 
flexibility in using safety incentive grant funds. For example, 
officials in one state said they would like to use Motorcyclist Safety 
grant funds, which can be used only for training and increasing other 
motorists' awareness of motorcyclists, to build new training sites or 
expand the size of current sites. However, the grant does not allow 
them to do so, although it does allow states to lease or purchase new 
sites. Officials in another state also noted that the Child Safety and 
Booster Seat grant they received for one year was much larger than 
expected; they would have preferred to use the additional funding for 
other areas, such as the state's traffic safety information systems. 
Again, because of limitations on the uses of funds established in 
SAFETEA-LU, such flexibility would require Congressional action. 
However, allowing such flexibility could complicate NHTSA's ability to 
oversee states' use of grant funds and hold them accountable for using 
the Federal funds to achieve high-priority safety goals. One way to 
address this complication would be to allow states to use excess funds 
from a grant for another traffic safety issue only if the state can 
demonstrate sufficient progress toward achieving goals in the grant 
area.

Auto Recall Process
    As we reported in June 2011, NHTSA cannot require used-car 
dealerships--which sold 11 million cars in 2009--to notify potential 
buyers of an outstanding safety defect, or require that the defect be 
remedied prior to sale. We recommended that the Secretary of 
Transportation direct the Administrator of NHTSA seek legislative 
authority to ensure that potential buyers of used cars are notified of 
any outstanding recalls prior to sale.\21\<SUP>,</SUP>\22\ NTHSA agreed 
to consider this recommendation.
---------------------------------------------------------------------------
    \21\ Franchised dealerships may sell or lease a new motor vehicle 
only if the defect has been remedied before delivery of the motor 
vehicle under the sale or lease. 49 U.S.C.  30120.
    \22\ GAO-11-603.
---------------------------------------------------------------------------
    The upcoming reauthorization of NHTSA programs provides an 
opportunity to explore options to increase consumer awareness of 
recalls and protect consumers from unknowingly purchasing defective 
vehicles. Requiring dealerships to notify potential buyers of a defect 
could result in increased awareness of recalls, particularly among the 
group of vehicle owners that, according to manufacturers and third-
party vendors, are the hardest to identify through postal mail--namely 
second and third owners of a vehicle. However, an industry association 
and the used-car dealerships we spoke with noted that it is challenging 
to identify vehicles with outstanding recalls because there is no 
requirement for used-car dealerships to be notified of a safety defect 
through the use of first-class mail and there is no single source of 
information on safety recalls--such as a centralized VIN database--that 
can be accessed to determine if a car in a dealership's possession has 
an outstanding recall. Although additional resources may be necessary 
for NHTSA to implement such a database, working with manufacturers, 
many of whom have already developed VIN search functions, could reduce 
NHTSA's burden. NHTSA officials agreed that notifying used-car 
dealerships of recalls is a challenge, and although the agency has not 
sought this authority, it is in the process of purchasing software to 
facilitate a VIN-based search engine on its website. In addition, NHTSA 
officials indicated that in May 2011, the agency had identified several 
policy proposals to Congress on vehicle safety issues. One of these 
proposals would, with certain exceptions, prohibit used-car dealerships 
and rental companies from selling or leasing a vehicle subject to a 
recall before the repair has been made.
    Chairman Pryor, Ranking Member Toomey, and members of the 
Subcommittee, this concludes my prepared statement. I would be happy to 
respond to any questions that you might have.

    Senator Pryor. Thank you, Ms. Fleming, and I want the rest 
of the panel to recognize that she set a very good example here 
by actually ending one minute early.
    [Laughter.]
    Senator Pryor. Thank you very much for your statements.
    Ms. Gillan?

 STATEMENT OF JACQUELINE S. GILLAN, VICE PRESIDENT, ADVOCATES 
            FOR HIGHWAY AND AUTO SAFETY (ADVOCATES)

    Ms. Gillan. Good afternoon, Chairman Pryor, Ranking Member 
Toomey, and members of the Subcommittee. I welcome this 
opportunity to appear today before you to strongly endorse on 
behalf of Advocates for Highway and Auto Safety, the 
Committee's NHTSA authorization bill. The bill contains many 
needed provisions that will result in safer cars and safer 
drivers.
    The Senate Commerce Science and Transportation Committee, 
under the leadership of Democrats and Republicans, has been 
responsible for some of the most significant advances in 
highway and auto safety, including airbags as standard 
equipment, and safety standards addressing tire performance, 
child restraints, rollover prevention, and the list goes on. 
These laws have literally saved thousands of lives, prevented 
millions of injuries, and saved billions of dollars in health 
care and societal costs.
    Now, as we have heard today, traffic fatalities have 
decreased these past few years, and some would say that we have 
done enough. However, we must continue to build on these safety 
gains and move forward on the unfinished safety agenda.
    Let me briefly highlight some important features of the 
bill and recommend the addition of others. Motor vehicle 
crashes are the cause of 95 percent of all transportation-
related fatalities and 99 percent of all injuries, yet NHTSA's 
budget represents only 1 percent of the overall DOT budget. 
Only 1 percent.
    A comprehensive reauthorization bill must include 
sufficient funding to allow NHTSA to fulfill its mission and 
pursue a cost effective safety agenda that will lead to many 
more lives being saved.
    We commend the Committee for directing NHTSA to upgrade 
motor vehicle safety standards to address issues posed by the 
transition in the 21st century from a mechanical to an 
electronic vehicle fleet. In particular, the bill recognizes 
the need to have a minimum standard to ensure the reliability 
and performance of electronic systems that operate and control 
vital vehicle safety systems.
    Additionally, enactment of other provisions in the bill 
will ensure that consumers have better access to agency 
information about safety-related data recalls and defects.
    To promote public safety protection, we encourage the 
Committee to require rental car companies to repair known 
safety defects, as required in legislation soon to be 
introduced by Senator Schumer and Senator Boxer, rather than 
just notifying consumers about those defects. Used car dealers 
should also be included.
    Other provisions addressing whistleblower protection, 
potential conflicts of interest by former NHTSA employees, and 
increased responsibility and accountability for corporate 
misbehavior are needed to ensure that Government safety 
investigations proceed without impediments.
    In the last 20 years, improving safety by encouraging 
adoption of State traffic safety laws has been a hallmark of 
every single surface transportation bill. The Committee's bill 
continues this tradition.
    Distracted driving and impaired driving needlessly kill 
tens of thousands of motorists every year. Advocates strongly 
endorses measures that encourage state adoption of laws banning 
texting while driving, and requiring the use of alcohol 
ignition interlock devices for all offenders.
    We also support the ROADS SAFE Act directing NHTSA to carry 
out research on the feasibility of in-vehicle technologies to 
prevent alcohol-impaired driving.
    For teens, as you mentioned in your opening remarks, motor 
vehicle crashes are the leading cause of death in every State, 
and every year more than 5,000 people die in crashes involving 
teen drivers. Those are the drivers, their passengers and those 
of us sharing the road with them.
    Fortunately, there is an effective vaccine, but not all 
states are using it. Comprehensive graduated drivers license 
laws or GDL laws are incredibly effective in reducing teen 
crashes.
    We strongly urge the Committee to include the incentive 
grant program contained in the STANDUP Act sponsored by Senator 
Gillibrand, Senator Klobuchar and others on this Committee.
    Finally, the Committee continues to act on its concerns 
about child safety by directing agency actions with deadlines 
in developing a 10-year-old crash test dummy, providing child 
protection in side-impact crashes, improving child restraint 
anchorage systems, and increasing seat belt usage with rear 
seat belt reminders.
    And just yesterday, NHTSA held a meeting to discuss and 
address the risk of horrific death for young children 
inadvertently left behind in hot vehicles, and I commend this 
Committee for including the provision that will look at that 
issue and find a solution.
    There is no question that all of these measures are needed 
and will significantly advance the safety of our children.
    In conclusion, Advocates commends the Subcommittee Chair 
and all of its members for proposing a NHTSA authorization bill 
that will continue the legacy of saving lives, reducing 
injuries, and will be strongly embraced by the public.
    Again, thank you for the opportunity to testify, and I'm 
happy to answer your questions.
    [The prepared statement of Ms. Gillan follows:]

      Prepared Statement of Jacqueline S. Gillan, Vice President, 
           Advocates for Highway and Auto Safety (Advocates)

Introduction
    Good afternoon Chairman Pryor, Ranking Member Toomey, and members 
of the Senate Subcommittee on Consumer Protection, Product Safety, and 
Insurance. I am Jacqueline Gillan, Vice President of Advocates for 
Highway and Auto Safety (Advocates). Advocates is a coalition of public 
health, safety, and consumer organizations, and insurers and insurance 
agents that promotes highway safety through the adoption of safety 
policies and regulations, and the enactment of state and Federal 
traffic safety laws. Advocates is a unique coalition dedicated to 
improving traffic safety by addressing motor vehicle crashes as a 
public health issue.
    The Senate Commerce, Science, and Transportation Committee, under 
the leadership of Democrats and Republicans, has been responsible for 
some of the most significant advances in highway and auto safety 
beginning with the drafting and passage of legislation in the early 
1970s leading to the creation of the National Highway Traffic Safety 
Administration (NHTSA). In the past 20 years this Committee has passed 
other bills requiring airbags as standard equipment in the front seat 
of all passenger vehicles as well as directing agency action on 
numerous vehicle safety standards on tire safety, child restraints, 
rollover protection, anti-ejection prevention, roof crush strength, and 
side impact protection. Furthermore, this Committee has worked 
tirelessly to ensure the agency's decisions and deliberations on safety 
issues are transparent and that consumers have access to critical and 
essential information about vehicle safety and defects.
    I welcome this opportunity to appear before you today to strongly 
endorse the Committee's draft reauthorization bill of NHTSA. The bill 
contains many needed safety provisions to continue improvement of 
highway safety and reduction of traffic fatalities. I discuss many of 
these provisions in my testimony. I also raise several important 
provisions that are not included in the bill but that are part of the 
unfinished safety agenda and are worthy of your time and leadership 
including: an incentive grant program to encourage state adoption of 
teen driver safety, or graduated driver license (GDL) laws; requiring 
an upgrade of the safety standard for seat back strength; and, stronger 
efforts to encourage adoption of all-rider motorcycle helmet laws in 
states.

Lives Saved by Safety Systems and Programs
    Laws issued by Congress, including those that came out of this 
Committee, and rules issued by NHTSA requiring safety standards and 
technologies have saved thousands of lives. NHTSA studies show that 
since 1960 motor vehicle safety technologies have saved more than 
328,500 lives.\1\ For example, frontal air bags, a safety technology 
that this Committee championed in 1991,\2\ saved 2,381 lives in 2009 
and have saved more than 30,000 people since 1991.\3\. Seat belts saved 
the lives of an estimated 12,713 people over the age of four in 2009, 
and more than 72,000 lives in the years from 2005 through 2009.\4\ 
Child restraints saved the lives of 309 children age four and under in 
2009 and more than 9,300 young children since 1975.\5\ These safety 
measures have the potential to save many additional lives and prevent 
costly injuries if they are used to protect everyone at risk who needs 
them. For example, in 2009 if all passenger vehicle occupants age four 
and over had worn seat belts, an additional 3,688 lives could have been 
saved, and a 100 percent motorcycle helmet use rate would have saved an 
additional 732 lives in motorcycle crashes.\6\ In addition to laws 
requiring safety technologies, laws such as the 21-year-old-minimum-
drinking-age law saved 623 lives in 2009, and 3,940 lives from 2005-
2009.\7\
---------------------------------------------------------------------------
    \1\ Lives Saved by the Federal Motor Vehicle Safety Standards and 
Other Vehicle Safety Technologies, 1960-2002, DOT HS 809 833, National 
Highway Traffic Safety Administration (NHTSA) (Oct. 2004).
    \2\ Intermodal Surface Transportation Efficiency Act of 1991 
(ISTEA), Title II, Part B,  2508, Pub. L. 102-240 (Dec. 18, 1991).
    \3\ Traffic Safety Facts 2009, Lives Saved in 2009 by Restraint Use 
and Minimum-Drinking-Age Laws, Back Cover,DOT HS 811 383, National 
Highway Traffic Safety Administration (NHTSA) (Sept. 2010).
    \4\ Traffic Safety Facts 2009, op cit.
    \5\ Id.
    \6\ Id.
    \7\ Id.
---------------------------------------------------------------------------
    A comprehensive NHTSA reauthorization bill with adequate funding 
and requiring additional, reasonable safety standards will allow NHTSA 
to pursue a robust regulatory safety agenda that will lead to many more 
lives being saved.

Sufficient Funding for NHTSA is Essential
    NHTSA's funding and staffing levels have suffered over the years to 
the point where the agency, which is responsible for 95 percent of 
transportation-related fatalities and 99 percent of transportation 
injuries, receives only 1 percent of the overall U.S. Department of 
Transportation (DOT) budget. NHTSA is responsible for the safety of 300 
million Americans who drive or ride in or around some of the nearly 250 
million registered motor vehicles that use our Nation's highways.\8\ 
Even with the recent downturn in motor vehicle traffic fatalities, 
33,808 people were killed and more than 2.2 million injured in 2009 on 
our highways at an annual cost of more than $230 billion.\9\ Motor 
vehicle crashes are the leading cause of death for all Americans ages 5 
to 34.\10\ In order to maintain safety gains and to improve on the 
agency's efforts in detecting and investigating safety threats, a 
justified and necessary increase in funding is essential.
---------------------------------------------------------------------------
    \8\ State Motor Vehicle Registrations, 2009, Federal Highway 
Administration (FHWA) available at http://www.fhwa.dot.gov/
policyinformation/statistics/2009/pdf/mv1.pdf, last accessed on July 
25, 2011.
    \9\ The Economic Impact of Motor Vehicle Crashes 2000, DOT HS 809 
446, NHTSA (May 2002).
    \10\ ``Injury Prevention and Control: Motor Vehicle Safety,'' 
Centers for Disease Control and Prevention, May 2011, available at 
http://www.cdc.gov/motorvehiclesafety/index.html.
---------------------------------------------------------------------------
    The current agency budget for motor vehicle safety activities and 
research is a small portion of NHTSA's overall budget. It is totally 
inadequate in the face of the agency's mission and safety 
responsibilities. Current funding for the vehicle safety program budget 
is only about $140 million for Fiscal Year 2011.\11\ While the current 
Administration has increased agency and staffing in the past 2 years, 
NHTSA remains woefully under-resourced. The agency ability to keep up 
with technology and crash and injury trends is imperiled by lack of 
sufficient resources.
---------------------------------------------------------------------------
    \11\ Comparative Statement of New Budget Authority, National 
Highway Traffic Safety Administration, FY 2012 Budget Request, Exhibit 
II-1, available at http://www.dot.gov/budget/2012/budgetestimates/
nhtsa.pdf.
---------------------------------------------------------------------------
    The agency budget for vehicle safety should reflect the important 
life-saving mission of the agency. In order to provide a solid 
foundation for NHTSA to address the safety of current and future 
vehicles, I urge the Committee to assure this small agency is given the 
funds needed to do its job. Laws and programs administered by NHTSA are 
responsible for saving an estimated 350,000 lives since 1975.\12\ NHTSA 
authorization for the motor vehicle safety program should be increased 
to $240M in FY2012, and $280M in FY2013, in line with what the 
Committee proposed in last year's Motor Vehicle Safety Act of 2010.\13\
---------------------------------------------------------------------------
    \12\ Traffic Safety Facts 2009, op cit.
    \13\ S. 3302, 111th Cong., 2nd Sess.
---------------------------------------------------------------------------
Recommendation:

  <bullet> Increase NHTSA's funding level for the vehicle safety 
        program to $240M in FY2012, and $280M in FY2013.

Highway Safety
Traffic Safety and Incentive Grant Programs
    Over the past 15 years, through three separate authorization 
laws,\14\ the Nation has spent billions of dollars on traffic safety 
programs comprised of the Highway Safety Programs (Section 402) \15\ 
and various issue-specific incentive grant programs.\16\ The dollar 
amounts are huge: more than $3.5 billion has been authorized for 
highway safety and various incentive grant programs in the past 10 
years. The highway safety and incentive grant programs have supported 
many worthwhile efforts, especially state and local enforcement 
campaigns that have been the cornerstone of local safety initiatives. 
Also, several states have adopted optimal safety laws in response to 
the incentive grant programs. In part, as a result of these efforts, 
NHTSA estimates that many lives have been saved through seat belt and 
child restraint use.\17\ Yet, no discernable major progress was made in 
bringing down the total number of traffic deaths until 2008 when the 
Nation's economy began to falter. While these programs are the 
foundation of Federal and state traffic safety efforts, there is a need 
for establishing performance measures and better oversight.
---------------------------------------------------------------------------
    \14\ The Safe, Accountable, Flexible, Efficient Transportation 
Equity Act: A Legacy for Users (SAFETEA-LU), Pub. L. 109-59 (Aug. 10, 
2005); the Transportation Equity Act for the 21st Century (TEA-21), 
Pub. L. 105-178 (June 9, 1998); and, the Intermodal Surface 
Transportation Efficiency Act of 1991 (ISTEA), Pub. L. 102-240 (Dec. 
18, 1991).
    \15\ 23 U.S.C.  402.
    \16\ SAFETEA-LU included incentive grant programs for occupant 
protection, safety belt performance, traffic safety information 
systems, alcohol-impaired driving countermeasures, motorcyclist safety, 
and child safety and child booster seat safety.
    \17\ Traffic Safety Facts 2009, op cit.
---------------------------------------------------------------------------
Lack of Performance Measures and Effective Oversight
    The Section 402 highway safety grant program has been the 
traditional means of providing the states with Federal funding to 
support state and local safety initiatives, education and enforcement 
efforts. Over time, however, states' insistence on providing greater 
program flexibility, both in terms of funding and performance, has 
complicated program accountability and oversight. By 1998, NHTSA had 
``adopted a performance-based approach to oversight, under which the 
states set their own highway safety goals and targets. . . .'' \18\ 
Even with each state developing an annual safety plan, weaknesses in 
state plans were revised through subsequent ``improvement plans'' but 
agency regional offices made limited and inconsistent use of the 
revised plans.\19\ In fact, Congress had to require that NHTSA review 
each state highway safety program at least once every 3 years and 
perform other standard oversight procedures.\20\
---------------------------------------------------------------------------
    \18\ Highway Safety: Better Guidance Could Improve Oversight of 
State Highway Safety Programs, p. 1, GAO-03-474, Government 
Accountability Office (GAO) (Apr. 2003).
    \19\ Id., p. 4.
    \20\ 23 U.S.C.  412; enacted as Title II,  2008(a), SAFETEA-LU, 
Pub. L. 109-59 (Aug. 10, 2005).
---------------------------------------------------------------------------
    For this reason, Advocates supports the need for NHTSA to be 
accountable for the oversight of the grant program and we support the 
provision in the bill that would ensure regular reviews of the 
expenditure of program funds. (Sec. 112).
Recommendation:

  <bullet> Require NHTSA to conduct reviews of state highway safety 
        grant programs on a regular schedule and at least once every 3 
        years.
Teen Driver Safety Incentive Grant Program

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Motor vehicle crashes remain the leading cause of death for 
teenagers between 15 and 20 years of age, killing more young people 
than homicide, suicide, cancer, and birth defects combined.\21\ A total 
of 5,623 people were killed in the fatal crashes involving young 
drivers in 2009, including young drivers themselves, their passengers, 
pedestrians and the drivers and occupants of other vehicles.\22\ Since 
1999, more than 90,000 fatalities have occurred nationwide in motor 
vehicle crashes involving teen drivers.\23\ Additionally, teen driving 
crashes have been estimated to cost society more than $34 billion 
annually.\24\
---------------------------------------------------------------------------
    \21\ 10 Leading Causes of Death, United States, 2007, All Races, 
Both Sexes, Age Groups 15-19, retrieved from Centers for Disease 
Control and Prevention, Injury Prevention and Control: Data and 
Statistics (WISQARS) Leading Causes of Death Reports, 1999-2007, http:/
/webappa.cdc.gov/sasweb/ncipc/leadcaus10.html.
    \22\ Traffic Safety Facts 2009, Young Drivers, DOT HS 811 400, 
National Highway Traffic Safety Administration (NHTSA).
    \23\ Id.; Traffic Safety Facts 2008, Young Drivers, DOT HS 811 169, 
National Highway traffic Safety Administration (NHTSA); Traffic Safety 
Facts Research Note, Fatal Crashes Involving Young Drivers, DOT HS 811 
218, National Highway traffic Safety Administration (NHTSA).
    \24\ The 2006 Societal Cost of Crashes Involving Drivers 15-17 
Years Old, Pacific Institute for Research and Evaluation, Dec. 2007.
---------------------------------------------------------------------------
    Fortunately, there is a proven method for reducing teen driving 
crashes. Graduated driver license (GDL) laws phase in driving 
privileges over time, using restrictions on nighttime driving, teen 
passengers, and use of cell phones. Research has shown the 
effectiveness of strong state GDL programs in reducing teen driver 
crashes, saving lives, and lowering societal costs.
    Despite the proven success of GDL laws, state laws vary widely in 
strength. As a result, millions of novice teen drivers lack some of the 
most basic protections that could prevent teen crashes and save lives. 
It is time for Congress to intercede in this public health crisis to 
encourage state adoption of strong, comprehensive GDL laws.
    Legislation that takes this action has already been introduced in 
Congress. The Safe Teen and Novice Driver Uniform Protection (STANDUP) 
Act, S. 528, requires state GDL laws to meet proven minimum standards. 
The bill also provides for $25 million per year for 3 years, funded 
through the Highway Trust Fund, as incentive grants to accelerate state 
action to adopt these lifesaving laws.
    These proposed incentives are a tiny fraction of the overall 
Highway Trust Fund resources: the $25 million annual cost of incentives 
is less than one tenth of 1 percent (0.07 percent) of the Average 
Annual Total Receipts ($33.41 billion) coming into the Highway Trust 
Fund Highway Account throughout the past 10 years. Furthermore, the $25 
million annual cost of the proposed incentives is less than one tenth 
of 1 percent (0.07 percent) of the costs associated with crashes 
involving teen drivers ages 16 and 17 ($34.4 billion in 2006).
    We strongly urge the Committee to include teen driving incentive 
grants in the NHTSA authorization legislation.
Recommendation:

  <bullet> Include the teen driver safety incentive grant program from 
        S. 528.

Impaired Driving Countermeasures--Grants and Research
    Drinking and driving continues to be a national scourge on our 
Nation's highways. While a number of measures have successfully reduced 
the historically high levels of carnage caused by drunk driving back in 
the 1980s, nearly a third of traffic deaths occur in alcohol-involved 
crashes.\25\ Although the total number of alcohol-related crash deaths 
declined in 2009 to 10,839 people, 7 percent less than in 2008, alcohol 
involved crashes still accounted for 32 percent of all traffic 
fatalities.\26\ Except for the recent 2008-2009 dip in fatalities 
during the recession, the annual level of alcohol-involved crash 
fatalities did not decline significantly in the prior 10 years.\27\ 
Previous decreases in fatalities were in large measure due to a wave of 
enactment of state anti-impaired driving laws, serious enforcement of 
those laws and educational efforts by MADD and others to raise 
awareness of the problem. In order to continue to reduce the number of 
needless alcohol related crash deaths suffered on our highways each 
year, and to maintain the fatality reductions of recent years, more 
must be done to keep impaired drivers off our streets and roads. We 
think technology can help solve this problem.
---------------------------------------------------------------------------
    \25\ Alcohol-Impaired Driving, Traffic Safety Fact Sheets 2009, at 
1, DOT HS 811 385, NHTSA (2010).
    \26\ Id.
    \27\ Id.
---------------------------------------------------------------------------
    Advocates strongly supports requiring the use of ignition 
interlocks for all drunk driving offenders in every state to prevent 
them from starting their vehicle when they are impaired. An alcohol 
ignition interlock device (IID) is similar to a breathalyzer used by 
police to determine if a driver has an illegally high blood alcohol 
concentration (BAC) level. The IID is linked to the vehicle ignition 
system and requires a driver who has been previously convicted of an 
impaired driving offense, and required by a court to install an IID, to 
breathe into the device. If the analyzed result exceeds the programmed 
BAC legal limit for the driver, the vehicle will not start. A majority 
of Americans support the use of IIDs to keep impaired drivers off the 
road. In 2009, a survey conducted by the Insurance Institute for 
Highway Safety (IIHS) found that 84 percent of respondents said that 
IIDs for convicted drunk drivers is a good idea.\28\ Advocates also 
strongly supports legislation introduced by Senator Lautenberg (D-NJ), 
the Drunk Driving Repeat Offender Prevention Act of 2011, S. 273, that 
encourages state adoption of IID technology and includes potential 
sanctions for states that do not act in a timely manner. Advocates 
commends the Committee for including incentive grants for states that 
adopt and implement alcohol ignition interlock laws in its NHTSA 
reauthorization bill.
---------------------------------------------------------------------------
    \28\ 2011 Roadmap to State Highway Safety Laws, p. 30, Advocates 
for Highway and Auto Safety (Jan. 2011).
---------------------------------------------------------------------------
    In addition, Advocates supports legislation introduced by Senator 
Udall (D-NM), the Research of Alcohol Detection Systems for Stopping 
Alcohol-related Fatalities Everywhere (ROADS SAFE) Act, S. 510, and the 
Committee's inclusion of that bill's language in the NHTSA 
reauthorization legislation. This will direct NHTSA to carry out a 
research effort to explore the benefits and challenges of in-vehicle 
technology to prevent alcohol-impaired driving. (Sec. 111). Future 
technology can be built into vehicles to detect alcohol and prevent 
drivers with illegal levels of alcohol in their blood stream from 
operating a motor vehicle. This type of technology could work without 
invasive testing or intrusive detection methods, and would not engage 
unless the driver's BAC level is above the legal limit. This project 
holds realistic hope that thousands of annual deaths can be prevented 
and we should support research to make this technology a reality.
Recommendation:

  <bullet> Congress should adopt reauthorization legislation that 
        funds:

    <bullet> Incentive grant program to encourage state adoption of 
            ignition interlock devices for all offenders; and,

    <bullet> Research to develop an automatic, non-invasive in-vehicle 
            driver alcohol detection system to prevent persons who are 
            legally intoxicated from driving motor vehicles.

Distracted Driving Grants
    Although various kinds of distractions have been a part of driving 
since the automobile was invented, the emergence of personal electronic 
communications devices that can readily be used while operating a 
vehicle has presented a whole new category of driver distraction and 
danger. The growing use of built-in and after-market or nomadic devices 
by drivers began with cell phone use but has proliferated through a 
myriad of personal electronics that allow drivers to access the 
Internet, perform office work and to send and receive text messages 
while driving. As a result, in 2009, there were an estimated 5,474 
fatalities and 448,000 injuries in crashes where driver distraction was 
a factor.\29\
---------------------------------------------------------------------------
    \29\ An Examination of Driver Distraction as Recorded in NHTSA 
Databases, Traffic Safety Facts Research Note, at 1, DOT HS 811 216, 
NHTSA (Sept. 2009).
---------------------------------------------------------------------------
    Text messaging while driving poses the most extreme and evident 
crash risk danger. Diversion of attention from the driving task to 
input or read a text message clearly interferes with drivers' ability 
to safely operate a motor vehicle. A 2009 study found that text 
messaging while driving increases the risk of a safety-critical event 
by more than 23 times compared to drivers who are focused on the 
driving task.\30\
---------------------------------------------------------------------------
    \30\ Olson, et al., Driver Distraction in Commercial Motor Vehicle 
Operations, Virginia Tech Transportation Institute (2009).
---------------------------------------------------------------------------
    A mounting number of research studies and data show that the use of 
a mobile telephone while driving, whether hand-held or hands-free, is 
equivalent to driving under the influence of alcohol at the threshold 
of the legal limit of .08 percent blood alcohol concentration (BAC). 
Hand-held mobile phone use and dialing while driving require drivers to 
divert attention from the road and from the driving task, yet hands-
free phone use has also been shown to involve cognitive distraction 
that is no less dangerous in terms of diverting attention from the 
driving task and the potential risk of crash involvement.
    To date, 34 states and the District of Columbia have enacted all-
driver text messaging bans, although 3 of these states have secondary 
enforcement, but 16 states have no such law.\31\
---------------------------------------------------------------------------
    \31\ ``Cellphone and Texting Laws,'' Insurance Institute for 
Highway Safety (Jul. 2011), available at http://www.iihs.org/laws/
cellphonelaws.aspx.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Administration has taken some good first steps to reverse the 
rising tide of crashes that involve distracted driving as a factor. The 
Secretary of Transportation has made distracted driving a number one 
priority and convened two national conferences on distracted driving 
\32\ in an effort to keep the focus on this safety problem at the 
national level. Just after the first such conference, President Obama 
issued a proclamation banning text messaging by Federal employees,\33\ 
and the DOT took measures to curb distracted driving in commercial 
vehicles.\34\ However, the problem of distracted driving in commercial 
vehicles is not limited only to text messaging. For that reason, 
Advocates filed a petition for rulemaking with the Federal Motor 
Carrier Safety Administration (FMCSA), which regulates commercial 
vehicle operations, seeking a review of all types of electronic devices 
used in commercial vehicles, not just those that support text 
messaging.\35\
---------------------------------------------------------------------------
    \32\ Distracted Driving Summit, September 30-October 1, 2009 
(Washington, D.C.) and Distracted Driving Summit, September 21, 2010 
(Washington, D.C.), information last accessed on Sept. 20, 2010 and 
available at http://www.distraction.gov/2010summit/.
    \33\ Federal Leadership on Reducing Text Messaging While Driving, 
Executive Order No. 13513 (Oct. 1, 2009), 74 FR 51225 (Oct. 6, 2009).
    \34\ See Limiting the Use of Wireless Communications Devices, Final 
Rule, 75 FR 59118 (Sept.. 27, 2010); Regulatory Guidance Concerning the 
Applicability of the Federal Motor Carrier Safety Regulations to 
Texting by Commercial Motor Vehicle Drivers, Notice of Regulatory 
Guidance, 75 FR 4305 (Jan. 27, 2010).
    \35\ Distracted Driving Petition for Rulemaking: Requesting 
Issuance of a Rule to Consider Prohibiting or Restricting the Use of 
Electronic Devices During the Operation of Commercial Motor Vehicles, 
dated September 24, 2009, filed by Advocates for Highway and Auto 
Safety with the FMCSA Administrator.
---------------------------------------------------------------------------
    Advocates welcomes the proposed Distracted Driver Grant program 
(Sec. 108) to encourage states to adopt primary enforcement laws to 
prohibit drivers from sending and receiving text messages while 
operating a motor vehicle, and put prohibitions on cellular telephone 
use by drivers who are under 18 years of age. These are reasonable 
safety measures that should be the law in every state and we support 
the need to encourage adoption of these laws.
Recommendation:

  <bullet> Include an incentive grant program to encourage enactment of 
        state laws that prohibit distracted driving.

All Rider Motorcycle Helmet Laws
    NHTSA estimates that 80 percent of motorcycle crashes injure or 
kill a rider.\36\ 2008 was the 11th straight year in which motorcycle 
crash fatalities increased, rising to 5,290 motorcyclists killed and 
96,000 injured.\37\ This is more than double the motorcycle fatalities 
in 1998 and a level not seen since 1981.\38\ While motorcycle 
fatalities finally decreased to 4,462 in 2009, that figure still 
represents fatality numbers that are more than double what the death 
toll was in 1997, the last year in which motorcycle fatalities 
experienced a decline.\39\ While fatality and injury rates for other 
types of vehicles have dropped over the years, the fatality and injury 
rates for motorcycles have generally been on the rise.\40\
---------------------------------------------------------------------------
    \36\ Motorcycle Safety, National Highway and Traffic Safety 
Administration, DOT HS 807 709 (Oct. 1999), available at http://
www.nhtsa.dot.gov/people/injury/pedbimot/motorcycle/moto
safety.html.
    \37\ Motorcycles, Traffic Safety Facts 2008, DOT HS 811 159, at 1, 
NHTSA (2009).
    \38\ A Highway Safety Countermeasures Guide for State Highway 
Safety Offices, DOT HS 810 891, p. 5-4, NHTSA (3d ed., Jan. 2008) 
(NHTSA Safety Countermeasures Guide).
    \39\ Traffic Safety Facts 2008, Table 10, p. 28.
    \40\ Motorcycles, Traffic Safety Facts 2008, at 1.
---------------------------------------------------------------------------
    At present, motorcycles make up less than 3 percent of all 
registered vehicles and only 0.4 percent of all vehicle miles traveled, 
but motorcyclists accounted for 13 percent of total traffic fatalities 
and 19 percent of all occupant fatalities.\41\ Helmets saved the lives 
of 1,483 motorcyclists in 2009 and 732 more in all states could have 
been saved if all motorcyclists had worn helmets.\42\ NHTSA estimates 
that 148,000 motorcyclists have been killed in traffic crashes since 
1966.\43\
---------------------------------------------------------------------------
    \41\ Highlights of 2009 Motor Vehicle Crashes, pp. 1 & 3.
    \42\ 2011 Roadmap to State Highway Safety Laws, Advocates for 
Highway and Auto Safety, Jan. 2011, p. 17.
    \43\ Motorcycles, Traffic Safety Facts 2008, at 3.
---------------------------------------------------------------------------
    In the years following enactment of Federal traffic safety 
statutes, annual motorcycle rider deaths were much lower in part 
because most states had all-rider motorcycle helmet laws. Congress used 
the power of the sanction to require states to enact helmet use 
laws.\44\ When the sanction was repealed by Congress, the states 
followed suit with more than half the states repealing their helmet 
laws.\45\
---------------------------------------------------------------------------
    \44\ The National Motor Vehicle and Traffic Safety Act of 1966, 
Pub. L. 89-563 (Sept. 9, 1966).
    \45\ See e.g., Evaluation of the Reinstatement of the Helmet Law in 
Louisiana, DOT HS 810 956, NHTSA (May 2008), available at http://
www.nhtsa.gov/portal/nhtsa_static_file_down
loader.jsp?file=/staticfiles/DOT/NHTSA/Traffic%20Injury%20Control/
Articles/Associated%20
Files/810956.pdf.
---------------------------------------------------------------------------
    Today, only 20 states and the District of Columbia require helmet 
use by all motorcycle riders. The map below indicates the status of the 
law in each state. In 2007, the NTSB recommended that all states 
without an all-rider helmet law should adopt one.\46\ Research 
conclusively and convincingly shows that all-rider helmet laws save 
lives and reduce medical costs. While helmets will not prevent crashes 
from occurring, they have a significant and positive effect on 
preventing head and brain injuries during crashes. These are the most 
life-threatening and long-term injuries as well as the most costly. In 
1992, California's all-rider helmet law took effect resulting in a 40 
percent drop in its Medicaid costs and total hospital charges for 
medical treatment of motorcycle riders.\47\
---------------------------------------------------------------------------
    \46\ NTSB Recommendations H-07-38, available at http://
www.ntsb.gov/Recs/letters/2007/H07_38.pdf, and H-07-39, available at 
http://www.ntsb.gov/Recs/letters/2007/H07_39.pdf.
    \47\ Id.
---------------------------------------------------------------------------
Recommendation:

  <bullet> Include a provision that requires states to adopt all-rider 
        motorcycle helmet laws.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Motor Vehicle Safety Standards
Motor Vehicle Safety Standards for the 21st Century
    I now turn to the need for NHTSA, in the second decade of the 
twenty-first century, to upgrade its motor vehicle safety standards to 
address issues posed by the transition from a mechanical to an 
electronic vehicle fleet. Nearly every aspect of modern motor vehicles 
depends on electronics and computerized systems but there are no 
minimum standards to ensure that safety systems reliant on electronics 
will not malfunction or degrade prematurely. In the last session of 
Congress, this Committee marked up the Motor Vehicle Safety Act of 2010 
\48\ which included many provisions aimed at protecting electronic-
based safety systems. The concerns raised during a series of hearings 
held by this Committee,\49\ and by the House Energy and Commerce 
Committee,\50\ led to a number of conclusions and recommendations 
regarding what additional standards are needed to improve the safety 
performance of motor vehicles and what procedural changes are necessary 
to improve the performance of NHTSA.
---------------------------------------------------------------------------
    \48\ Motor Vehicle Safety Act of 2010, Report No. S. 111-381 (Dec. 
21, 2010).
    \49\ ``S. 3302, The Motor Vehicle Safety Act of 2010,'' Hearing 
before the Senate Committee on Commerce, Science, and Transportation, 
May 19, 2010; ``Hearing to Review the Department of Transportation 
Fiscal Year 2010 Budget,'' Hearing before the Senate Committee on 
Commerce, Science, and Transportation, March 4, 2010; ``Toyota's 
Recalls and the Government's Response,'' Hearing before the Senate 
Committee on Commerce, Science, and Transportation, March 2, 2010.
    \50\ ``Update on Toyota and NHTSA's Response to the Problem of 
Sudden Unintended Acceleration,'' Hearing before the Subcommittee on 
Oversight and Investigations, House Energy and Commerce Committee, May 
20, 2010; ``Legislative Hearing on H.R. 5381, the Motor Vehicle Safety 
Act,'' hearing before the Subcommittee on Commerce, Trade, and Consumer 
Protection, House Energy and Commerce Committee, May 6, 2010; ``NHTSA 
Oversight: The Road Ahead,'' before the Subcommittee on Commerce, 
Trade, and Consumer Protection, House Energy and Commerce Committee, 
March 11, 2010; and, ``Response by Toyota and NHTSA to Incidents of 
Sudden Unintended Acceleration,'' before the Subcommittee on Oversight 
and Investigations, House Energy and Commerce Committee, Feb. 23, 2010.
---------------------------------------------------------------------------
    With respect to vehicle safety, it is evident that electronic 
systems are relied on for nearly every vehicle function from power 
windows to airbag deployment to brake and throttle controls. For this 
reason, a minimum standard is needed to ensure that the electronic 
systems that operate and control vehicle safety systems are shielded to 
protect against electromagnetic or other forms of interference and from 
damage and deterioration during routine use, wear and tear. For this 
reason, Advocates supports both a minimum safety standard to govern the 
electronics that are built into motor vehicles (Sec. 504), as well as 
establishment of a center by NHTSA for electronics knowledge and 
expertise (Sec. 501) that can leverage the agency's access to 
information and engineers trained in vehicle-based electronics, 
software and related disciplines. The importance of these areas of 
expert knowledge will only become more critical as vehicle safety 
functions and performance become more dependent on computerization and 
electronics.
    The Committee's hearings also pointed to the need for a fail-safe 
brake system override that can cause motor vehicles to come to a full 
stop regardless of whether the inputs causing unintended acceleration 
come from faulty vehicle controls or the driver. Brake performance 
should always take precedence over conflicting commands to accelerate. 
For this reason, Advocates supports the direction to NHTSA to require a 
brake override standard (Sec. 502) and to investigate the need for 
additional requirements to govern pedal placement and potential 
obstructions (Sec. 503).
    As vehicles become platforms for not just safety systems but also 
for ``infotainment'' and work-related communications devices, the 
potential for diversion of driver attention from the driving task has 
increased. This Committee has been a leader in trying to eliminate 
driver distractions, having marked up the Distracted Driving Prevention 
Act of 2009, S. 1938, in the 111th Congress and including provisions in 
the Committee draft NHTSA authorization bill. The Committee again is 
promoting safe driving by including a provision to prevent drivers from 
viewing video monitors and screens for entertainment purposes while 
driving. (Sec. 507). It is a fundamental premise of driving safety that 
the driver should be paying attention to the road and traffic while 
driving, not engaging in other activities or distractions. The 
availability of viewing screens needlessly adds another diverting 
temptation that should not be permitted when operating a motor vehicle. 
For this reason, the Federal Motor Carrier Safety Regulations (FMCSR) 
have long prohibited commercial motor vehicle drivers from having a 
television screen or ``other means of visually receiving a television 
broadcast'' in the front seat of the vehicle.\51\ We support this 
measure as a reasonable and commonsense limitation on the driver while 
operating a motor vehicle.
---------------------------------------------------------------------------
    \51\ 49 C.F.R.  393.88.
---------------------------------------------------------------------------
    Advocates also strongly supports the Committee's commitment to 
future safety research by including a requirement to upgrade the 
current Federal regulation on Event Data Recorders (EDRs). (Sec. 506). 
EDRs will provide an immense wealth of objective vehicle information in 
the event of a crash that can be used to help in crash reconstruction 
and in aiding research to develop more effective crash avoidance and 
crashworthiness countermeasures in the future.
Recommendations:

  <bullet> Congress should adopt reauthorization legislation that:

    <bullet> Establishes safety standards for vehicle stopping 
            distance, brake override and electronic systems 
            performance;

    <bullet> Prohibits electronic screens from displaying visual 
            entertainment programs that are visible to the driver;

    <bullet> Considers the need to adopt safety standards for pedal 
            placement and push-button ignition systems;

    <bullet> Requires event data recorders on all new passenger 
            vehicles and revises the requirements of the current event 
            data recorder regulations; and,

    <bullet> Creates at NHTSA a center for electronics, software and 
            engineering expertise.

NHTSA's Authority to Address Safety and Consumer Issues Should Be 
        Expanded
    Mr. Chairman, NHTSA is over 40 years old \52\ and should be given 
authority and powers commensurate with the agency's experience and 
mandate. This responsibility should be coupled with powers that permit 
the agency to fully perform its duties and allow the agency to exercise 
its enforcement authority to increase compliance. For this reason 
Advocates supports amending several Federal laws to provide NHTSA with 
enhanced authority to address existing safety problems with 21st 
century approaches that will allow the agency to leverage its resources 
to protect the American public.
---------------------------------------------------------------------------
    \52\ NHTSA was formally established by the Highway Safety Act of 
1970.
---------------------------------------------------------------------------
    For this reason we support amending Federal law to permit NHTSA to 
fully participate in traffic and vehicle safety legislative discussions 
that take place in state capitals.\53\ (Sec. 409). The expertise 
garnered through Federal safety programs and activities, and knowledge 
derived from national data collection, should be directly shared by 
NHTSA with state and local officials considering relevant legislation. 
In a modern age of instant communications and information search 
engines, it is implausible that any Federal official providing data and 
statistical results on a safety issue could overcome the will and 
access to information of state and local officials or, by so doing, 
interfere with the legislative process on the state and local levels.
---------------------------------------------------------------------------
    \53\ 49 U.S.C.  30105.
---------------------------------------------------------------------------
    Likewise, we believe that after more than 30 years it is time to 
rescind some or all of the restriction that prohibits NHTSA from 
allowing seat belt reminders that continue to sound after the first 8 
seconds of vehicle operation, or that prohibits manufacturers from 
voluntarily introducing front and rear seat belt reminder systems into 
their vehicles.\54\ (Sec. 302). The belt reminder ``buzzer'' 
restriction has held back technology and innovation that has been used 
to save lives in Europe and around the world. The result has been that 
belt use rates in this country are lower than they could or should be. 
Manufacturers are even graded on the sophistication of their seat belt 
reminder systems under the European vehicle safety consumer rating 
system called EURO NCAP.\55\ Although the New Car Assessment Program 
(NCAP) consumer ratings system was invented in the U.S., by NHTSA, the 
agency does not include seat belt reminder systems in its U.S. ratings.
---------------------------------------------------------------------------
    \54\ 49 U.S.C.  30122(d) and 30124.
    \55\ The European New Car Assessment Program (NCAP) includes 
ratings for seat belt reminder systems as part of the Safety Assist 
category. Last accessed on July 22, 2011 from http://www.euroncap.com/
Content-Web-Page/7b5a942e-a578-4108-8c55-2e2dc1d1bceb/safety-
assist.aspx.
---------------------------------------------------------------------------
    We also concur that NHTSA needs additional authority regarding 
odometer fraud and the importation of vehicles and vehicle equipment. 
(Sections 305-307). As we note elsewhere, the use of electronic systems 
has changed most aspects of modern motor vehicles including odometers 
and the methods used to commit odometer fraud by rolling back vehicle 
odometers. The wording of the governing statutory provision,\56\ as 
well as how the information is disclosed and the penalties for odometer 
fraud \57\ all need to be updated.
---------------------------------------------------------------------------
    \56\ 49 U.S.C.  32705.
    \57\ Id.,  32709.
---------------------------------------------------------------------------
Recommendations:

  <bullet> Congress should adopt reauthorization legislation that:

    <bullet> Permits NHTSA to share its expertise with state and local 
            legislatures;

    <bullet> Allows NHTSA to require and vehicle manufacturers to 
            provide advanced seat belt use reminder systems for all 
            designated seating positions in passenger vehicles; and

    <bullet> Extends NHTSA's authority to combat odometer fraud.

Greater Transparency and Accountability is Needed to Protect Consumers
    During hearings held by this Committee regarding the adoption of 
the Motor Vehicle Safety Act of 2010, numerous problems that impede and 
hinder the public's right to know about vehicle defects, unfortunately, 
came to light. Among the issues that were discovered as part of the 
investigation of how the agency handled the consumer complaints 
regarding sudden unintended acceleration, were issues related to the 
agency's performance of its investigatory functions, its handling of 
recalls and defect information, as well as the disclosure of critical 
safety data and information to the public and public access to agency 
safety data bases and information. Many of these issues were addressed 
in last year's Motor Vehicle Safety Act \58\ and should be included in 
the agency reauthorization bill because they will achieve valuable and 
necessary improvements in NHTSA's policies and procedures.
---------------------------------------------------------------------------
    \58\ S. 3302, the Motor Vehicle Safety Act of 2010.
---------------------------------------------------------------------------
    For example, NHTSA information and interaction with the public over 
vehicle safety recalls will be vastly improved if more information 
about recalls and defects is available. Many consumers have difficulty 
understanding whether their vehicle, or a used vehicle they wish to 
purchase, has been the subject of a safety recall. Providing that 
information in an easy-to-access and user friendly database that 
consumers can search by the vehicle identification number (VIN) of 
their vehicle is a commonsense solution to an all too common problem. 
(Sec. 401) Likewise, providing consumers with ready Internet access to 
reports and communications regarding vehicle safety and recalls (Sec. 
403) that are required to be provided to the Secretary of 
Transportation will go a long way toward making safety information 
about motor vehicles available to the people who own and lease them.
    At the same time, providing the public with greater disclosure of 
the Early Warning Data, (Sec. 404) that was originally required to be 
provided under the Transportation Recall Enhancement, Accountability 
and Documentation (TREAD) Act,\59\ will allow the public to assist the 
agency with information and analysis of the volumes of data sent to the 
agency by manufacturers. In addition, promoting the reporting of defect 
complaints and information by requiring an in-vehicle consumer notice 
(Sec. 407) and by establishing a hotline for employees of 
manufacturers, dealerships and mechanics to report information 
regarding safety defects or problems (Sec. 402), will assist the agency 
in identifying and substantiating safety problems that have not 
previously come to light.
---------------------------------------------------------------------------
    \59\ Pub. L. 106-414 (Nov. 1, 2000).
---------------------------------------------------------------------------
    Equally important, we must ensure that people within the industry 
who are willing to disclose information about safety problems and 
defects are protected from retaliation. (Sec. 408). So-called ``whistle 
blower'' protection is available in a number of industries to ensure 
that when an employee with inside knowledge of a defect or safety 
problem comes forward in the public interest, that person will not have 
to suffer retribution for their act of civic responsibility. At the 
same time, government officials who have worked for NHTSA should have 
some restrictions placed on their capacity to use their knowledge and 
expertise for manufacturers that interact with NHTSA regarding safety 
recall issues. (Sec. 410 Revolving Door). Advocates agrees that 
reasonable limits should be adopted to deter former NHTSA employees 
from influencing the progress or outcome of vehicle safety matters by 
communicating with or appearing before agency personnel on behalf of 
vehicle manufacturers. These are appropriate and necessary measures to 
ensure public confidence in the agency's safety activities.
    Advocates also supports the need for corporate officers of vehicle 
and equipment manufacturers to take personal responsibility for the 
documents that are requested or required to be provided to the 
Secretary and NHTSA (Sec. 405) during the conduct of a safety defect 
investigation. Unfortunately, experience shows that unless senior 
company officials understand that they will be personally accountable 
for the accuracy of the information that is submitted, the company may 
not make the full disclosure needed by the agency to conduct a thorough 
investigation. Along with this change it is also necessary to 
substantially increase the maximum penalties for violation of the key 
vehicle safety act disclosure requirements to a maximum of $250,000,000 
(Sec. 303). The failure to provide honest and full disclosure and 
cooperation of potential safety defects could result in deaths and 
injuries and those that choose to place their interests above the 
safety of consumers should pay a high price for such behavior.
    Advocates supports the need to ensure that disclosures of defects 
and noncompliance with safety requirements are made known to persons 
who rent or lease motor vehicles (Sec. 411). An owner of a business 
that rents motor vehicles to the public, and knows that the rental 
vehicles are subject to a safety recall or failure of compliance should 
make their customers aware of the information before renting the 
vehicle. The disclosure should be clear and conspicuous so that the 
person renting the vehicle is adequately informed of the safety problem 
and gives informed consent before renting the vehicle. Likewise, the 
same consumer disclosure should be made applicable to owners of used 
car businesses who resell vehicles that are subject to a safety recall 
or noncompliance. In both instances the business that owns the vehicle 
is in a much better position to know or determine whether the vehicle 
has been the subject of a safety recall or noncompliance notice.
    We also favor requiring NHTSA to conduct a study of its crash data 
collected through the National Automotive Sampling System (NASS). (Sec. 
412). The NASS is the cornerstone of motor vehicle crash data providing 
information to NHTSA in order to estimate highway deaths and injuries 
and crash trends. NASS was designed by a panel of experts in data 
collection and statistical analysis to collect data on crashes from 
multiple sources to provide a detailed and comprehensive assessment of 
the crash event and resulting injuries. The plan envisioned 75 teams of 
two to four investigators assigned to a geographical area with a total 
of 200 trained investigators examining two statistically sampled 
crashes per week, for a total of nearly 19,000 crashes each year. 
Currently, NASS collects far fewer cases, less than 5,000 each year, 
which is barely sufficient to provide a representative sample and 
threatens the agency's ability to conduct analysis on emerging crash 
and injury trends because the database will be too small to identify 
injury patterns.

Recommendations:

  <bullet> Congress should adopt reauthorization legislation that:

    <bullet> Requires NHTSA to update and improve its vehicle safety 
            data bases and ensures that manufacturer notices of 
            software upgrades are available to consumers;

    <bullet> Makes more early warning data publicly available;

    <bullet> Provides consumers with information on how to report 
            vehicle defects inside new vehicles;

    <bullet> Establishes a hotline for reporting vehicle defects, 
            noncompliance and safety problems by mechanics and 
            employees of manufacturers and dealerships;

    <bullet> Affords employment protection to whistle blowers;

    <bullet> Prevents senior NHTSA officials who leave the agency from 
            communicating or appearing before agency officials on 
            vehicle safety matters for 2 years;

    <bullet> Requires senior officials of motor vehicle manufacturers 
            to take personal responsibility when filing reports with 
            NHTSA;

    <bullet> Increases the penalties for violations of safety 
            regulations;

    <bullet> Requires that owners of car rental and used car businesses 
            must disclose vehicle safety recall or noncompliance 
            information to prospective renters or purchasers; and,

    <bullet> Requires NHTSA to review the NASS data collection program 
            and report to Congress with recommendations for improving 
            the program.

Child Safety Standards
    Motor vehicle crashes are the leading cause of death for children 
four to 14 years old. In 2009, 329 children ages four through seven 
died in motor vehicle crashes.\60\ Improper restraint in an adult seat 
belt, or lack of any restraint at all, significantly contributes to 
traffic fatalities among this young population. With one exception, 
seatback strength, the Committee has included all of the following 
provisions to improve child safety in the reauthorization bill. 
Advocates supports both the Committee bill and the Committee's efforts 
to strengthen child safety standards.
---------------------------------------------------------------------------
    \60\ 2011 Roadmap to State Highway Safety Laws, Advocates for 
Highway and Auto Safety, Jan. 2011, p. 21.
---------------------------------------------------------------------------
Protection for Older Children
    In 2002, Congress passed Anton's Law,\61\ again because of the 
leadership of this Committee, to improve child restraints for older 
children, aged four to 10 years old. The law instructed NHTSA to 
establish performance requirements of child restraints for children 
weighing more than 50 pounds and develop a 10-year-old child test 
dummy. While NHTSA issued a Supplemental Notice of Proposed Rulemaking 
(SNPRM) in November, 2010 to address child restraint systems, the 
requirements of Anton's Law have gone largely unfulfilled. Advocates' 
commends the Committee for expanding requirements for child restraint 
systems for children weighing more than 65 pounds in its 
reauthorization proposal, but also calls on Congress to direct NHTSA to 
implement regulations protecting older child passengers in a timely 
manner.
---------------------------------------------------------------------------
    \61\ Pub. L. 107-318 (Dec. 4, 2002).
---------------------------------------------------------------------------
Side Impact Crashes
    Current Federal safety standards require U.S.-marketed child 
restraints to meet dynamic testing simulating a 30 mph frontal impact. 
This test is conducted by decelerating a test sled instead of 
conducting a crash test. In response to Section 14 of the TREAD Act, 
NHTSA issued an Advance Notice of Proposed Rulemaking (ANPRM), on May 
1, 2002, on the development of a side impact protection standard for 
child restraint systems (CRS).\62\ The following year, the agency 
decided not to proceed with rulemaking due to the lack of data to 
evaluate the problem, available countermeasures and proper injury 
criteria, but stated that research on the subject would continue.\63\
---------------------------------------------------------------------------
    \62\ NHTSA NPRM on Federal Motor Vehicle Safety Standards; Child 
Restraint Systems, 67 FR 21806 (May 1,2002).
    \63\ Report to Congress: Child Restraint Systems--Transportation 
Recall Enhancement, Accountability, and Documentation Act, NHTSA (Feb. 
2004), pp. ii-iii, available at http://www.nhtsa.gov/nhtsa/announce/
NHTSAReports/TREAD.pdf.
---------------------------------------------------------------------------
    In recent papers summarizing the research conducted to evaluate 
potential child side impact test procedures, NHTSA identified that 
children represent over 50 percent of rear seat occupants in vehicle 
collisions. ``Side Impacts are the second most frequent collisions 
resulting in child occupants sustaining serious life-threatening head, 
neck and chest injuries.'' \64\ The agency concluded that additional 
testing is needed to refine test parameters, validate the test 
methodology and to examine additional child restraint systems. There 
was no indication as to when research and testing would be concluded. 
It has been more than 10 years since the enactment of the TREAD Act and 
9 years since NHTSA stated that it would undertake efforts to address 
child protection in side impacts.
---------------------------------------------------------------------------
    \64\ NHTSA's Initial Evaluation of Child Side Impact Test 
Procedures, NHTSA Paper No. 09-0539, available at http://www-
nrd.nhtsa.dot.gov/pdf/esv/esv21/09-0539.pdf.
---------------------------------------------------------------------------
Child Restraint Anchorage Systems
    For many years, parents have been advised for safety reasons to 
secure children in the rear seat of vehicles. NHTSA has taken some 
action to accommodate child restraints secured in vehicle rear seats, 
but has failed to initiate other measures to improve rear seat safety 
for children.
    In 1999, NHTSA required that by 2002 passenger vehicles and child 
restraints must be equipped with lower anchorages and tethers for 
children--the ``LATCH'' system--in order to promote an easier system of 
child restraint in place of using vehicle seat belts to secure child 
restraints. Although parents have long been advised that the center 
rear seating position is the safest for a child, no LATCH System was 
required in the center rear seating position. Instead, the agency 
required LATCH be installed at both outboard rear seating positions. A 
child who is secured in the outboard LATCH-equipped seating position is 
at greater risk in a side impact crash than a child in the center 
seating position.
    A 2005 agency report established that many parents and other adults 
were confused about how the LATCH system works, could not identify or 
find the lower anchorages, and did not realize that there were no LATCH 
systems in the rear center seating position of passenger vehicles.\65\ 
Amending Federal Motor Vehicle Safety Standard Number 225 to improve 
the visibility of, accessibility to, and ease of use for lower 
anchorages and tethers in all rear seat seating positions will increase 
use rates.
---------------------------------------------------------------------------
    \65\ Child Restraint Use Survey LATCH Use and Misuse, NHTSA, DOT HS 
810 679 (Dec. 2006), available at http://www.nhtsa.gov/DOT/NHTSA/
Communication%20&%20Consumer%20Infor
mation/Articles/Associated%20Files/LATCH_Report_12-2006.pdf.
---------------------------------------------------------------------------
Rear Seat Belt Reminders
    Although seat belt systems are installed at all seating positions 
in passenger vehicles, reminder systems to buckle up are only mandated 
in the front seating positions. Seat belt use in the rear seats is 
significantly lower than front seat use rates--in 2009, rear seat belt 
use was 70 percent, compared to 84 percent use by front seat 
occupants.\66\ According to a 2010 press release from the Illinois 
Department of Transportation, 2009 crash data indicated that fatally 
injured rear seat passengers were twice as likely to be unbuckled than 
fatally injured front seat passengers.\67\ 2005 data linked with 
hospital discharge data illustrated that failure to wear a seatbelt in 
the rear seat was associated with a 44 percent increase in the cost of 
a hospital stay following a collision.
---------------------------------------------------------------------------
    \66\ Occupant Restraint Use in 2009--Results From the National 
Occupant Protection Use Survey Controlled Intersection Study, NHTSA, 
DOT HS 811 414 (Nov. 2010).
    \67\ IDOT, State Police and Local Enforcement Boost Efforts to 
Increase Safety Belt Usage and to Help Curb Impaired Driving, Illinois 
Department of Transportation Press Release, 12 Nov. 2010, available at 
http://www.dot.state.il.us/press/r111210.html.
---------------------------------------------------------------------------
    Rear seat reminder systems can both remind the driver and rear seat 
occupants to buckle up and alert the driver when a passenger unbuckles 
the seat belt while the vehicle is moving. Given that a majority of 
parents secure their children in child restraints in the rear seat of 
vehicles, rear seat reminder systems are needed to ensure that they are 
buckled up. Rear seat belt reminders would also likely increase belt 
use rates among teen passengers riding with a teen driver.
    On August 28, 2007, safety groups filed a petition with NHTSA 
requesting that seat belt reminder systems be required in the rear 
seats of cars and in the second and third row of seats in multipurpose 
passenger vehicles, including minivans and sport utility vehicles.\68\ 
The agency has not yet responded to the petition. Congressional action 
to initiate rulemaking is needed in order to move forward in a timely 
manner with this lifesaving feature.
---------------------------------------------------------------------------
    \68\ Petition for Rulemaking--FMVSS Standard No. 208, filed by 
Public Citizen (28 Aug. 2007), Docket ID: NHTSA-2007-29108.
---------------------------------------------------------------------------
Unattended Passenger Reminders
    All too often, adults inadvertently leave infants and young 
children in child restraint systems in the rear seats of passenger 
vehicles. Exposure of young children, particularly in hot and cold 
weather, leads to hyper- and hypothermia that can result in death or 
severe injuries. A review of media reports on the 494 child vehicular 
hyperthermia, or heat stroke deaths between 1998 and 2010 found that 54 
percent (268) of the incidents occurred when the child was unknowingly 
forgotten in the vehicle by a caregiver. Fifty-four (54 percent) of the 
children who die in hot vehicles are under the age of two (2). Such 
inadvertent deaths can be avoided by equipping vehicles with sensors to 
detect the presence of the child and sound a warning at the time the 
driver locks the vehicle with a child inside. Similar warning features 
currently remind drivers when they have left the key in the ignition, 
left the headlamps on, and when a door is open while the vehicle is in 
motion.

Seatback Strength
    The safety standard for seatback performance has not been upgraded 
since it was first adopted in 1967. When the driver or front passenger 
seatback fails or collapses in a crash, it endangers both the front and 
rear seat occupants. Regulatory compliance rear impact crash tests for 
fuel system integrity (FMVSS 301), conducted by NHTSA, reveal that 
almost every seatback fails, allowing a front seat occupant to be 
propelled into the rear seating area. Seat belt systems that are 
effective in frontal crashes are not designed to keep front seat 
occupants from slipping out of the belt system when the seatback 
collapses, leading to an increase in the risk of injury to the front 
seat occupant.
    Parents have long been advised to secure young children in the rear 
seat. Also, as the U.S. passenger vehicle fleet gradually downsizes in 
response to more costly fuels and environmental concerns, the distance 
between forward seatbacks and rear seated occupants will be reduced. 
Children's Hospital of Philadelphia (CHOP) has determined that 
collapsing seatbacks are a serious threat to children seated behind 
adult occupants. Many children were found to have been injured in 
crashes in which seatbacks collapse or there is excessive seat 
deformation. The failure of a seatback directly in front of a child 
places the child at risk, and when there is an occupant in the seat 
that fails there is double risk of injury to the child. NHTSA noted in 
a 1997 study that an examination of the interaction between front 
seatback failures and injuries to rear seat occupants may be important 
to assess the entirety of the occupant protection implications of 
seatback failure. In 2004, NHTSA stated that the weight of a passenger 
when added to the weight of the seatback itself will, even in a low 
severity crash, produce loads exceeding the level required by FMVSS 
207.

Recommendations:

  <bullet> Congress should require NHTSA to:

    <bullet> Establish a 2-year deadline for NHTSA to complete 
            development and adopt into regulation the HIII-10C 10-year-
            old child crash test dummy;

    <bullet> Issue a final rule regarding child restraint side impact 
            safety within 2 years;

    <bullet> Issue final rules within 2 years that require more 
            visible, recognizable and easy-to-use LATCH attachment 
            equipment and LATCH systems in the center rear seating 
            position of all vehicles in which a center LATCH system can 
            be properly installed;

    <bullet> Issue a final rule within 3 years requiring that all 
            seating positions including vehicle rear seats be equipped 
            with seat belt reminder systems;

    <bullet> Include rear seat belt reminders as part of the New Car 
            Assessment Program (NCAP) to encourage industry compliance 
            prior to issuance of final rule.

    <bullet> Issue a final rule on child-left-behind reminders; and,

    <bullet> Issue a final rule within 2 years that upgrades the 
            performance of seats, including seatbacks, head restraints, 
            and active/passive restraint to increase the protection of 
            children and adults in passenger motor vehicle crashes.

Conclusion
    The quality of life for all Americans depends on a safe, reliable, 
economical and environmentally sound surface transportation system. 
Transportation solutions to promote mobility and the economy must 
involve not only financial investments, but investments in safety as 
well. Highway crashes cost our Nation more than $230 billion annually. 
This is money that could be better spent on addressing surface 
transportation needs. Making necessary changes to the performance and 
effectiveness of the state traffic safety grant programs, including 
incentive grant programs to spur state adoption of lifesaving laws on 
teen driving, impaired driving and occupant protection and directing 
government action to improve the safety of motor vehicles will prevent 
crashes, reduce deaths and injuries and lower societal costs that are 
an economic drain on our economy.
    The decrease in highway fatalities that has occurred over the last 
2 years affords an opportunity to continue the downward trend and make 
substantial and lasting reductions in annual fatalities. There are no 
acceptable excuses for delaying any longer the adoption of lifesaving 
laws and vehicle safety standards that can help secure these lower 
fatality levels in the future. Over the course of the next 2 years we 
can save thousands of lives each year if we act wisely and act now. If 
the opportunity slips away without action we could suffer more than 
65,000 fatalities and another 4 million injuries in that 2-year time 
frame.
    Thank you for the opportunity to testify before you today and I am 
pleased to answer your questions.

    Senator Pryor. Thank you.
    Ms. Nason?

STATEMENT OF HON. NICOLE NASON, FORMER NATIONAL HIGHWAY TRAFFIC 
                      SAFETY ADMINISTRATOR

    Ms. Nason. Mr. Chairman and Senator Toomey and Senator 
Blunt, thank you for the opportunity to be here today.
    I am going to set a record and note that I had a written 
statement, which I would like to be included and ask that this 
letter, Coalition Support for the ROADS SAFE Act, be included 
with my testimony.
    Senator Pryor. Without objection.
    [The information referred to follows:]

                   Coalition Support for the ROADS SAFE Act

                                                      July 26, 2011
Hon. John D. (JAY) Rockefeller IV,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Kay Bailey Hutchison,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller and Ranking Member Hutchison:

    As a diverse group of organizations and companies dedicated to 
reducing highway fatalities caused by drunk driving and other factors, 
we urge you to include the ROADS SAFE Act (Research of Alcohol 
Detection Systems for Stopping Alcohol-related Fatalities Everywhere--
HR 510), introduced by Senator Tom Udall and Senator Bob Corker, in the 
NHTSA Transportation Reauthorization bill.
    This legislation would authorize the transfer of currently unused 
safety funds at a rate of $12 million annually for 5 years to support 
and expand the ongoing DADSS (Driver Alcohol Detection System for 
Safety) research program currently being undertaken by the National 
Highway Traffic Safety Administration and leading automakers.
    The goal of this research program is to develop a publicly-
supported technology for vehicles that will instantaneously and 
passively detect if a driver is drunk (above the legal limit of .08 
BAC) and prevent the vehicle from starting. The technology must be 
extremely accurate, inexpensive and a non-invasive optional safety 
feature.
    Despite Americans driving nearly 21 billion more miles last year, 
U.S. highway traffic fatalities dropped 3 percent from 2009 to the 
lowest levels in recorded history. To maintain this low rate, 
particularly as the economy starts to recover and highway travel 
increases further, we need to be diligent in pursuing opportunities 
that have the potential to be very effective. If the DADSS research 
program is successful, more than 8,000 lives can be saved each year, a 
major step toward eliminating drunk driving (which costs taxpayers $130 
billion each year).
    Again, we ask that you include this important life-saving measure 
in the traffic safety reauthorization legislation that is developed by 
your Committee.
    Sincerely,

  <bullet> AAA
  <bullet> Advocates for Highway and Auto Safety (AHAS)
  <bullet> Alliance of Automobile Manufacturers
  <bullet> Allstate Insurance
  <bullet> American Academy of Pediatrics
  <bullet> American Association of State Highway and Transportation 
        Officials (AASHTO)
  <bullet> American Automotive Policy Council (AAPC)
  <bullet> American Highway Users Alliance (AHUA)
  <bullet> American International Automobile Dealers Association 
        (AIADA)
  <bullet> American Trucking Associations (ATA)
  <bullet> Association of Global Automakers, Inc.
  <bullet> Distilled Spirits Council of the United States (DISCUS)
  <bullet> Governors Highway Safety Association (GHSA)
  <bullet> Mothers Against Drunk Driving (MADD)
  <bullet> National Association of Minority Automobile Dealers (NAMAD)
  <bullet> National Automobile Dealers Association (NADA)
  <bullet> National Beer Wholesalers Association (NBWA)
  <bullet> National Organizations for Youth Safety (NOYS)
  <bullet> National Safety Council (NSC)
  <bullet> Nationwide Insurance
  <bullet> Safe Kids USA
  <bullet> State Farm Mutual Automobile Insurance Company
  <bullet> The Century Council
  <bullet> Wine and Spirits Wholesalers of America (WSWA)

    Ms. Nason. Thank you. I just want to thank you all for--
particularly for including the funding for the DADSS Act, the 
Driver Alcohol Detection System for Safety. I know 
Administrator Strickland spoke about that in his testimony, and 
I was so pleased to hear him say that this is reality. This 
technology actually can exist with funding and time.
    He noted that it was the 5-year anniversary, which would 
put it squarely within my tenure. And I can tell you having 
been there, that it was shoulder to the wheel all the way. The 
intellectual property rights discussions alone nearly destroyed 
this language several times, but we got it together and now we 
have a model, and so I really strongly urge the Committee to 
firewall this provision as you move forward and protect it as 
this process moves forward.
    And I also noted in my testimony that NHTSA is an 
organization that might benefit from and ombudsman. And that 
may seen to come out of left field, but having served as the 
Assistant Secretary of Government Affairs for several years at 
the Department and then the NHTSA administrator. And then 
having watched the Toyota hearings from the cheap seats in 
Connecticut where I now live, I observed how much anger there 
was at this very small agency. And most of what I read and what 
I saw on the web, and what I followed on the blogs, and what I 
heard at the hearings related to people feeling frustrated that 
no one was getting back to them.
    And I know, having been on the inside, that the defect 
investigations team worked very, very hard on a variety of 
issues. On any given day, it is car seats and boat trailers and 
motorcycle brakes. But in this age of instant communication, 
people feel like someone should write back very quickly to say, 
we got your e-mail or your letter, and we're working on it. 
There doesn't seem to be anybody filling that role.
    And when I started in Government, I was the Assistant 
Commissioner of the U.S. Customs Service, and on my first day 
they put me in a room with another political appointee, not a 
Senate-confirmed, a non-career SES, And he said, ``I'm the 
trade ombudsman.'' And it was because the Customs Service had 
so much interaction with the public that they felt like they 
needed to have an ombudsman there to respond to those kind of 
inquiries.
    Now, you see one at the IRS, and I think that--I hope the 
Committee will consider creating a role for someone to respond 
to the public more quickly. They do get back to them, but 
getting a letter out of the Government takes time. Even 
quickly, it's still a matter of weeks and people expect that 
someone is going to back to them more quickly than that. So, I 
have put it out there for discussion and I hope the Committee 
will raise the issue with others, who might have thoughts on 
it, to see if this is a place where there could be some benefit 
to both the agency and the public.
    And I thank you for your time in allowing me to be here.
    [The prepared statement of Ms. Nason follows:]

               Prepared Statement of Hon. Nicole Mason, 
          Former National Highway Traffic Safety Administrator

    Chairman Pryor, Senator Toomey, members of the Subcommittee, thank 
you for the opportunity to appear before you to discuss the 
reauthorization of the National Highway Traffic Safety Administration.
    As a former NHTSA Administrator and current National Board Member 
of Mothers Against Drunk Driving, I commend the Committee for including 
funding for advanced alcohol detection technology in the draft 
legislation. The Driver Alcohol Detection System for Safety (DADSS) 
program is a result of a cooperative research agreement between NHTSA 
and the Automotive Coalition for Traffic Safety, which is composed of 
the world's leading auto manufacturers. This work is critical, as 2009 
fatality numbers make clear: 10,839 people were killed in drunk driving 
crashes.The technology to prevent drunk driving crashes already exists 
in an imperfect form, but with funding to perfect it, we can prevent 
nearly a third of all fatalities on our roads. Just last week, over 
twenty diverse organizations sent a letter to Congress in support of 
DADSS. I have included this letter with my testimony and ask that it be 
made a part of the hearing record.
    There are numerous other important sections in the draft bill, 
including Section 109, requiring at least three DUI or seat belt high 
visibility enforcement campaigns annually. These campaigns are crucial 
to spreading the word that drunk drivers will be caught and prosecuted. 
The national Click It or Ticket campaign is one of the most successful 
highway safety programs of all time and serves as a model for other 
highway safety endeavors. Additionally, I commend the Committee for 
including incentive grants for states to pass an all offender ignition 
interlock program. Since MADD began the Campaign to Eliminate Drunk 
Driving, 15 states have passed such laws.
    As safety research dollars are so precious, I would also encourage 
the Committee to carefully consider how each section of the draft 
legislation may impact available safety resource funding. In a 2009 
opinion piece in the Detroit News, I expressed concern about future 
funding for safety while automakers were pressed to develop advanced 
technologies for fuel economy. I noted, ``[w]hen resources are 
constrained, something must give. Policymakers must understand these 
trade-offs and recognize the choices they might be compelling.'' I 
believe this is still true. At a time when R&D funding is scarce, 
provisions that seem small could ultimately result in millions of 
dollars being diverted from larger safety needs in the areas of 
research or staffing.
    Finally, a new staff-related proposal I hope the Committee will 
consider is the creation of a senior NHTSA Ombudsman. After the Toyota 
hearings last year, it has become clear that many consumers feel 
frustrated with their inability to get a quick response from the NHTSA. 
As the former Administrator, I know the agency tries to respond to as 
many inquiries and complaints as possible, however, that process can 
take several weeks or longer. A senior Ombudsman role would both 
alleviate the pressure on the defects investigators to respond to 
numerous inquiries, and provide the public with a clear outlet for 
their requests. Many other Departments and agencies have an Ombudsman, 
and I believe NHTSA could benefit from having a person directly 
responsible for communicating with the public.
    Thank you again for inviting me to appear today and I would be 
happy to answer any questions.

    Senator Pryor. Thank you.
    Mr. Strassburger?

   STATEMENT OF ROBERT STRASSBURGER, VICE PRESIDENT, VEHICLE 
SAFETY AND HARMONIZATION, ALLIANCE OF AUTOMOBILE MANUFACTURERS 
                           (ALLIANCE)

    Mr. Strassburger. Thank you, Mr. Chairman.
    As we have already this afternoon, the rate of fatalities 
in 2010 fell to their lowest level since 1949 despite a 
significant increase in the number of miles driven last year. 
We are seeing a sustained decline in fatalities because of the 
efforts begun over a decade ago by this Committee, your House 
counterparts, NHTSA, automakers and our other safety partners 
to prioritize our efforts and focus on the biggest problems in 
traffic safety such as unbelted motorists, drunk drivers, and 
protecting our children. We know what works, strong laws, 
visibility enforced, education about those laws and the risks 
associated with certain driving behaviors.
    For our part, automakers are waging a safety technology 
revolution, conceiving, developing, and implementing new safety 
systems with real world benefits. But in an era of dwindling 
resources, we have a difficult task ahead if we are to ensure 
continued progress.
    As this Committee moves forward, we urge you to focus on 
those provisions that will provide the greatest safety benefits 
while existing demands to adopt provisions that do not provide 
benefits.
    The Alliance has the following recommendations: if we are 
to fully realize the benefits of vehicle safety technologies, 
we must address drivers' most dangerous behaviors. Thirty-two 
percent of those killed last year died because of a drunk 
driver. The Alliance supports adoption of Sections 107 and 111 
that support Government and industry efforts to reduce drunk 
driving.
    Over half of those killed last year were not wearing their 
safety belts. Primary enforcement of safety belt use laws 
results in higher usage rates, and that saves lives. After 
nearly 30 years of trying to enact primary enforcement laws, 
the time has come to treat safety belt use with the same 
seriousness as drunk driving by withholding funding from states 
that have failed to adopt a primary law in the same way 
Congress required states to adopt 0.08 laws.
    Further, the Alliance supports adoption of Section 109, 
which provides funding for high-visibility enforcement of 
safety belt use and drunk-driving laws.
    The Alliance also supports adoption of Section 108, which 
gives NHTSA and states additional tools to impact distracted 
driving.
    Finally, the Alliance supports the Committee's proposal to 
give NHTSA authority to prevent fly-by-night companies from 
selling defective products and failing to take responsibility 
when those problems surface. The Alliance would like to work 
with the Committee on Sections 309 through 311 to ensure that 
these provisions are targeted at the bad actors.
    Provisions that will not result in few traffic deaths and 
should be dropped include Section 404, which would overturn the 
well-established rules for early-warning reporting, even those 
we heard just now from Administrator Strickland, that the rule 
is working.
    The EWR rule has already been subject to two rulemakings 
and NHTSA's judgment has been upheld in court.
    Other provisions deviate from NHTSA's recently published 
priority plan and that should be dropped. These include Section 
503 mandating pedal placement requirements and Section 506(c) 
directing the agency to amend its existing EDR rule before it 
is fully implemented.
    The proposal to increase civil penalties for automakers and 
suppliers by roughly 1,500 percent is out of proportion to the 
current penalty structure for other manufacturers such as those 
under the jurisdiction of the Consumer Product Safety 
Commission.
    The Alliance recommends deleting Section 303.
    The Alliance's written testimony submitted for the record 
describes our complete set of recommendations. Sustaining 
progress made and reducing injuries and fatalities for motor 
vehicle crashes is a significant public health challenge now 
made even more difficult because of dwindling resources.
    We appreciate the leadership shown by the members of this 
Committee and we share your goals. We look forward to 
continuing to work with you to make our roads the safest in the 
world.
    Mr. Chairman, Members of the Committee, I would be happy to 
answer your questions.
    [The prepared statement of Mr. Strassburger follows:]

  Prepared Statement of Robert Strassburger, Vice President, Vehicle 
    Safety and Harmonization, Alliance of Automobile Manufacturers 
                               (Alliance)

    Thank you, Mr. Chairman and Committee members. My name is Robert 
Strassburger and I am Vice President of Vehicle Safety and 
Harmonization at the Alliance of Automobile Manufacturers (Alliance). 
The Alliance is a trade association of twelve car and light truck 
manufacturers including BMW Group, Chrysler Group LLC, Ford Motor 
Company, General Motors, Jaguar Land Rover, Mazda, Mercedes-Benz, 
Mitsubishi Motors, Porsche, Toyota, Volkswagen Group of America and 
Volvo. For Alliance members, who account for roughly three quarters of 
all vehicles sold in the U.S. each year, safety is a top priority. The 
Alliance appreciates the opportunity to comment on the Motor Vehicle 
and Highway Safety Improvement Act discussion draft and we look forward 
to working with the Committee as partners in enhancing motor vehicle 
safety.
    As this Committee considers the road ahead for the National Highway 
Traffic Safety Administration (NHTSA) it is important to bear in mind 
the broader context of motor vehicle safety in the U.S. today. 
Fatalities and serious injuries resulting from motor vehicle crashes in 
the U.S. are at their lowest level in 60 years. This fact is remarkable 
given that during the same timeframe the number of licensed drivers has 
more than doubled and annual vehicle miles travelled have more than 
quadrupled.
    This is because the government and the industry are doing many 
things very well to innovate, develop, and implement effective safety 
systems and programs. Most of the safety features on motor vehicles in 
the U.S.--antilock brakes, stability control, side airbags for head and 
chest protection, side curtains, pre-crash occupant positioning, lane 
departure warning, collision avoidance and more--were developed and 
implemented voluntarily by manufacturers, in advance of any regulatory 
mandates. The industry is moving forward, engaging in high-tech 
research, and developing and implementing new safety technologies 
including autonomous braking systems, vehicle safety communications 
systems for crash avoidance and much more. Our commitment is to 
continuously improve motor vehicle safety.
    Tackling the Primary Causes of Traffic Deaths and Injuries. As a 
nation, we will never fully realize the potential benefits of vehicle 
safety technologies until we get vehicle occupants properly restrained 
and drunk drivers off the road. While safety belt usage is increasing, 
over half of vehicle occupants killed in crashes are not restrained by 
safety belts or child safety seats. Alcohol impairment stubbornly 
remains a factor in roughly one-third of traffic deaths each year. 
These are unacceptable numbers.
    The safety belt is the lynchpin vehicle safety technology. The 
effectiveness of nearly every other technology designed to protect 
occupants in a crash is significantly reduced if drivers and passengers 
are not wearing seatbelts. While we have been reluctant to engage in 
the debate over incentives versus sanctions, on this critical issue the 
Alliance now urges Congress to include provisions for withholding a 
percentage of Highway Trust Fund monies from states that have failed to 
adopt primary enforcement safety belt laws. Sanctions have worked 
effectively to accelerate the process of passing laws and creating 
uniform safety policy in all 50 states and in the District of Columbia. 
Congress employed this tactic to encourage states to adopt a minimum 
legal drinking age of 21 (1984), zero alcohol tolerance laws for youth 
under 21 (1995), and 0.08 percent per se blood alcohol content (BAC) 
laws (2000). It is time to take a similar step with primary enforcement 
laws, and we urge you to work with your colleagues on the Environment 
and Public Works Committee on this issue. The Alliance also supports 
Section 302, which would authorize NHTSA to permit safety belt 
interlocks as part of an FMVSS compliance strategy. The Alliance is 
also prepared to support Section 603; however, it needs to be revised 
to clarify what outcome is intended.
    With regard to reducing impaired driving, the Alliance supports the 
provisions in Section 107. The Alliance believes that states with 
higher rates of alcohol-related fatalities (``low and mid-range'' 
states) should be required to devote some portion of funding to support 
both media in support of high visibility enforcement efforts 
(107(d)(2)(A)) and alcohol ignition interlock programs for convicted 
offenders (107(d)(2)(D)). Strong laws, visibly enforced and alcohol 
ignition interlock (breathalyzer) programs for convicted offenders are 
proven models with demonstrated results in reducing drunk driving.
    The Alliance also supports the provisions in Section 111, which 
would formally authorize the cooperative research program the industry 
voluntarily entered into and is jointly funding with NHTSA. The Driver 
Alcohol Detection System for Safety, commonly referred to as ``DADSS,'' 
is a five-plus-year research effort created to develop in-vehicle 
technology that will quickly and accurately measure a driver's blood 
alcohol concentration (BAC) in a non-invasive manner. If the system 
detects that a driver is drunk, the vehicle's starting capabilities are 
disabled. The Insurance Institute for Highway Safety projects that 
successful implementation of this kind of technology has the potential 
to prevent more than 8,000 deaths each year.
    The Alliance supports Section 406, which would allow NHTSA to 
include crash avoidance technologies in its New Car Assessment Rating 
program, which provides valuable information to consumers about vehicle 
safety features.
    Finally, the Alliance supports giving NHTSA and the states tools 
and funding to combat distracted driving. We want to work with the 
Committee, as we have with NHTSA and the states, to ensure that new 
laws do not unintentionally sweep in technologies intended to make 
driving safer. The Alliance and our partners at the American Academy of 
Orthopedic Surgeons have launched a multimedia campaign that highlights 
the importance of driver focus to road safety. The high-visibility 
campaign includes advertising, an interactive and independently branded 
website and localized elements--including last year's advertising of 
the campaign on dozens of metro buses in the Washington, D.C. area. And 
our campaign is finalizing plans for reaching out to the Nation's 
schools with a new element this fall.
    Focusing Limited Resources to Achieve Real-World Benefits. Auto 
engineers develop and test new safety technologies based on their 
expected performance in real-world situations. Proposed legislation 
needs to meet the same test. At a time when we are acutely aware of our 
resource limitations, both industry and government need to prioritize 
our efforts in order to maximize real-world safety benefits for 
Americans.
    In March 2011, NHTSA published an updated Vehicle Safety and Fuel 
Economy Rulemaking and Research Priority Plan for 2011-2013, reflecting 
extensive analysis of traffic safety data and the agency's expert 
judgment on the most effective means to continue to accomplish its 
Congressionally mandated mission to ``save lives, prevent injuries and 
reduce economic costs due to road traffic crashes.'' Congress should 
resist mandating widespread and far reaching rulemakings--with 
relatively short deadlines that affect so many aspects of motor vehicle 
design without greater evidence that they would make meaningful 
contributions to improving highway and vehicle safety.
    Our concern over legislatively-mandated rules is not over improving 
safety--industry is competing vigorously and moving rapidly to provide 
ever-increasing levels of safety in its vehicles--but over process. 
Safety rulemakings are often complex, involving myriad of technical 
details, analysis of data, and consideration of necessary lead time. 
Mandates for rules to be issued by specified dates can short-circuit 
the necessary analyses and potentially lead to unintended safety 
consequences. The complexity of safety rulemakings requires that 
careful attention be accorded to the inherent tradeoffs associated with 
regulations. For example, we have seen tradeoffs among adult high-speed 
protection in frontal crashes and associated harm to children and 
others in low-speed crashes. Mandating rules in certain areas, 
regardless of the public rulemaking record on the subject, prejudges 
the outcome of the rulemaking process and deprives NHTSA of its ability 
to make safety-related assessments and determinations of rulemaking 
priorities.
    Accordingly, the Alliance believes the following provisions should 
be revised or removed on the basis that they inappropriately divert 
resources from more pressing priorities:

    Section 404. This section directs NHTSA to enter into a third 
rulemaking to create new ``categories'' of information that must be 
``made available to the public'' regardless of whether it includes 
confidential business information, may cause competitive harm and is 
inconsistent with the Freedom of Information Act (FOIA). The current 
early warning reporting regulations do exactly what Congress intended, 
by putting vital information in the hands of agency defect 
investigators. Secretary LaHood and Administrator Strickland stated as 
much in responses for the record to this Committee last year.\1\ This 
issue has already been subject to two rulemakings and NHTSA's judgment 
has been upheld in court. This provision should be dropped.
---------------------------------------------------------------------------
    \1\ ``At this time, the agency believes the information reported by 
manufacturers to NHTSA is useful for identifying potential safety 
defects in the affected vehicles in the U.S. Since 2004, the first full 
year in which NHTSA received EWR data, the Office of Defects 
Investigation (ODI) has used the EWR data to assist in our safety-
defect identification investigation process. NHTSA has utilized EWR 
data to assist in opening 110 defect investigations, which resulted in 
over 11 million recalled vehicles and equipment. Specifically, EWR data 
has prompted the opening of 28 defect investigations, accelerated the 
opening of 30 defect investigations, and supported the opening of 52 
other defect investigations.'' (Response of Secretary LaHood and 
Administrator Strickland to question number 4 from Sen. Hutchison for 
hearing record--Toyota Recalls and Government's Response--March 2, 2010 
pps. 177-178.)
---------------------------------------------------------------------------
    Sections 401, 403, 407, and 402. The Alliance supports providing 
consumers with access to information regarding recalls; however, these 
provisions largely require NHTSA to duplicate existing resources. 
Automakers and private entities such as CARFAX already provide 
consumers the means to determine, using the make, model, model year and 
VIN, whether a vehicle is subject to recall and whether the remedy has 
been performed (401). Automakers already provide Technical Service 
Bulletins and other dealer-related communications to NHTSA, which NHTSA 
makes available on its safercar.gov website (403). Automakers are 
already required by law to publish in Owner's Manuals information 
regarding how to report a suspected defect (407). NHTSA already 
maintains a hotline for reporting defects; the safety benefits of 
maintaining a separate hotline for manufacturer, dealer or mechanics 
are not apparent. If Congress believes NHTSA should give special weight 
to these individuals' reports, they could simply be asked to specify 
their profession when calling the existing hotline (402).
    Section 503. The Alliance recommends deleting Section 503, which 
would direct NHTSA to develop a rule specifying minimum clearances for 
passenger vehicle foot pedals with respect to other pedals, the vehicle 
floor, and any other potential obstruction to pedal movement. NHTSA 
identified pedal placement as an area in need of further research 
following the release of the NASA report on unintended acceleration. 
The agency should be allowed to finish and evaluate its research before 
a determination is made as to whether rulemaking is warranted. 
Implementing brake override technology as required in Section 502 is a 
better, more comprehensive solution to address any lingering concerns 
about unintended acceleration.
    Section 504. In February, NHTSA released the complete results of 
the study it conducted with NASA concluding that electronic systems 
played no role in cases of unintended acceleration.\2\ While the 
Alliance is not opposed to NHTSA expanding its expertise and continuing 
research into electronic systems, this undefined rulemaking is unlikely 
to have any significant near-term impact on motor vehicle safety. The 
agency's rulemaking resources should be devoted to addressing more 
pressing issues.
---------------------------------------------------------------------------
    \2\ ``NASA found no evidence that a malfunction in electronics 
caused large unintended accelerations.'' Michael Kirsch, Principal 
Engineer at the NASA Engineering and Safety Center (NESC)--NHTSA Press 
Release of February 8, 2011.
---------------------------------------------------------------------------
    Section 506. The Alliance supports equipping new vehicles with 
event data recorders (EDR) as currently specified under Part 563. 
Manufacturers who opted not to install EDRs under the voluntary 
standard will need sufficient lead time to develop and implement this 
technology in their fleets. NHTSA should have the authority to 
establish the lead time, including any phase-in schedule, after 
consultation with the manufacturers.
    The Alliance also supports strong privacy protections for 
consumers. The Alliance believes that information stored on an EDR is 
the property of the vehicle owner and should not be accessed by anyone 
without the owner's permission or as required by law. In this regard 
the provisions in 506(b) are a good start but require additional 
clarification to ensure data is the property of the owner or lessee at 
the time it was recorded rather than at the time it was downloaded from 
the vehicle EDR, and to specify that use of data retrieved under one of 
the exemptions in (b)(2) is permitted only for the specific purpose 
indicated by the exemption.
    The Alliance also believes that it is premature for Congress to 
specify the parameters of a second rulemaking before the first 
rulemaking is even implemented. The better approach would be to allow 
NHTSA to study the results of the first phase rulemaking as a prologue 
to any future enhancements to the rule.
    Additionally, the Alliance opposes making EDRs subject to an FMVSS. 
The FMVSS are required by statute to be minimum standards for motor 
vehicle or motor vehicle equipment performance. By contrast, the EDR 
rule is--by necessity and design--a regulation that specifies exactly 
that data that NHTSA wishes to be captured and retained. It is neither 
a minimum standard nor a performance standard, nor could it reasonably 
be such a standard and accomplish its intended purpose. It is not 
appropriately classified as an FMVSS, nor are the FMVSS enforcement 
mechanisms (stop sale for even slight deviations) appropriate for such 
a data- intensive, detailed regulation.
    Section 604. Mandating a rulemaking to address hyper and 
hypothermia is inconsistent with the provision in Title I giving states 
the option (rather than requiring them) to conduct a consumer education 
program in these areas. Accidental fatalities can be mitigated 
significantly with a coordinated, focused public education program. The 
provision's directive to conduct research recognizes that the reasons 
why children are abandoned in cars in some instances is not well 
understood and without such an understanding, it is not possible to 
evaluate the anticipated effectiveness of potential countermeasures. 
Finally, the provision as currently drafted would not allow the 
bifurcation of hyper and hypothermia rulemakings based on research 
findings based on safety need, practicability, or effectiveness of 
countermeasures.
    Finally, the Alliance believes that several other provisions 
deserve additional consideration as the bill moves through the 
legislative process:
    Section 303. Motor vehicle manufacturers are already subject to 
higher civil penalties than other similarly situated manufacturers of 
consumer products. The proposed increases are so out of proportion 
either to the current penalty structure or the penalty structure for 
other manufacturers under the Consumer Product Safety Act as to appear 
unfairly punitive.
    Section 405. This provision reaffirms existing law codified at 18 
USC 1001 and adds an additional civil penalty to existing criminal 
penalties. Layering additional civil fines on top of potential criminal 
penalties for making false statements to the government is unlikely to 
enhance motor vehicle safety.
    Sections 308, 309, 310, and 311. The Alliance supports what we 
understand to be the Committee's rationale in proposing these 
provisions: to give NHTSA authority to prevent fly-by-night actors from 
injecting defective products into the U.S. market and failing to take 
responsibility when problems surface. However, as currently structured, 
these provisions are simply layered on top of existing rules for 
established, well-capitalized manufacturers and suppliers who already 
play by the rules. As such these sections will result in additional 
burdens that increase the cost of doing business for responsible 
parties without providing concomitant safety benefits in the market. 
The Alliance believes the better approach would be to direct these 
provisions specifically at the bad actors, and we would like to work 
with the Committee and the agency to identify an appropriate approach. 
Many of the provisions also create discriminatory conditions and may 
not be consistent with U.S. GATT obligations.

    Senator Pryor. Thank you very much.
    Mr. Betkey?

             STATEMENT OF VERNON BETKEY, CHAIRMAN, 
              GOVERNORS HIGHWAY SAFETY ASSOCIATION

    Mr. Betkey. Thank you, Mr. Chairman and Members of the 
Committee; I appreciate the opportunity to be here today to 
testify. And I'm here today representing Governors Highway 
Safety Association and states who administer the Federal 
Highway Safety Grant programs. And I also serve as the Director 
of the Maryland Highway Safety Office.
    In general, the association is very supportive of the two-
year proposal and has some suggestions that are largely of a 
technical nature.
    Let me just summarize some of the things that we noted and 
support in the bill. Now, we support making the behavioral 
grant programs more performance based, and we have heard 
several comments today about the performance-based system. And 
we've been working with NHTSA for some time now, going back as 
far as 2008, on two sets of performance measures the states are 
currently using or will use in their plans--in their future 
highway safety plans.
    And I want to compliment Mr. Strickland for helping us to 
continue to foster that relationship with NHTSA in making those 
adjustments to the performance plan.
    GHSA supports the proposed changes to the 402 Program 
including the performance-based planning, the earmarks for 
training and research, the two new assurances, one having a 
data-driven program, which personally, I think, is an extremely 
beneficial ingredient to helping us move the numbers. And the 
other being a coordination of the Highway Safety Plan with the 
data collection and information systems in coordination with 
the state's strategic highway safety plans.
    Now, we are supportive of the language that allows states 
to conduct programs in conjunction with neighboring States, and 
we are extremely supportive of the efforts to streamline grant 
applications and deadlines. This will be extremely beneficial 
to the states.
    Now, we do recommend some streamlining the maintenance of 
effort requirements and would welcome a discussion with the 
Committee on that.
    With respect to NHTSA'S Research and Demonstration Program, 
we are supportive of many of the proposed changes. We would 
like to talk a little bit more about the earmark of the 
medically impaired driver data base. GHSA supports the 
consolidation of the three occupant protection programs into a 
single one, but we would urge the Committee to consider that it 
be funded at a proportionately higher level.
    GHSA supports the conversion of the Impaired Driving Grant 
Program into a performance-based formula that will ensure every 
State has resources as needed.
    And we also support the dedicated funding for states for 
the Ignition Interlock Program. We, too, agree that there is 
evidence from New Mexico in their Ignition Interlock Program 
that shows great potential for how this could work on a 
national basis. And we strongly encourage that ignition 
interlocks be used as the technology and funded accordingly.
    But we also support the authorization of funding for 
continued research on advanced impaired driving.
    And we have heard several comments today about impaired 
driving and occupant protection and belt use, and we should 
consider that if we can eliminate drunk driving and we could 
get 100 percent belt use, we could cut the Nation's fatalities 
in half.
    But GHSA supports the Distracted Driving Program, but it 
worries that the requirements of the program may be too 
stringent as written. It's a multi-million dollar program and 
we feel that a few states would qualify on the initial go round 
and we would suggest that the Committee consider looking into 
the number of states that would qualify in the beginning, and 
maybe make some adjustments to those criteria.
    We're somewhat disappointed that the Committee did not make 
the changes to the Section 211, Motorcycle Safety Program. The 
program as it is now is very narrowly focused, and it is 
somewhat frustrating for the States. The funds cannot be used 
for impaired motorcycling, improvements to licensing, programs 
to reduce motorcycle speeding or even support motorcycle safety 
summits or the development of strategic motorcycle safety 
plans. We certainly understand the dynamics of this, and we 
would ask the Committee to consider making it a broader, more 
comprehensive program.
    In closing, just a couple of other items. We definitely 
support the high-visibility enforcement provisions, the Section 
408 Data Improvement Program, and the agency's accountability 
provisions.
    Again, GHSA and NHTSA have worked very closely together in 
a partnership to help in those accountabilities.
    That concludes my testimony, and thank you for the 
opportunity to testify today.
    [The prepared statement of Mr. Betkey follows:]

            Prepared Statement of Vernon Betkey, Chairman, 
                  Governors Highway Safety Association

Introduction
    Good morning. My name is Vernon Betkey, and I am Chairman of the 
Governors Highway Safety Association (GHSA) and the Director of the 
Maryland Highway Safety Office. GHSA is a nonprofit association that 
represents state highway safety agencies. Its State Highway Safety 
Office (SHSO) members administer the Federal behavioral highway safety 
grant programs under Title II of the Safe, Accountable, Flexible, 
Efficient Transportation Equity Act--A Legacy for Users (SAFETEA-LU). 
Areas of focus include: impaired driving; inadequate occupant 
protection; speeding and aggressive driving; distracted driving; 
younger and older drivers; bicycle, motorcycle and pedestrian safety; 
traffic records and highway safety workforce development.

General Comments
    The Governors Highway Safety Association has had the opportunity to 
review the draft two-year reauthorization legislation and is pleased to 
submit comments on Title II of the proposal. In general, the 
Association is supportive of the Senate Commerce Committee's draft. It 
attempts to consolidate some behavioral highway safety grant programs 
and streamline the grant application process. The proposal places a 
high degree of importance on performance and the use of performance 
measures to set targets and measure progress toward those targets. It 
grants states somewhat more flexibility (particularly in the Section 
410 impaired driving program) if they achieve specified levels of 
performance.
    Members of the Committee may know that GHSA has been working 
cooperatively with the National Highway Traffic Safety Administration 
(NHTSA) since 2008 to develop two sets of performance measures. The 
first is a set of 14 outcome and activity measures that states have 
been using in their Highway Safety Plans for FY 2010, 2011 and 2012. A 
fifteenth measure concerning changes in attitude and awareness was 
subsequently added, and states are using this measure with their FY 
2012 plans.
    In addition, GHSA and NHTSA have identified 61 performance measures 
that states can use with their six core state traffic records systems 
(Crash, Injury, Vehicle, Driver, Citation & Adjudication and Roadway). 
The measures address accuracy, timeliness, completeness, uniformity, 
integration and accessibility of the data in each of the six systems. 
The final report on these measures was published earlier this year, and 
states will begin using these measures with their FY 2013 Section 408 
data improvement grant applications and plans.
    GHSA is currently working with NTHSA to improve the collection of 
serious injury data in the short term while the Agency develops and 
implements long-term improvements that require new data bases and data 
linkage. The short term recommendations for improving serious injury 
data will be published as part of the updated Model Minimum Uniform 
Crash Criteria (MMUCC) early next year.
    In effect, and GHSA is proud to say, the emphasis on setting 
performance goals and measuring performance is one that State Highway 
Safety Offices have already vigorously embraced.
Section 402 Highway Safety Program
    As you know, the Section 402 program is the backbone of every 
state's behavioral highway safety program. In our view, the program has 
worked well and needs few changes.
    GHSA supports the requirement that states use specific performance 
measures to report on current safety levels and set targets. As noted 
above, GHSA members are already doing that in their annual Highway 
Safety Plans and Annual Reports.
    In GHSA's reauthorization position statement published in 2009 and 
found on GHSA's website, www.ghsa.org, we recognized the need for 
additional highway safety research and training for Federal, state and 
local safety personnel. The Association is accepting of the 402 
earmarks for those purposes. In addition, we support the two new 
assurances proposed in the legislation. However, the Association 
recommends, that subjective terms such as ``robust'' (as in a robust 
data-driven enforcement program) are not good indicators of what 
performance will be specifically required of states and should be 
eliminated.
    The Association supports the proposed language allowing states to 
use their 402 funds in conjunction with those of neighboring states. 
States can achieve economies of scale by working enforcement, data or 
educational programs on a bilateral or regional basis. GHSA also 
supports the language that would allow NHTSA to promote highway and 
vehicle safety with states legislators. The Association urges the 
Committee to extend the same privileges to the state recipients of 402 
funds. It makes little sense to encourage states to improve their 
performance by enacting certain safety laws (such as primary seat belt 
laws), but then prohibit them from working with their state legislators 
on those laws.
    GHSA also strenuously supports the single grant application and 
deadline requirement. This should help states plan their programs with 
more certainty and smooth out the flow of funds to the states.
    The Association is disappointed that the Committee did not address 
the maintenance of effort (MOE) requirement in the 402 and other grant 
programs. The MOE requires the states to collect information from 
jurisdictions all over the state regardless of whether or not they were 
federally funded. It is a very burdensome, labor intensive requirement 
and an increasingly difficult one for states in these tight economic 
times. We urge the Committee to streamline the requirement and/or 
authorize a waiver process for states that can demonstrate economic 
hardship.
    We are perplexed by the requirement to sanction states for their 
inadequate 402 program and to penalize them for their inadequate 402 
plan. The 402 plan is the same as the state's 402 program. It details 
how the state will spend 402 funds to reach performance goals. That 
begs the question: Under what circumstances would a state ever have an 
inadequate program if it has an acceptable plan? If a state has an 
unacceptable plan, the state has the opportunity to redo its plan. If 
it still has an unacceptable plan and the Secretary, in consultation 
with the state, reprograms 402 funding, then the plan (and hence its 
program) would become acceptable. By keeping both the sanctions and the 
reprogramming penalties, a state is penalized twice for the same thing. 
GHSA urges the Committee to reconsider this issue.

Section 403 Research and Development Program
    In general, GHSA supports the proposed language for NHTSA's 
research and development program. We are especially supportive of the 
language authorizing an international highway safety program. According 
to the World Health Organization, the United States--once a world 
leader in highway safety--has slipped to ninth or tenth in the world. 
Other countries--most notably Great Britain, France, the Netherlands, 
Sweden, Australia and Canada--are leading the way with widespread use 
of automated enforcement and BAC testing, primary belt laws and other 
innovations. There are significant strategies and countermeasures that 
the United States could learn from other countries, and an 
international program would provide NHTSA the opportunity for the 
exchange of information.
    GHSA also strongly supports the legislative language that protects 
from liability personal health information collected by NHTSA for 
research purposes. Without such protection, NHTSA (and the states) 
would have a very difficult time collecting public health data used for 
a number of purposes, including the determination of serious injury, 
BAC testing results, medical fitness to drive, etc.
    GHSA also supports bestowing NHTSA with the authority to set model 
specifications for certain devices (such as ignition interlocks) and to 
establish a Conforming Products List. Currently, NHTSA does this on an 
ad hoc basis. Such an official list would make it easier for states to 
purchase equipment that meets the specifications set by the Agency.
    GHSA questions why $1.28 million is being earmarked to create a 
clearinghouse and technical assistance for medical fitness to drive. Is 
such a clearinghouse necessary? Why should Federal funding be spent for 
this purpose and not for some other research-related purpose? The 
amount of Federal funding that NHTSA receives under the Section 403 
program is very limited. NHTSA should justify that this earmark is the 
highest and best use of its limited research dollars.

Section 405 Combined Occupant Protection Program
    GHSA supports the combination of the Section 405, portions of the 
406 and the 2011 programs into a single occupant protection program. 
The requirements to develop an occupant protection plan, including a 
plan for child passenger safety specialists, will encourage a more 
strategic approach to occupant protection. The Association suggests 
that the list of eligible activities should be broadened to include 
sustained enforcement of adult and child occupant protection laws as 
well as educational programs to encourage the use of seat belts and 
warn adults about the dangers of not using seat belts.
    Under the Administration's proposal, the combined occupant 
protection program was funded at a relatively low level, especially 
compared to other programs. GHSA urges that the Commerce Committee to 
consider making the occupant protection program a higher priority and 
funding it at higher levels. Strategies to encourage seat belt use are 
among the most effective countermeasures that states can employ. Strong 
laws and high visibility enforcement are the cornerstone to higher seat 
belt use. Without substantial funding, states will not have the ability 
to adequately participate in the national high visibility enforcement 
campaigns, encourage sustained enforcement or support child passenger 
safety programs.

Section 408 State Traffic Safety Information System Improvements 
        Program
    GHSA supports the proposed changes in the Section 408 program. As 
noted above, GHSA has worked with NHTSA to identify traffic records 
performance measures that states will use in their FY 2013 plans.
    It is important to note, however, that upgrading traffic records 
information systems will have a huge price tag, and the current 408 
program funding has been woefully insufficient. (Currently, states 
receive allocations of between $300,000 and $500,000 to make system 
improvements that can cost in the millions.) GHSA encourages the 
Committee ensure that funding investments reflect the need when there 
is a longer-term reauthorization in the future.

Section 410 Impaired Driving Countermeasure Program
    GHSA supports the reconfiguration of the Section 410 program. The 
current program is overly complex, too stringent (e.g., the BAC testing 
requirement) and focuses on issues (e.g., the self-sufficiency 
requirement) that are not central to the reduction of impaired driving 
crashes, fatalities and injuries. The proposed program would allocate 
impaired driving funds to every state so that they can continue to make 
impaired driving a central part of their state highway safety effort. 
GHSA also supports the revised program because it would encourage a 
more strategic approach to impaired driving. Further, GHSA supports the 
dedicated funding for ignition interlocks, since widespread deployment 
of interlocks has the potential to dramatically reduce impaired 
driving.
    GHSA recommends that the list of eligible activities should be 
expanded to include sustained enforcement and impaired motorcycling 
programs.
    We also suggest that the Committee reconsider its requirement that 
states must have a full-time impaired driving coordinator. Such a 
requirement is not problematic for large or medium-sized states, but it 
is for small states. In Maine, for example, the highway safety office 
has seven employees including the director, a secretary, a contract Law 
Enforcement Liaison, a grant specialist who handles contracting and 
procurement and three program staff. The three program staff split 
responsibilities and oversee grants for impaired driving, occupant 
protection, law enforcement challenges, speeding, motorcycle safety, 
traffic records and other state safety issues. Requiring a full-time 
(rather than a part-time) coordinator would mean that the remaining two 
program staff would have to cover all other issues and would make it 
even more difficult for the small staff to fulfill all of their 
responsibilities. Maine's experiences are not atypical for small 
states.

Section 411 Distracted Driving Grants
    GHSA supports the proposed distracted driving incentive program 
since this is an emerging issue that appears to be growing 
exponentially. We support the focus on texting and on young drivers 
since that is supported by some current research. We also appreciate 
the fact that eligible states would have some flexibility in the use of 
the incentive funds.
    However, we are puzzled by the language that requires ``increased 
civil and criminal penalties than would otherwise apply'' if the crash 
is caused by a driver texting or novice driver. Is this intended for 
all crash involving distraction even if there is only property damage? 
It would make more sense to require additional penalties only in the 
most severe cases such as those involving a fatality or serious injury.
    Further, GHSA is concerned that the requirements may be too 
stringent and that few, if any, states will qualify. The Association 
recommends that the Committee request NHTSA to analyze state 
distraction laws and determine which states would currently qualify and 
which would not. If our concern is merited, then the Committee may wish 
to consider minor modifications that would ease program eligibility.

Section 2009 High Visibility Enforcement Program
    GHSA supports the requirement that NHTSA conduct three high 
visibility media efforts. This means that states will also be required 
to conduct three high visibility enforcement campaigns, as they 
currently do. Most states would find it extremely difficult to conduct 
additional campaigns. Some states are having difficulty attracting law 
enforcement personnel to the current enforcement efforts. Others have 
reduced state staffs and are having difficulty managing the 
mobilizations in their states. Still others have used up their 
allotment of Section 406 funds and are facing sharp cutbacks in the 
amount of funding available to conduct high visibility enforcement 
mobilizations and other safety activities.
    The only minor change that GHSA recommends is to explicitly allow 
the impaired driving crackdown to address drug as well as alcohol-
impaired driving.

Section 2010 Motorcyclist Safety Program
    GHSA is disappointed that the Committee did not consider major 
changes to the Section 2010 Motorcyclist Safety Program.
    Under the current program, states cannot use Section 2010 funds 
for: impaired motorcycling programs; educational campaigns to alert 
motorcyclists about the dangers of speeding and reckless riding; 
campaigns to encourage greater conspicuity of the motorcycle or ride; 
efforts to reduce the number of improperly licensed riders; analysis of 
state motorcycle data or linkage of such data to other data bases; or 
even support of motorcycle task forces and development of strategic 
motorcycle safety plans. States cannot use the funding to encourage the 
voluntary use of motorcycle helmets even though the use of helmets are 
one of the most effective countermeasures a state can deploy. The 
current program does not encourage a more comprehensive approach to 
motorcycle safety but focuses very narrowly on improvements to 
motorcycle training.
    GHSA urges the Committee to reconsider this program and make it a 
research-based, effective and comprehensive program to address 
motorcyclist safety.

Section 111 Driver Alcohol Detection System for Safety Research
    GHSA wants to lend our strong support for the in-vehicle research 
provisions. They will allow government and the private sector to 
continue the development of non-invasive advanced technology to detect 
alcohol-impaired driving. GHSA believes that such technologies could 
have the potential to significantly reduce the incidences of impaired 
driving and would be well worth the modest investment called for in the 
legislation.

Section 412 Agency Accountability
    GHSA supports the proposed amendments to the Agency Accountability 
provisions.
    This concludes the testimony of the Governors Highway Safety 
Association on the proposed two-year reauthorization provisions for 
Federal behavioral highway safety grant programs. Thank you for the 
opportunity to testify before the Committee on this significant piece 
of highway safety legislation. I would be glad to answer any questions 
and look forward to working with the Committee as the proposal moves 
through the legislative process.

    Senator Pryor. Thank you. I want to thank all of our 
witnesses for testifying today.
    Mr. Strassburger, I'd like to start with you. I must say 
that I've just gone through a process where I bought my soon-
to-be 16-year-old used vehicle, and I was very impressed with 
the options we had. And, you know, we're trying to get 5 star 
safety ratings and looking at all that. We had lots of options 
to choose from, so I think that the fleet that's here--not just 
the U.S. automakers. Certainly, I'm pleased to see them really 
improving in many ways, but also just the other options that 
people have, which is great, and that's a credit to your 
industry. But let me ask--you know, as a lawyer, they always 
say do not ask a question you do not know the answer to, but 
I'm going to ask you a question I don't know the answer to, but 
I would like your thoughts on it, and that is the relationship 
between more rigorous CAFE standards and safety. Is there a 
tradeoff there? Are we seeing any diminishment in safety?
    Mr. Strassburger. Yes, Senator, thank you. There is 
absolutely a relationship between vehicle mass and size and its 
crash performance. And the National Academy of Sciences back in 
2002 quantified that the first round of CAFE rules that were 
adopted in the mid-1970s probably were responsible for 
approximately 2500 additional fatalities as a result of the 
downsizing of the fleet that occurred at that time.
    Since that time, the agency has restructured its CAFE rules 
in an effort to try to mitigate and avoid any adverse 
consequences that might come from increased CAFE requirements. 
And so, as you know, we as an industry support a higher CAFE. 
We have, I think, 160-some odd models that get 30 miles per 
gallon or more--greater, and we're working both with the agency 
and the Administration on future CAFE rules. And our interest 
there is to make sure that we preserve jobs, affordability, but 
also that we also are able to continue to improve motor vehicle 
safety so that we can sustain the downward trend that we heard 
Administrator Strickland testify just a few moments ago. It has 
been ongoing now for 25 years. So, it remains a concern, but we 
are mindful of it.
    Senator Pryor. It seems to me that--I mean, from the 
layman's perspective that you all are really doing a good job 
in engineering, even the lighter vehicles, because if you look 
at the crash worthiness, all the tests, not just the NHTSA 
test, that's one set, but also the insurance industry and 
others do test. And I must say I was impressed even with the, 
you know, vehicles that get 35-40 miles a gallon that are 
smaller vehicles, many of them, at least, seem to do very well 
in the crash tests.
    Mr. Strassburger. Yes. Thank you. It is very rewarding, I 
think, for all the engineers that I represent that actually do 
real engineering work. But new materials, new technologies, et 
cetera, have certainly helped drive the fatality numbers down 
and making cars safer, but one caution is, and that is this, as 
we move forward, sufficient time to make those changes are 
necessary. When we do use new materials, sometimes that means 
new jointing, new welding techniques that change, stamping--new 
stamping, forming plants are needed. New repair techniques are 
need, and so as we move forward, if we have to do something 
overnight, then we have only one option and that is to 
downsize, and that is not good for safety. Given sufficient 
time, sufficient lead time, I think we can do a very good job, 
as you have observed.
    Senator Pryor. Thank you.
    Mr. Betkey, let me ask you from your standpoint, I have a 
question about the graduated drivers licenses.
    Mr. Betkey. Right.
    Senator Pryor. And different states do different things, 
but tell me your position on a national GDL standard, and maybe 
even something like the STANDUP Act that some here have been 
promoting?
    Mr. Betkey. Well, we certainly support increasing the 
conditions for the young drivers. If the STANDUP Act was passed 
today, I think 49 out of the 50 states would not qualify for 
any of the criteria that is in the Act. We definitely 
understand the issues involving the young drivers, and we're 
very supportive of trying to reduce those incidents, the 
crashes that are incurred, and the better education and better 
driving ability of our youngsters. I feel for you with your 16-
year-old.
    [Laughter.]
    Senator Pryor. Thank you. Senator Toomey?
    Senator Toomey. Thanks very much. I just have to mention 
that Mr. Strassburger's observation that the number of 
additional fatalities as a result of the previously established 
CAFE standards could be 2,500. It is apparently a very damning 
statistic, and a very disturbing one, it seems to me. That's a 
big number. And it is my understanding that there is some 
discussion of moving current CAFE standards to a benchmark as 
high as 56 miles per gallon, now, not in the immediate future, 
but in the reasonably near future. Are you concerned that this 
will inevitably put pressure on manufacturers to lighten the 
vehicle and diminish safety?
    Mr. Strassburger. Senator, just one point of clarification. 
The 2,500 figure that I mentioned was associated with the CAFE 
rules that were first enacted in 1975. So, since that time and 
it's more recently, I would say--I do not remember exactly 
when, but 2005-2006, the agency restructured its CAFE rules to 
remove the incentive for downsizing. And so it is hoped, and 
we're just in the process of implementing that now, that those 
rules would hold safety harmless.
    Now, with respect to the rules that are coming up, I think 
it is the 2012 through 2016, and then the rules that--we 
anticipate the agency will propose this coming September, one 
of our focuses will be with that rulemaking, will we be able to 
continue to hold safety harmless, so to speak? Will we be able 
to continue to make improvements that drive the numbers down or 
is the structure of the program or the performance requirements 
such that they would drive changes too fast and force us to 
downsize. And so it is something that we're watching. I can't 
say at the moment without the details that I would be 
concerned, but it is one that we're watching quite carefully.
    Senator Toomey. I do have one other question, but, Ms. 
Nason, did you have anything you wanted to add to this 
question?
    Ms. Nason. Well--thank you, Senator Toomey. I just--we very 
carefully tried to follow the National Academy of Sciences 
recommendation in 2005 when we were developing the new CAFE 
standards, and I agree with Mr. Strassburger, it can be done. 
You can increase CAFE without having a decrease on safety. It 
needs to be done reasonably though, so I think that the time-
frame issue is probably one of the most critical.
    Senator Pryor. Thank you. And back to Mr. Strassburger for 
a minute there. In your testimony, you indicated a concern 
about the change in--that this draft legislation proposes 
regarding the disclosure of early warning reporting, but you 
didn't really elaborate on why you are concerned about that. 
So, could you share with us the nature of your concern about 
that?
    Mr. Strassburger. Yes. The concern really comes--it is 
probably a twofold concern. There is a concern that with the 
release of the data--well, let me back up and say, the 
information that is collected by the agency is raw, unverified 
consumer complaints, et cetera. It does not indicate the 
existence of a defect or a defect trend. Rather, it is data 
that requires additional analysis and, hopefully, provides 
higher-quality leads to true problems in the field so that the 
agency is devoting its limited resources to those 
investigations that are likely to be--lead to real problems and 
recalls.
    The concern is this, beyond the concern that we have about 
releasing proprietary information that could be used by our 
competitors, is that it would hamper or drive the agency--the 
agency's defect investigation agenda would be driven from the 
outside by those who want a particular investigation to be 
conducted.
    As we saw last year, as the agency indicated in its most 
recent report, I think, or the NASA report, that publicity 
drives more and more complaints and that could lead to, I 
think, an unstable situation where if the agency's agenda is 
driven from outside the organization.
    Senator Toomey. Ms. Nason, you know, one of the things that 
occurs to me as a layman, who has no expertise on this 
whatsoever, but if you add this provision, it seems to me that 
there is at least a danger that there would be somehow a 
reduction in disclosure and reporting or somehow it could 
become problematic because of all kinds of associated dangers 
and, perhaps, liabilities on the part of manufacturers. As a 
former administrator, do you have any concern about this 
provision?
    Ms. Nason. I do, Senator. I was not the administrator who 
signed the rulemakings. I was the administrator during the 
lawsuits, so I can tell you personally that there was a great 
deal of thought that went into a balancing between what 
information should be released and what information should be 
protected and why. Really, the agency very carefully tried to 
think through protecting personal privacy rights. Citizen A 
sends a letter to company B. They should have some expectation 
of privacy that it is not going to end up in the Government's 
hands. The Government is going to give it out to other people, 
and we really thought through those issues. And we thought 
through the concern about a chilling effect on people who might 
report.
    And I think having seen this issue litigated and then 
upheld by the Court of Appeals, I would urge the Committee to 
think very carefully before treading in this area because it's 
really been litigated and debated at length.
    Senator Toomey. Thank you very much.
    Senator Pryor. Thank you. Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman, and 
thank you for your work on this bill. Like the Chairman, I have 
a daughter who just turned 16, but because of the Minnesota 
Government shutdown, she was unable to take her driver's test. 
So there's been a big backlog in those tests. It may last all 
summer from what I've heard or that's what I'm telling her.
    [Laughter.]
    Senator Klobuchar. So, anyway--so I care a lot, as you all 
know, about the issues of the teen driving, texting. But I 
first want to start, Mr. Strassburger, with this topic of the 
interlock devices. I know you endorse the idea of a grant 
program for states that adopt ignition interlock devices to 
discourage drunk driving. I believe this technology can be an 
incredibly effective way to keep drunk drivers off the road. To 
give you an example, Minnesota has this program, supported by 
Governor Pawlenty, bipartisan support of our legislature. And 
so these ignition interlocks have been available in Minnesota 
since the start of the pilot program in 2009.
    Of the 1,900 people that have one, only 4 people 
reoffended. That's a recidivism rate of 2 percent. And so we 
now have a full statewide program. And I know that there is 
costs associated with maintaining these devices, and I just 
wondered if there are any ideas for how to bring down the cost 
and how this could work, Mr. Strassburger?
    Mr. Strassburger. Yes. Thank you, Senator Klobuchar. I 
actually don't represent the ignition interlock device 
manufacturers, so I don't--I'm not fully conversant in the 
cost, but what I will say is this: Is that typically those 
costs are borne by the offender and not----
    Senator Klobuchar. Correct.
    Mr. Strassburger.--paid by the State. And in those 
instances where the offender is unable to pay, it's often the 
case where indigent funds are set up where those that qualify 
would be able to draw some funds. And those indigent funds 
are--obtain their funding from the ignition interlock device 
manufacturers.
    Senator Klobuchar. Uh-huh. And are you aware of how these 
programs have been working across the country?
    Mr. Strassburger. I'm not. I believe they are working, but 
I can follow up for you with information for the record.
    [The information referred to follows:]

    All fifty states have some sort of ignition interlock law. Research 
shows alcohol ignition interlocks to be effective in reducing 
recidivism among persons convicted of alcohol-impaired driving, ranging 
from 50 percent to 90 percent while the interlock is installed on the 
vehicle.
    Thirty nine states mandate the use of an ignition interlock by a 
convicted offender. Fifteen states--Alaska, Arizona, Arkansas, 
Colorado, Connecticut, Hawaii, Illinois, Kansas, Louisiana, Nebraska, 
New Mexico, New York, Oregon, Utah, and Washington--have mandatory 
ignition interlock provisions for all DUI convictions. Colorado's and 
Illinois' laws are not mandatory for a first conviction, but there is a 
strong incentive to install an interlock device on the first 
conviction. In July 2010, California enacted legislation requiring a 
five-year pilot program in the counties of Los Angeles, Alameda, 
Sacramento, and Tulare.
    An additional sixteen states--Alabama, Delaware, Florida, Maryland, 
Michigan, Minnesota, New Hampshire, New Jersey, North Carolina, 
Oklahoma, Tennessee, Texas, Virginia, West Virginia, Wisconsin, and 
Wyoming--mandate the use of an ignition interlock by anyone convicted 
of having a blood alcohol concentration (BAC) of between 0.15 and 0.17 
percent (nominally two times the legal limit of 0.08 percent enacted in 
all 50 states). Alternatively, seven states--Georgia, Massachusetts, 
Missouri, Montana, Ohio, Pennsylvania, and South Carolina--mandate the 
use of an ignition interlock for a second conviction.
    In total, twenty states have devised ways to offset costs for 
indigent offenders. Ten of the sixteen states that mandate the use of 
an ignition interlock for all DUI convictions (including the California 
Pilot Program) have established an indigent fund. An additional ten 
states that mandate the use of an ignition interlock by anyone 
convicted with a BAC of 0.15 percent or greater have also established 
an Indigent fund. The eligibility requirements and funding mechanisms 
for these funds vary by state. The attachment to this response provides 
a state-by-state summary of existing ignition interlock laws for all 
DUI convictions and for those convicted with BACs of 0.15 percent or 
greater. In general, indigent funds are funded by fees paid by non-
indigent offenders or the ignition interlock service provider.
    The state of New Mexico appears to be one of the first to have 
established a fund for indigent offenders. That fund is funded from 
fees imposed on the ignition interlock provider. Initially, the state 
did not establish eligibility criteria for offenders to qualify to use 
the fund and judges were certifying over one-third of offenders as 
being indigent. The state has since adopted objective criteria for 
eligibility. Thus, if states choose to make funds available to 
indigents, it is recommended that objective criteria for eligibility be 
developed to ensure fair access to those resources.

    Senator Klobuchar. OK, very good. Thank you.
    And I assume you are supportive of those efforts, Ms. 
Nason?
    Ms. Nason. Yes. As a MADD board member, we are very 
enthusiastic to see that provision in the bill. And I can tell 
you, since I have the numbers in front of me that the number of 
ignition interlocks has more than doubled from 100,000 to 
200,000 in use today. And New Mexico and Arizona have reduced 
DUI fatalities by 36 and 46 percent, respectively, due in large 
part to interlocks for all offenders. So, we're very pleased. 
MADD was very pleased to see that.
    Senator Klobuchar. Very good. Thank you.
    Ms. Gillan, on the same day that J.C. Good graduated from 
college in 2008, her car was struck by a tractor trailer that 
had swerved to miss a teen driver running a red light because 
he was distracted by his cell phone. J.C. survived, but her 
parents died that night. And tragic stories like this one is 
why it is so important, I believe, to aggressively combat 
distracted driving.
    So I am pleased, Mr. Chairman, that the draft of the Motor 
Vehicle and Highway Safety Improvement Act includes a grant 
program that states that ban texting by all drivers and the use 
of cell phones by novice drivers, provisions that I strongly 
support. Do you think that this grant program could help spur 
the adoption of State bans on texting while driving? And also, 
second, when Congress passed legislation giving grants to 
states that enforced seat belt laws, how quickly did states 
respond and adopt, Click it or Ticket law? So I think it is an 
example we can look at.
    Ms. Gillan. Thank you, Senator, for that question. 
Advocates supports incentive grant programs, but clearly the 
optimal combination is incentive grants with sanctions. Every 
time Congress has adopted a sanction such as the 21 drinking 
age, on 0.08 BAC, and a zero tolerance law, the states within 3 
or 4 years have all passed those laws. I mean, there is 
absolutely no question about it that sanctions work. And every 
time Congress has used a sanction, not a single State has lost 
a single dollar of highway construction money. There isn't a 
faster way to get the states to act in deference to others from 
the states who don't want that approach.
    I do think for texting bans as well as the ignition 
interlock, as well as the STANDUP Act, which, thank you very 
much for being a co-sponsor, that if we really want to 
accelerate uniformity and get the states to do this, that we 
need the incentive grants to encourage them, but I think at 
some point we need the sanction in order to show that we're 
really serious about it. And, as I said, I am quite confident 
that with the sanction, the states will act.
    As many of you in this room know, I have a sister who is a 
State Senator in Montana. She has been a sponsor of the 
graduated drivers licensing law, but has not been able to get a 
strong one through. And she says to me all the time, ``Show me 
a sanction; I'll show you a law.''
    Because this Committee has jurisdiction over incentive 
grants, we would really like to see that put in the bill and 
work with the Environment and Public Works Committee to get the 
sanctions.
    Senator Klobuchar. Well, thank you, and I'm out of time, 
but I'll put some questions in writing about the graduated 
license standards, as well, which I think would be helpful. So, 
thank you.
    Ms. Gillan. Thank you.
    Senator Pryor. Thank you. Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, for holding this 
important hearing and taking a look at these important issues 
of highway and vehicle safety. And I want to thank our 
witnesses for their testimony today as well.
    Ms. Fleming, in your testimony, you explained how some 
State officials that you interviewed would prefer more 
flexibility in using safety incentive grant funds. That's a 
view that I share. I also believe that flexibility is what 
states want.
    And so I would like to ask Mr. Betkey and Ms. Nason, do you 
think the states would be supportive of a proposal to allow 
medium and high-range states in the Impaired Driving program to 
use their 410 funds, perhaps with the approval of the 
administrator, on activities that are not specifically listed 
in the draft bill like the low-range states are allowed to do?
    Mr. Betkey. Yes, I think so, Senator. And I believe that 
the states would welcome the opportunity to use those in a more 
flexible manner. And I think that would only add to the 
reduction in the alcohol-involved crashes. It gives the states 
an opportunity to look at a wider berth of issues and narrow 
their countermeasures a little bit or expand those 
countermeasures a little bit. The states always welcome the 
flexibility to do that.
    Senator Pryor. Thank you.
    Ms. Nason. I think there is no question, Senator, that the 
states always appreciate the opportunity for additional 
flexibility. As a former administrator, I have to latch on to 
your suggestion that the administrator be involved in approving 
that funding. Unfortunately, in the past on occasion, money was 
used, not in 410, but in other grants for less than valuable 
data-driven solutions. The one example that is always floating 
around NHTSA is the group that used money for bobble head 
dolls. So, you want to make sure that it is being used for a 
valuable purpose, and I think if the state has a legitimate 
claim and use for the money, then, absolutely, that should be 
an option.
    Senator Thune. OK. Ms. Fleming, any comment on that--I 
referenced your testimony?
    Ms. Fleming. Yes, thank you. In our work, we obviously 
heard from states that they appreciate flexibility. We support 
that. We've had examples from states where they actually 
received more money than they felt they needed for a particular 
grant, and they would have preferred to use some of that money 
for other activities that they felt would further their safety 
goals.
    I think the only caution I would have is that since NHTSA 
is moving toward a performance-based system, that it is going 
to be important for them to still make sure that the 
overarching safety goals and the State goals are being adhered 
to and that once those minimum thresholds are met, excess funds 
could be used for other activities within the states' plans.
    Senator Thune. Did any of you think that there were other 
programs in the draft bill that could benefit from increased 
flexibility?
    Mr. Betkey. Well, we are always looking for flexibility.
    [Laughter.]
    Senator Thune. Good. Good answer, by the way. What do you 
think some of the benefits of allowing that to occur would be, 
Mr. Betkey? I mean, just in terms of providing that local 
flexibility?
    Mr. Betkey. Well, it gives us an ability to expand the 
countermeasures that we implement for a particular program. 
When it is narrowly focused, we're limited. A good example 
would be in the Motorcycle Safety Program. If we were given 
some flexibility there to move some funds, I think we could 
attack some of the larger problem areas that involve motorcycle 
safety.
    Senator Thune. OK. And I would say--I will direct this to 
Ms. Fleming again. And Mr. Betkey mentioned in his testimony 
that GHSA has concerns about the new 410 requirement that 
states have to have a full-time impaired driving coordinator 
because of the impact that it would have on smaller states, 
much like my own, who have limited staff and resources. My 
understanding is that the staffing requirements are being 
considered in other programs--and it's been a hardship in the 
past for South Dakota with the Safe Routes to School Program--
and I'm interested in knowing during your interviews did you 
hear of other states that had the same concern?
    Ms. Fleming. We have, but at the same time we also have 
heard that having a champion in the state could really make a 
difference in putting forth a program and addressing some of 
the issues such as--with teen driving and distracted driving. 
So, I think it is a balancing act.
    Senator Pryor. Go ahead?
    Senator Thune. Mr. Chairman, I have a question I'd like to 
submit for the record for the first panel if that's OK. I see 
my time has expired. So, thank you all very much.
    Senator Pryor. Thank you, Senator Thune.
    I have just a couple of follow-ups from earlier, but I want 
to thank Senator Thune for being here and all of my colleagues 
who are kind of, I guess, headed to the floor. I think we're 
about to have a vote on the floor just any minute. So, let me 
run through a few of these very quickly.
    First, Ms. Fleming, are you in a position to look at 
NHTSA's highway safety grants and evaluate which ones are the 
most effective and which ones are not very effective?
    Ms. Fleming. I think that NHTSA is in a position to do 
that, quite frankly. I think that we are really pleased that 
NHTSA, working with GHSA, has developed the core 14 performance 
measures and the additional measures, and it is now going to 
allow them to get a sense as to how things are working at the 
State level and which areas they need to address. So, I think 
we're very pleased to see that this approach is going to allow 
them to have a more performance-based data-driven approach. The 
data is currently available for the core 14 measures, so we're 
not concerned about that. I think when you get into some of the 
optional measures our work has found that the quality of data 
really varies tremendously across the States, so that could 
hinder the ability to really fully implement a performance-
based approach. But, absolutely, I think NHTSA and the states 
are now in a better position to have a sense as to what's 
working and how to prioritize using the data through efforts.
    Senator Pryor. Well, that's great because we're going to 
need that type of evaluation as we go through our continuing 
tough budget years to come. So, thank you for your insights 
there.
    Ms. Nason, let me ask you, you became passionate in your 
opening statement about the DADSS Act?
    Ms. Nason. Yes.
    Senator Pryor. And just for the Subcommittee's benefit, 
could you tell us briefly how you envision that--I know the 
technology may not be completely there, but it sounds like 
we're close, but could you indicate for the Subcommittee how 
you would envision that actually working and how that might be 
deployed around the country?
    Ms. Nason. Yes. Thank you, Mr. Chairman. I think most 
importantly, the idea is to make a passive technology that 
doesn't in any way hassle the sober driver. So, it needs to be 
better than 6 Sigma reliable. It needs to be set at 0.08 and 
then effectively, you could eliminate drunk driving by stopping 
the drunk driver from having the vehicle start.
    However, if I am home with my three children and everyone's 
finally in the car and they have all of their equipment and all 
of their backpacks and everyone has shoes on, and I go to start 
the car and it says, oh, have you been drinking again?
    [Laughter.]
    Ms. Nason. I am going to bring that car right back to the 
dealer and say, get this junky technology out of my car. So it 
needs to be really better than 6 Sigma which is why it needs 
more time. If--the technology in a very bulky comprehensive 
form really exists right now, this is not being invented out of 
whole cloth. You can test with a finger. You can test with 
breath, but it needs to be flawless for the driver, otherwise, 
the target demographic, a 41-year-old mother of 3 is not going 
to want to purchase the technology if every few days the car 
tells me I'm drunk and it won't let me get where I need to go. 
So, that's why having a funding stream over the next 5 years is 
so critical to this technology, but I would just remind the 
Committee that it is still a third of all fatalities. Alcohol-
related deaths are still a third of all fatalities. And it was 
39-40 percent when I was NHTSA administrator compared to, say, 
seat belt use, which has gone from nothing to 85 percent. So 
this has really been an incredible challenge for NHTSA and the 
Department of Transportation and MADD, and we think that the 
DADSS technology holds enormous promise.
    Senator Pryor. Good.
    Mr. Betkey, let me ask you from a State perspective about 
safety grants programs that you all administer around the 
country. Do you have a way to measure how effective they are 
and what's working out there and what's not?
    Mr. Betkey. Well, we developed the performance standards 
that we talked about earlier with NHTSA, and they have been in 
for the last couple of years now. They are uniform. To narrow 
it down to the individual grant programs, I don't think we 
have--we have that process in place, but from a more global 
perspective, we have the base performance measures that we can 
certainly share.
    Senator Pryor. Well, listen, I will have some more 
questions for the record, and I know that other Committee 
Members will as well. In fact, I think Senator Thune has one 
right now.
    Senator Thune. Mr. Chairman, just a quick follow-up in 
responding to something that Ms. Nason said, and that is if we 
need more time, then why are we doing an interlock grant 
specific now? I mean----
    Ms. Nason. As part of the campaign to eliminate drunk 
driving, we had several pieces, media outreach, ignition 
interlocks for all offenders, which is a technology that is 
available right now.
    And then the long-term technology would be equipment built 
into your car as opposed to an interlock that can be attached 
and detached for a drunk-driving offender that would be 
available in a seamless invisible form. That is a technology 
that is not ready for prime time right now. And when I say we 
need a long-term funding stream, I mean for the advanced 
technology, the advanced alcohol-detection systems, not for the 
ignition interlocks.
    Senator Thune. And, again, this comes back to the issue 
that I mentioned earlier, Mr. Chairman, the flexibility. But 
interlocks are effective, but in my home, State of South 
Dakota, our response to impaired driving has been a 24/7 
monitoring program for the offender which ensures that alcohol 
and drugs are not used. And it just strikes me that, you know, 
Congress maybe should not be in the business of mandating a 
one-size-fits-all solution. There is some of these programs 
that have been designed by states that I think work very well--
it certainly does in our case--and having a sort of a niche 
program that, you know, where you've got grant money available 
specifically for that particular purpose might preclude funding 
for some of these other things that are working with a high 
level of effectiveness?
    Ms. Nason. Yes, I agree, Senator Thune, that in some states 
they have worked to reduce drunk-driving fatalities in other 
ways that are extremely effective. NHTSA does the same thing 
with seat belt grants. Some states have passed a primary belt 
law; some states have exceptionally high belt use through 
messaging and other means to encourage the use. And I think you 
could see that same flexibility with 410, with alcohol links as 
well.
    Senator Thune. Thanks, Mr. Chairman.
    Senator Pryor. Good. Thank you.
    Well, listen--did you have something, Ms. Gillan?
    Ms. Gillan. Mr. Chairman, I just wanted to add one thing 
before the hearing closed. And there has been a lot of 
discussion about early warning data and making it available. 
And I just wanted to say on behalf of Advocates and other 
consumer groups that I think one of the lessons of the Toyota 
sudden acceleration--and this Committee held hours and hours of 
oversight hearings in exploring that--is the fact that there 
needs to be greater transparency and making that early warning 
data available to the public. So, I just wanted to add that 
we're very pleased that Administrator Strickland supports that. 
We strongly endorse that provision, as well as increasing the 
penalties. Without criminal penalties, we need to have civil 
penalties that are set high enough that it will be a deterrent 
to corporations to misbehave and mislead the agency on these 
defects investigations.
    Thank you.
    Senator Pryor. Thank you. Listen, I want to thank all of 
you all for testifying today. I want to thank all my colleagues 
for being here. We are going to leave the record open for 7 
days. And the staff here will work with you all to get those 
answers to you and back from you as quickly as possible.
    Thank you for being here. And there is no other business 
before the Subcommittee, we're adjourned.
    [Whereupon, at 4:02 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota

    Thank you, Chairman Pryor and Ranking Member Toomey, for holding 
this important hearing today on highway and vehicle safety. I would 
like to also thank the witnesses for their testimony. Our nation's 
highway system plays a critical role in the U.S. economy and ensuring 
that they are a safe place to not only do business, but also for our 
families is important.
    Thankfully, the work of Congress, the National Highway 
Transportation Safety Administration (NHTSA), the states, and other 
stakeholders has led to a remarkable decline in traffic fatalities. In 
fact, fatality rates have dropped to their lowest rate since 1949. Even 
with these improvements there is always more work that can be done and 
I appreciate the efforts of Senator Pryor and others in writing a draft 
NHTSA Reauthorization.
    There are many provisions in the bill that I think will improve 
traffic and vehicle safety. Specifically, I believe in the 
consolidation of the grant process to one application with one deadline 
will be incredibly beneficial to states. For smaller states like my own 
with limited staff and resources this change will ensure that they are 
able to apply for many ofNHTSA's grants at once.
    I do have some concerns with the bill particularly when it comes to 
oversight and flexibility. While oversight and regulations are needed 
for all Federal grant programs we must ensure that we are not placing 
so many demands on the grant recipients that they cannot spend their 
time focusing on what is most critically important: traffic and vehicle 
safety. Additionally, we have to ensure that these grant programs are 
not so limited that they inhibit innovation at the state level. I think 
it is clear that all good ideas do not come from inside the beltway and 
this reauthorization bill must also allow for new traffic and vehicle 
safety ideas to come from those dealing with these issues daily.
    I look forward to discussing these issues with the Administrator, 
the rest of the witnesses, and this Committee as we work to reauthorize 
NHTSA. However, while this reauthorization is needed I would urge the 
Committee to resist the temptation to rush into a mark-up before the 
bill can be fully vetted and concerns addressed even if other 
Committees decide to mark-up other titles of the highway bill before 
recess. None of these provisions will be able to move to the Senate 
floor until the Finance Committee, of which I am a member, is able to 
find the estimated $12 billion necessary to pay for a highway bill over 
the next 2 years and those discussions will not occur until solutions 
to the debt crises are addressed.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                        Hon. David L. Strickland

    Question 1. The Click It Or Ticket and You Drink, You Drive, You 
Lose campaigns, NHTSA's primary high-visibility enforcement efforts, 
have proven successful at reducing unrestrained and impaired driving 
fatalities. What challenges does NHTSA face to maximizing the 
effectiveness of high-visibility enforcement efforts?
    Answer. High visibility law enforcement programs continue to be 
among the most effective strategies for changing dangerous motorist 
behaviors, including drunk driving, unrestrained occupants and 
distracted driving. The high visibility enforcement strategy utilizes a 
combination of paid advertisements, news coverage and observable law 
enforcement activity. In combination, these elements notify the 
community that strict law enforcement is planned, display the 
commitment of community leaders, and provide observable confirmation 
that enforcement is actually taking place.
    One key challenge to implementing high visibility enforcement 
programs is maintaining Federal leadership and providing adequate 
resources to support state and community implementation. Federal 
leadership is needed to keep states and communities focused on high 
visibility enforcement as an effective cornerstone of their drunk 
driving, seat belt and distracted driving programs. Highlighting high 
visibility law enforcement in eligibility and reporting requirements in 
grant programs and coordinating national implementation periods would 
help meet this challenge.
    Another key challenge is maintaining and expanding where possible 
state and local involvement in high visibility enforcement in the face 
of tight budgets and increasing alternative demands on law enforcement 
resources. The need for state and community resources can be addressed 
by including high visibility enforcement programs as a central eligible 
expenditure for funds administered under sections 402, 405, 410 and 
411. Together these programs would provide more than $400 million per 
year for use by states and communities for the support of high 
visibility law enforcement programs and other safety countermeasures.

    Question 2. With the budget concerns we have been facing, which 
highway grant programs are considered most critical for NHTSA's safety 
mission?
    Answer. With leadership from the Senate Commerce Committee, NHTSA's 
highway safety grant programs have evolved over time from the original 
Section 402 State and Community Highway Safety Grant Program, which 
provides highway safety funding to the States through a formula, to a 
series of discretionary grants that address the critical issues 
affecting safety on the Nation's roadways.
    The Department recommended consolidating the eight SAFETEA-LU 
discretionary grant programs to six to ease administration of the 
program for States as well as the Department. These include the 
following grant programs:

  <bullet> Section 402--State and Community Highway Safety Grant 
        Program

  <bullet> Section 405--Consolidated Occupant Protection Grants (seat 
        belt use and child passenger protection)

  <bullet> Section 408--State Traffic Safety Information System Grants 
        (State data collection and analysis)

  <bullet> Section 410--Impaired Driving Countermeasures (32 percent of 
        all highway fatalities per year)

  <bullet> Section 2011--Motorcyclist Safety Grants (nearly 4,500 
        fatalities per year)

  <bullet> Distracted Driving Grants (over 5,400 fatalities per year)

    In total, these grants would provide a comprehensive highway safety 
system designed to provide data and analysis for identifying safety 
problems in the States. In addition, these grants would provide 
targeted grant funding to address these problems and implement 
countermeasures with the greatest potential for improving safety.
    Because of the integrated, mutually supportive nature of these 
grants in providing a comprehensive approach to addressing the most 
pressing State highway safety problems, it is difficult to select those 
that are most critical. We look forward to working with the Committee 
to establish safety and funding priorities as part of the 
reauthorization process.

    Question 3. In NHTSA's vehicle safety mission, what specific areas 
or departments are the most critical and need the most funding in order 
to maintain a strong safety standard for automobiles?
    Answer. The President's budget request for Fiscal Year (FY) 2012 
sets forth the Administration's views on the vehicle safety program's 
most critical funding needs. All components of the vehicle safety 
program--crash data, research, rulemaking, and enforcement--are 
critical to the program's success. We need to ensure that funding 
continues for our important baseline work, such as defects 
investigations and compliance testing, collection and dissemination of 
crash data, development and promulgation of new and revised safety 
standards, and research to support our standards. Modernization of our 
data systems is a key underpinning for these activities. In addition, 
we need to stay ahead of the rapid movement toward safety-critical 
electronic controls, alternative fuels/batteries, and crash avoidance 
technologies. This requires additional money for research, training, 
development of new data collection techniques, development of 
appropriate standards, and focused enforcement efforts. As our FY 2012 
budget makes clear, meeting these challenges will require not just 
additional money for contract support but additional funding for 
employees as well.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Claire McCaskill to 
                        Hon. David L. Strickland

    Question. I know that NHTSA has done at least one study on the 
safety standards of seatback performance and has stated that the weight 
of the passenger when added to the weight of the seatback itself can 
exceed the safety standard. But has NHTSA fully examined this issue to 
learn more about the ramifications of relying on a standard that is 
over 40 years old? Is the auto industry responding to concerns that 
have been raised about seatback standards? Does Congress need to step 
in to address the problem?
    Answer. There has been significant debate and a lack of consensus 
in the past about whether the rearward strength of seats should be 
strengthened. The agency studied the strength of seats in the late 
1990s in response to several rulemaking petitions. We determined that 
the strength of seats is far greater than is required by the seat 
standard (FMVSS No. 207). In 2004, NHTSA terminated the rulemaking 
petitions related to upgrading FMVSS No. 207 because we concluded that 
further study was needed to determine the relative merits of different 
potential rulemaking approaches. The agency's resources and priorities 
have not allowed additional study to take place.
    Because rear impacts are a relatively small percentage of crashes 
that are severe enough to cause moderate-to-severe injuries, there is 
limited data available to assess the potential benefits of upgrading 
the standard. Although there is anecdotal evidence that injuries to 
children and others seated in the rear row of seats can be contributed 
to collapsing front seats, our field data bases are not able to show 
strong evidence of this.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                        Hon. David L. Strickland

    Question 1. Given the high priority that mass reduction is 
receiving in the 2017-2025 CAFE standards, which NHTSA indicates may 
require a 15-30 percent mass reduction, can you provide me with an 
update on NHTSA's plans to continue implementation of the 2007 NHTSA 
Safety Roadmap for Plastic and Composite Intensive Vehicles?
    Answer. NHTSA continues to follow up on the 2007 report, ``A Safety 
Roadmap for Future Plastics and Composites Intensive Vehicles'' (PCIV). 
NHTSA has an ongoing research project to investigate lightweighting 
opportunities using advanced plastics and composite materials. NHTSA 
has funded George Washington University (GW) to develop and document 
component material test procedures and predictive engineering tools to 
demonstrate the use of structural composites in a finite element model 
for a full size pickup truck. GW has been working with several plastics 
and composites suppliers to implement structural and non-structural 
plastics components in the vehicle model. This research is ongoing, and 
we expect to complete the research by the end of 2011.
    In support of ongoing CAFE rulemaking, NHTSA is developing a fleet 
simulation model to evaluate safety considerations and countermeasures 
for future lightweight vehicles. We intend to incorporate the results 
from the PCIV research program into the fleet simulation studies to 
evaluate the PCIV safety performance against other lightweight vehicle 
designs.

    Question 2. Since implementation of the 2007 Roadmap would directly 
support vehicle safety, as well as promote increased fuel economy, what 
is the timeline and what are the key milestones for execution of the 
NHTSA Safety Roadmap for Plastic and Composite Intensive Vehicles?
    Answer. In August 2008, NHTSA conducted an experts workshop to 
refine near-term safety research and development priorities in the 2007 
Roadmap. This workshop defined the need to develop relevant testing 
standards and refine predictive tools for materials and structural 
characterization, multi-scale damage characterization, failure 
predictions, and crash energy absorption of component and vehicle 
structures.
    Also in 2008, NHTSA sponsored a study by the University of Utah 
entitled ``Crash Safety Assurance Strategies for Future Plastic and 
Composite Intensive Vehicles (PCIV's).'' This report was published by 
the Volpe Center in 2010. It identified outstanding safety issues and 
research needs for future PCIVs in order to facilitate the deployment 
of safe PCIV vehicles by 2020.
    In 2009, NHTSA initiated research with the George Washington 
University and the University of Dayton Research Institute for 
fabricating, testing, and simulating crash performance of composite 
materials for automotive safety applications. This research is ongoing, 
and we expect to complete the research by the end of 2011.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                        Hon. David L. Strickland

    Question 1. The impaired driving program section of the draft bill 
allows low-range states to have some flexibility in the use of their 
410 funds and they would not be limited to activities listed in the 
bill. I think it is good to allow the states a chance to innovate. I 
would like to see that flexibility also provided to medium and high-
range states, perhaps with the approval of the Secretary. If someone 
outside the Beltway has a good idea let's not shut the door in their 
face. Would you support such a change?
    Answer. The draft Section 410 is designed to use flexibility in the 
use of grant funds as an incentive and reward for State impaired 
driving program performance. This approach ensures that States with the 
most severe problems will use grant funds to focus on countermeasures 
with the greatest proven safety potential. States with less severe 
problems are allowed to select from a broader range of countermeasures, 
and those with the lowest alcohol-impaired driving rates are permitted 
to use grant funds for new and innovative programs that address 
identified State problems. We believe that this approach balances the 
need for innovation with the need to ensure progress among the States 
with the most severe impaired driving problems.

    Question 2. Another 410 draft provision I have concerns with is the 
creation of a separate grant to states that have ignition interlock 
laws. I wonder whether we should have such small niche programs with no 
flexibility. While interlocks are effective, in my home state of South 
Dakota our response to impaired driving has been a 24/7 monitoring 
program of the offender which ensures that alcohol or drugs are not 
used. It seems to me that Congress should not be in the business of 
mandating one size fits all solutions. Do you see a requirement for 
this niche program? If so, do you think expanding it to include other 
successful programs, like 24/7, would actually allow for the overall 
goal, a reduction in impaired drivers, to be achieved more easily in 
other states?
    Answer. The draft Section 410 includes a provision under which the 
Secretary would make grants to States with mandatory ignition interlock 
laws covering all impaired driving offenders. The amount of grant funds 
allocated under this provision is not to exceed 15 percent of the total 
Section 410 grant program. We believe that this incentive provision is 
appropriate since the effectiveness of ignition interlock devices has 
been well-established and about 35 States lack interlock laws that 
apply to all impaired driving offenders.
    NHTSA is also very interested in the 24/7 program and is impressed 
by the reports of success from South Dakota. The 24/7 program shows 
promise in addressing high-risk offenders although it has not yet been 
demonstrated in a broad range of environments and applications. Because 
the 24/7 program addresses a different impaired driving offender 
population than an all-offender ignition interlock law, we believe that 
interested States could pursue both programs. Funding to support all-
offender interlock laws would be available under Section 410 and 
funding for 24/7 programs could be available through either Section 410 
(eligible under the Low Range State provision) or through Section 402.

    Question 3. I have concerns with very detailed requirements being 
imposed as a condition of receiving grant funds. Given how specific 
some of the requirements can be, and with there being some discretion 
at NHTSA in interpreting and applying the conditions, I wonder whether 
we should continue to operate on an ``all or nothing basis'' in terms 
of states qualifying for program grants. Would you support a provision 
that allowed you the ability to award partial grants to a state for 
compliance that was ``substantial'' but not ``complete'' enough for 
full compliance? Would such an approach help states that would not 
qualify otherwise receive some of the much needed safety funds, or 
would it result in NHTSA treating a close case as ``substantial'' but 
not ``complete?''
    Answer. Qualifying for a ``partial grant'' by ``substantial 
compliance'' with grant eligibility requirements may lead to two 
significant problems that could affect national highway safety program 
progress and complicate program administration by the agency and 
States.
    First, grant eligibility criteria are often used as a means to 
stretch current State program and statutory systems to greater 
effectiveness by providing an incentive to enact new, more stringent or 
effective laws or safety programs. Allowing ``partial grants'' for 
``substantial compliance'' will serve to diminish safety progress as 
grantees may set the bar lower for ``substantial compliance'' with 
grant criteria rather than ``full compliance'' with the grant criteria.
    Second, grant eligibility criteria seek to establish an objective 
standard that States must meet in order to qualify for a grant. For 
example, a State enacts and enforces legislation or meets certain 
program coverage requirements that are specified in statute or 
regulation. This allows for yes/no decisions regarding whether the law 
or the program complies with the grant criteria. Providing a ``partial 
grant'' for ``substantial compliance'' introduces an element of 
uncertainty and judgment into the grant eligibility determination 
process. States and the administrating agency may have different 
perspectives on the meaning of ``substantial compliance.'' This can and 
will lead to disputes about inconsistent or arbitrary grant decisions 
when administering agencies make grant eligibility determinations based 
on their judgment of whether a State has ``substantially complied'' 
with the grant criteria.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                        Hon. David L. Strickland

    Question. During today's hearing, you mentioned the overwhelming 
success of the New York and Connecticut pilot programs in reducing 
handheld cell phone use and texting. However, it was my understanding 
that the actual goal of distracted driver programs is to reduce the 
number of accidents. Is there any evidence that these pilot programs 
reduced the number of auto accidents, injuries, or fatalities?
    Answer. For this pilot program, NHTSA selected relatively small 
cities, Syracuse, New York and Hartford, Connecticut, for the 
demonstrations because program implementation can be closely monitored 
and measured. However, a consequence of the limited population is the 
relatively small number of serious crashes, and therefore a limited 
opportunity to measure crash effects. For this reason, the findings 
from the current distracted driving demonstration programs focus on 
changes in driver cell phone use and texting and do not include crash 
data, such as traffic injuries and fatalities. Our next step will be to 
deploy a number of Statewide distracted driving demonstration programs 
where crash results are more likely to be measurable.
    Although crash outcome data is not yet available, we believe that 
other information points to a positive effect from distracted driving 
programs. Specifically, a number of studies indicate that driver cell 
phone use increases crash risk. Other studies show that handheld cell 
phone laws reduce observed cell phone use while driving. The New York 
and Connecticut studies provide additional evidence that strong 
enforcement of such laws further reduces cell phone use and texting by 
drivers. We believe that these studies collectively indicate that the 
reduction of cell phone use and texting by drivers is likely to impact 
crash risk.
                                 ______
                                 
     Response to Written Questions submitted by Hon. Roy Blunt to 
                        Hon. David L. Strickland

    Question 1. Mr. Strickland, in your testimony in front of the 
subcommittee you stated that the various sectors of the automotive 
industry had a ``systemic'' problem in terms of their annual automotive 
recall completion rates. However, at the time you did not have the 
supporting data to corroborate that statement. Would you please supply 
me with recall completion rate data for new car sales, used car sales, 
automotive fleets, rental car companies and individual consumer 
automobiles from the past 5 years?
    Answer. As I mentioned at the hearing, NHTSA is conducting an Audit 
Query to determine whether there is a systemic problem with the recall 
completion rates for vehicles owned by rental car companies. The 
average vehicle recall reaches a completion rate of about 70 percent 
after the full six quarters for which manufacturers must report 
completion data. Based on data received from the three largest domestic 
manufacturers, we believe that there is a systemic problem with rental 
car fleets. That data indicate that, at the one-year mark after the 
announcement of a recall, about 67 percent of consumer-owned vehicles 
have had the recall remedy performed on them. Comparable figures for 
rental car companies were about 56 percent, with the larger rental car 
companies having higher rates than smaller ones, but still lower 
consumer-owned vehicles. Among the major companies, there is also a 
range of completion rates, with the best company being essentially at 
the same level as consumer-owned vehicles. The major rental car 
companies generally contend that the manufacturers' data do not 
accurately reflect the rental companies' completion rates, which they 
claim to be higher, at least in some cases. However, the rental car 
companies seem to have selected examples of specific recalls with 
higher rates rather than providing data on all of the recalls on which 
the manufacturers have supplied information.
    We have also found that, while most of the major companies have 
recently revised their policies with regard to renting recalled 
vehicles, they still rely on their own assessments of risk--in some 
cases based on consultation with the manufacturer--to determine whether 
to rent such vehicles prior to repairs. For vehicles not repaired prior 
to rental, we are not aware of any company that informs the customer of 
the un-remedied defect or noncompliance. In short, while we think that 
recent attention given to this subject has resulted in some 
improvements, we believe that there is still a systemic problem with 
the completion of recalls by rental companies and their disclosure of 
pending recalls to customers.
    Other than the data cited above concerning rental fleet vehicles, 
we do not have data that are broken down in the categories you have 
requested. Recalling manufacturers provide six quarterly reports after 
the start of a recall campaign, identifying in aggregate numbers how 
many vehicles have been remedied under the campaign. They do not report 
these data under the categories requested and NHTSA does not have a way 
of breaking the aggregate data into the categories you requested for 
the last 5 years.

    Question 2. How does the National Highway Traffic Safety 
Administration compile automotive recall completion rate data?
    Answer. Manufacturers are required to provide six quarterly reports 
starting from the quarter in which they launch the recall campaign. 
Manufacturers provide the data in aggregate totals and under the 
categories defined by regulation. (49 CFR 573.7) In essence, 
manufacturers report the aggregate number of vehicles repaired (or 
inspected and not requiring repair). NHTSA divides that number into the 
total number of vehicles recalled in a campaign to determine the 
completion rate for that recall. NHTSA is then able to gather the 
respective completion rates on recall campaigns to ascertain average 
completion rates.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                             Susan Fleming

    Question 1. The number of motor vehicle related fatalities and 
injuries are trending significantly downward. Do you believe that 
overall NHTSA has done a good job? What other improvements would you 
suggest?
    Answer. Overall GAO is pleased with NHTSA's efforts, including 
changes they have made in response to our recommendations. 
Specifically, NHTSA has taken several steps to better oversee states' 
management of federally funded safety grants and move toward a more 
performance-based, data-driven grant structure. For example, NHTSA 
improved its grant oversight by developing a tool--the corrective 
action plan--to track states' implementation of management review 
recommendations and encourage states to act on the agency's guidance. 
Also, NHTSA--in collaboration with the Governor's Highway Safety 
Association (GHSA)--developed two sets of performance measures to 
assist states in developing and implementing traffic safety grant 
programs, as well as to monitor and improve data in their traffic 
record systems.
    Our work indicates that NHTSA can do more in several areas. For 
example, NHTSA can continue to move toward a more performance-based 
approach by using the performance measures developed with GHSA to help 
assess states' progress in making safety improvements. NHTSA can also 
help states prioritize improvements to their traffic safety data 
systems by continuing to address our recommendation to ensure that 
traffic records assessments are complete and consistent.

    Question 2. Do you know what NHTSA highway safety grants have shown 
the most results and the best use of Federal dollars in improving 
safety?
    Answer. While we did not assess which of the highway safety grants 
was the most effective, when we reviewed the grant programs in 2008 we 
reported that state officials generally found the safety grant programs 
help improve safety by funding activities and help address key safety 
issues in their states, including safety belt use, child safety and 
booster seat, impaired driving, motorcyclist safety, and traffic safety 
information systems. At the same time, we noted that while NHTSA 
planned to rely on performance measures to help determine the results 
of these programs, NHTSA had not yet assessed the grant programs' 
effectiveness because it had not yet developed sufficient performance 
measures and the safety incentive grants had not been in place long 
enough to evaluate trends.
    We have also reported that linking grant funding with states' 
progress in achieving goals--as tracked through performance measures--
could help improve accountability for Federal funds. However, criteria 
for continuing to receive traffic safety incentive grants are generally 
not tied to states' demonstrating safety improvements from the prior 
year. NHTSA has worked with GHSA to develop performance measures to 
help assist states in developing and implementing traffic safety 
programs. Using broad performance measures has the potential to hold 
states accountable for achieving results and can provide information on 
what areas should be prioritized for improvement. The use of such 
measures represents an important step toward a more performance-based 
approach. In reauthorizing traffic safety grant programs, Congress will 
be faced with deciding whether to move further toward a performance-
based, data-driven grant structure by linking a state's receipt of 
grant funds to achieving progress toward safety goals.

    Question 3. You issued a report in 2010 highlighting key components 
of a graduated licensing program for teen drivers and noted that states 
often vary in the extent to which they include such provisions. Why do 
states have difficulty implementing teen driver laws and what can the 
Federal Government do to assist them?
    Answer. Officials reported several reasons for difficulty in 
passing teen driver legislation, including: (1) concerns over 
infringing upon individual's personal freedom; (2) concerns over 
limiting teens from driving themselves or others to and from activities 
such as school or work; and (3) challenges reaching consensus on 
specific driving provisions. Our work also identified several 
strategies that states can take to address these challenges, including: 
(1) establishing a task force to act as a ``champion'' to improve a 
state's ability to strengthen teen driver safety laws; (2) publicizing 
teen driver crashes, which can create momentum to change state laws; 
and (3) using data and research to convince key stakeholders, such as 
legislators, to support pending legislation. One very important way 
that NHTSA can help states determine whether it is appropriate to pass 
new teen driver legislation is continuing to conduct research on the 
optimum teen driver provisions to include state laws.

    Question 4. What are some of the key challenges to the auto safety 
recall process and how could they be addressed?
    Answer. In our June 2011 report, we identified a number of 
challenges that affect parts of the recall process, including: (1) 
identifying and notifying vehicle owners of auto safety defects; (2) 
motivating vehicle owners to comply with notification letters; (3) 
providing better information to vehicle owners and the public; (4) 
using existing data to improve completion rates; and (5) NHTSA's lack 
of authority to notify potential used car buyers about outstanding 
recalls.
    We made several recommendations to NHTSA to address these 
challenges based on our interviews with auto manufacturers, industry 
stakeholders, and the consumer focus groups we convened. First, NHTSA 
should modify its requirements for notification letters to include 
additional information, such as the word ``urgent'' in large type to 
obtain readers' attention and the vehicle owner's VIN number so that it 
is clear that the letter pertains to the owner's current vehicle. 
Second, NHTSA should create a VIN-searchable database on its website, 
www.safercar.gov, so that vehicle owners and the public can search for 
outstanding recalls that relate to their specific vehicles. We also 
recommended that NHTSA make additional efforts to publicize the website 
to vehicle owners and the public, as our focus groups indicated that 
NHTSA's website was not well publicized. Third, NHTSA should develop a 
plan to use the data it collects on recall campaigns to analyze 
patterns or trends to determine the characteristics of successful 
recalls. Finally, NHTSA should seek legislative authority to notify 
potential used car buyers of recalls prior to sale. In particular, we 
believe Section 411 of the Motor Vehicle and Highway Safety Improvement 
Act, as proposed in the draft legislation prior to the hearing, is a 
good step toward preventing consumers from unknowingly putting their 
lives at risk by purchasing a defective vehicle. Tying this provision 
to the development of a VIN-searchable database available to the public 
(as section 411 does) is a necessary step to ensure that used-car 
dealerships have the information they need to determine if a vehicle 
they possess has an outstanding recall to comply with this requirement. 
The development of such a database will also help vehicle owners 
themselves to identify outstanding recalls and improve safety for the 
motoring public.

    Question 5. Given the shortfalls in the Highway Trust Fund, how 
should Congress look to fund these highway grant programs?
    Answer. The highway trust fund, as currently constructed, is not 
sustainable. We have reported on other options to help manage the 
solvency of the fund, including altering or supplementing existing 
sources of revenue, applying user-pay mechanisms, such as congestion 
pricing and tolls, and improving the performance of the existing 
transportation infrastructure. However, each of these options has 
different merits and challenges, and the selection of any option will 
likely involve trade-offs among different policy goals.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                          Jacqueline S. Gillan

    Question 1. What highway safety grants do you view as the most 
critical to safety in our Nation's roadways? What suggestions do you 
have in how we can improve these grants' effectiveness in safety?
    Answer. Highway safety grants that are awarded to states that have 
already enacted specific traffic safety laws and are used for education 
and enforcement of those laws are the most effective expenditure of 
resources. For example, seat belt use has been increasing since 1994, 
and reached 85 percent in 2010 and has saved thousands of lives.\1\ 
Higher seat belt use rates are largely the result of passage of primary 
enforcement seat belt laws in states that have been accompanied by high 
profile enforcement measures such as the ``Click It or Ticket'' and 
other enforcement campaigns to educate motorists about the safety and 
legal importance of buckling up.
---------------------------------------------------------------------------
    \1\ National Highway Traffic Safety Administration. Traffic Safety 
Facts: Seat Belt Use in 2010. DOT HS 811 378. Sept. 2010.
---------------------------------------------------------------------------
    Funding of education programs alone which encourage changing driver 
and occupant behavior but are not coupled by enactment of a state law 
addressing that behavior are not effective and waste scarce grant 
funds. For years education campaigns to discourage drinking and driving 
were not effective until laws were passed threatening license 
revocation, imposing stiffer penalties and requiring the use of 
ignition interlock devices. The Insurance Institute for Highway Safety 
(IIHS) reports that media campaigns and educational announcements alone 
do not improve highway safety unless they are accompanied by 
enforcement of traffic safety laws.\2\ For example, while motorcycle 
helmet use is more than 75 percent in states with universal helmet laws 
covering all riders, the rate falls to approximately 40 percent in 
states that do not have all-rider motorcycle helmet laws.\3\
---------------------------------------------------------------------------
    \2\ Insurance Institute for Highway Safety. Status Report: What 
Works and Doesn't Work to Improve Highway Safety. Vol. 36, No. 5. 2001.
    \3\ National Highway Traffic Safety Administration. Traffic Safety 
Facts: Motorcycle Helmet Use in 2010. DOT HS 811 419. Dec. 2010.
---------------------------------------------------------------------------
    For this reason, Advocates supports highway safety incentive grant 
programs for states that adopt graduated driver licensing (GDL), 
alcohol ignition interlock devices (IID) for first-time offenders, 
primary seat belt, booster seat, and anti-texting laws. We commend the 
Senate sponsors for including these provisions in S. 1449, the Motor 
Vehicle and Highway Safety Improvement Act of 2011.
    In addition, Federal funds provided to states, especially under the 
Section 402 program, must be expended on worthwhile state projects that 
improve public safety. For this reason, the National Highway Traffic 
Safety Administration (NHTSA) should establish performance goals in 
conjunction with each state and review state plans for the expenditure 
of those funds to ensure that state performance goals to improve public 
safety are being met.

    Question 2. What vehicle safety issues concern the safety advocates 
the most at this time?
    Answer. The series of hearings held by Senate and House committees 
in the 111th Congress investigating sudden unintended acceleration 
highlighted major deficiencies in vehicle safety standards and agency 
oversight. The Motor Vehicle and Highway Safety Improvement Act of 
2011, S. 1449, looks at regulatory issues that have languished for 
years and contains provisions that will require DOT to upgrade outdated 
standards and dramatically improve auto safety. The inclusion of 
provisions requiring the Secretary to mandate event data recorders 
(EDRs), require final rules for vehicle electronic performance 
standards and vehicle stopping distance and brake override standards, 
and initiate rulemakings for a pedal placement standard addresses 
serious safety problems and offers remedies that are long overdue and 
will save lives and reduce economic costs.
    Provisions to provide greater transparency and accountability are 
essential to ensure that the public is not kept in the dark about 
potential vehicle defects that can kill or maim. S. 1449 improves and 
corrects problems with public availability of information initially 
required under the 2000 Transportation Recall Enhancement, 
Accountability and Documentation (TREAD) Act. Advocates supports 
language contained in S. 1449 to improve the NHTSA vehicle safety data 
base, including requirements to improve public access and require 
recall information to be available and searchable. The agency still has 
the authority to protect confidential proprietary information and trade 
secrets. Passage of S. 1449 will both improve the safety performance of 
motor vehicles and the performance of NHTSA.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Claire McCaskill to 
                          Jacqueline S. Gillan

    Question. As Ms. Gillan references in her testimony, the safety 
standard for seatback performance has not been upgraded since it was 
first adopted in 1967. If the driver or passenger seatback fails in a 
crash, both the front and rear seat occupants are endangered. The 
failure of a seatback directly in front of children places them at 
risk. In particular, there have been several incidents of children 
sitting in rear seats who have been injured in crashes in which 
seatbacks collapse on them. Some have suffered brain damage in the 
crashes.
    How rampant a problem is this and how often are incidents 
occurring? Are there safeguards that can be taken now to prevent this 
from occurring? What steps is the auto industry taking to protect both 
front and rear seat occupants? Are new cars still using 1967 standards 
or has the industry been using higher standards?
    Answer. One of the most important public health and safety messages 
that safety groups, medical organizations, government agencies, and the 
insurance auto industries all agree on and is widely promoted is that 
the back seat is the safest place for a child of any age to ride in a 
car. We therefore have an obligation to parents and others to ensure 
that putting children in the rear seat does not jeopardize their safety 
or cause death or injury in the event of a crash. Unfortunately, 
seatback performance and the risk of seat back failure is a real and 
serious problem that needs to be immediately addressed by the National 
Highway Traffic Safety Administration (NHTSA). For this reason, 
Advocates urges passage of a provision in the NHTSA authorization bill 
that directs the agency to upgrade this 1967 standard to ensure that 
children are not seriously injured or killed in a crash because the 
front seat fails.
    Children's Hospital of Philadelphia (CHOP) has determined that 
collapsing seat backs are a serious threat to children, who are often 
secured in the rear seat of passenger vehicles behind adult occupants. 
In its study using data from 2000 through 2006, CHOP reported that 2.3 
percent of child occupants seated in rear row outboard positions 
sustained injuries in rear impact crashes.\4\ In these cases, occupants 
were seated in front of the rear seat child occupants 71 percent of the 
time, and front seat back deformation into the child's space occurred 8 
percent of the time. For children in the rear seating area who had 
seatback deformation directly in front of them, injury risk doubled. 
Requiring the Secretary to issue final rules that upgrade the 
performance of seats, including seatbacks, head restraints, and active/
passive restraint, will increase the protection of children and adults 
in passenger motor vehicles crashes before more injuries occur.
---------------------------------------------------------------------------
    \4\ KB Arbogast, JS Jermakian, DR Durbin. Center for Injury 
Research and Prevention, Children's Hospital of Philadelphia. Injury 
Risk for Rear Impacts: Role of the Front Seat Occupant. Annals of 
Advances in Automotive Medicine. Vol 52. 2008: 109-116.
---------------------------------------------------------------------------
    The 1967 safety standard for seatback performance is just one of 
many vehicle safety standards that has not been updated for decades. 
For example, the Federal bumper standard (49 C.F.R. Pt. 581) has not 
been updated since the 1970s, despite changing technologies and vehicle 
structures. As a result, vehicle safety systems and passengers are not 
as protected as they could be in low-speed collisions. Many Federal 
motor vehicle safety standards (FMVSS) were revised and upgraded by 
NHTSA only as the result of congressional mandates directing action 
adopted in legislation, including the roof strength standard, the 
vehicle stability standard, the occupant protection standard, the 
pneumatic tire standard and the side impact standard.
    This is why Advocates pursues and proposes the adoption of 
legislative provisions directing the Department of Transportation (DOT) 
to act when there is a serious safety threat that requires action. 
Congressional direction means that updated, stronger safety standards 
will be a priority for DOT, and these regulations will be implemented 
in a timely manner. We strongly urge that language to require a final 
rule upgrading the safety standard for seatback performance within 2 
years be included in S. 1449, the Motor Vehicle and Highway Safety 
Improvement Act of 2011.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                           Hon. Nicole Nason

    Question 1. Given your experience on the issue, what highway safety 
grants for states do you believe have been the most effective in 
improving safety?
    Answer. The most effective grants administered by NHTSA are the 
ones that are based on sound data and enjoy strong oversight. The best 
grants also allow for flexibility in the use of the funds. The seat 
belt grant program was a success because the States were clear on the 
goals and everyone understood the options for achieving those goals. 
The program was not overly complex, but did allow for various pathways 
for States to receive the funding. Most significantly, several States 
passed primary belt laws as a result of this program. The seat belt 
remains the single most important and effective safety device ever 
developed. In order to make the best use of the funds, NHTSA needs to 
continue a robust data-gathering program. Funding for the National 
Automotive Sampling System (NASS) is extremely important, as it is the 
nationwide system used by researchers for collecting and analyzing 
crash data. I believe NASS is currently underfunded, and the data 
regarding child injury and death is woefully lacking. I hope the 
Committee supports the improved use of NASS in the future, and directs 
the agency to focus on the issue of more accurate data regarding 
children.

    Question 2. What highway safety grants have been less effective? 
How can we improve these less effective grants?
    Answer. The least effective grants are the ones that are based 
solely on the needs or desires of one constituency. In order for grant 
programs to be valuable, the States need some flexibility in the use of 
the funds. Grants that specifically limit or prohibit a State's ability 
to discuss a significant safety question, such as motorcycle safety, 
end up without value. I hope the Committee will review that particular 
grant program and make appropriate changes. NHTSA should be required to 
ensure that funds are being used effectively, but the States should be 
able to focus their limited resources as they determine would be best.

    Question 3. During your time as Administrator, as far as NHTSA's 
vehicle safety mission, what specific areas or departments did you find 
as the most critical and need the most funding in order to maintain a 
strong safety standard for automobiles?
    Answer. As a former Administrator, I can report that the agency 
does more, with less funding, every year. While additional funds do not 
always solve internal problems, I hope the Committee will continue to 
focus resources on the vehicle safety office, and support the recall 
team. In addition, I believe the multiple international travel budgets 
should all be consolidated. I also hope the Committee will consider the 
creation of an Ombudsman at NHTSA. For many people, their car is the 
most valuable item they own. As the Toyota recall hearings made clear, 
the public needs to feel more connected to the Federal agency that 
oversees the safety of their vehicles.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                          Robert Strassburger

    Question 1. As the auto industry continues to make developments to 
increase safety, what should the Federal Government's role be in 
setting a strong safety standard that keeps our drivers and passengers 
safe?
    Answer. According to NHTSA's data, traffic fatalities have been 
steadily declining over the last 5 years, decreasing by about 25 
percent from 2005 to 2010. The number of people injured in crashes is 
also at its lowest point since NHTSA began estimating injury data in 
1988. This constitutes the 10th consecutive yearly reduction in people 
injured. In fact, fatalities and serious injuries resulting from motor 
vehicle crashes in 2010 are at their lowest level in over 60 years. 
This progress is even more remarkable given that the number of licensed 
drivers has more than doubled and the number of annual vehicle miles 
travelled has more than quadrupled in the last 60 years. These 
reductions can be attributed to many factors including improvements in 
motor vehicle design, effective highway safety programs, and to a 
limited extent, the economy.
    NHTSA, and the Safety Act that establishes its mission, came to be 
because the marketplace didn't value safety; didn't demand ever safer 
vehicles. That's no longer the case. Many of today's safety features 
have been developed and implemented voluntarily by manufacturers not in 
response to regulatory mandates. Thus, the Alliance welcomes this 
Committee examining what should the Federal Government's role be going 
forward.
    The Alliance and others often emphasize the importance of adhering 
to a model for effecting safety enhancements that has been proven 
effective the world over. This model has three components which are:

        1. Enactment of strong laws that are visibly enforced;

        2. Education about those laws and the risks associated with 
        certain driving behaviors; and

        3. Research into the scope and magnitude of various safety 
        concerns and potential technological countermeasures, and the 
        effectiveness of those countermeasures once implemented.

    Thus, at minimum, the Federal Government's role should be to ensure 
that sufficient resources and attention is being given to implement 
safety grant, enforcement and communication programs. The Federal 
Government also has a role to play in guiding and funding needed 
research into safety concerns and potential countermeasures, and in 
ensuring that the findings are disseminated in a timely manner.
    With most of today's safety features being voluntarily developed 
and implemented by vehicle manufacturers, the command and control 
rulemaking model of the 1960s is not only no longer an effective model 
but is actually counterproductive because it risks frustrating and 
delaying, rather than facilitating the implementation of safety 
enhancements. The Federal Government's role with respect to rulemakings 
has evolved to be one of exercising rulemaking authority judiciously by 
promulgating rules to adopt ``best practices'' once known to ensure 
that all market participants, including new entrants, are engineering 
their vehicles and safety systems according to these practices.
    A lasting legacy for enhancing motor vehicle safety that the 
Committee could undertake is to require that NHTSA periodically prepare 
and provide to the Committee the agency's research and rulemaking 
priority plan. NHTSA's current plan, which was released in March 2011, 
was developed by the agency and finalized only after the agency 
published a draft in the Federal Register and took public comment. 
Administrator Strickland testified that this plan was developed, ``. . 
. by focusing on the most significant safety risks, particularly 
vulnerable populations and high occupancy vehicle issues.'' NHTSA's 
Research and Rulemaking Priority Plan not only sets the ``safety 
agenda'' for the nation, but it is also an excellent tool for the 
Committee to exercise oversight.

    Question 2. Do you believe NHTSA should provide regulations on 
vehicle safety in response to nomadic devices, or cell phones and 
similar devices, as they relate to use in vehicles?
    Answer. NHTSA Administrator, David Strickland, testified at the 
hearing that there exists a gap in Federal authority to regulate the 
performance of ``nomadic'' devices relating to motor vehicle safety. 
Administrator Strickland urged that this gap be eliminated and 
recommended that his agency be given authority to ``develop performance 
standards regarding <the use of> nomadic devices in vehicles.'' See 
pages 16-17 of hearing transcript.
    The Alliance agrees with the Administrator that a gap in authority 
exists and that this gap should be eliminated. How this gap is filled 
and by whom potentially has significant implications. Currently NHTSA 
has rulemaking authority over systems integrated into motor vehicles 
and ``items of motor vehicle equipment'' as that phrase has been 
defined by the Safety Act and interpreted by NHTSA. Nomadic devices are 
not currently considered items of motor vehicle equipment. The Federal 
Communications Commission (FCC) has authority over some aspects of 
performance of nomadic devices such as maximum power or frequency 
spectrum. However, it does not have the authority to regulate the 
performance of these devices as it relates to motor vehicle safety.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Claire McCaskill to 
                          Robert Strassburger

    Question. As Ms. Gillan references in her testimony, the safety 
standard for seatback performance has not been upgraded since it was 
first adopted in 1967. If the driver or passenger seatback fails in a 
crash, both the front and rear seat occupants are endangered. The 
failure of a seatback directly in front of children places them at 
risk. In particular, there have been several incidents of children 
sitting in rear seats who have been injured in crashes in which 
seatbacks collapse on them. Some have suffered brain damage in the 
crashes.
    How rampant a problem is this and how often are incidents 
occurring? Are there safeguards that can be taken now to prevent this 
from occurring? What steps is the auto industry taking to protect both 
front and rear seat occupants? Are new cars still using 1967 standards 
or has the industry been using higher standards?
    Answer. In the 21st century automobile, seating system performance 
in a crash cannot reasonably be considered in isolation from other 
aspects of the vehicle's ability to manage crash energy and mitigate 
injury risk. Seating system crashworthiness is a complex design issue 
that requires consideration of biomechanics of crash injury to 
different size occupants, the geometry of the interior cabin of a given 
vehicle, the performance of head restraints, location of the safety 
belts relative to the occupants, the height of the seat back, the seat 
track mechanisms, and other vehicle system considerations.
    While seat back strength has been enhanced over the years, industry 
research has documented that significantly stiffer seat backs do not 
result in fewer injuries to rear seat occupants in high-speed rear 
impact crashes. See, for example, Relationship Between Seatback 
Stiffness/Strength and Risk of Serious/Fatal Injury in Rear Impact 
Crashes, SAE 2009-01-1201 (2009)(concluding that seatback stiffness or 
strength is not a statistically significant predictor of the risk of 
serious/fatal injury for belted drivers and belted rear seat occupants 
in high-speed rear crashes). Indeed, some research shows that making 
the seat back more rigid may actually increase the risk of serious 
injury in various collisions, including rear-impact collisions, for 
vehicle occupants particularly older, heavier, or child occupants. See, 
for example, Influence of Seating Position on Dummy Responses with ABTS 
Seats in Severe Rear Impacts, SAE 2009-01-0250 (2009)(concluding that 
occupants may be at risk for serious injury when the strength of the 
seat exceeds the extension tolerance of the spine and their upper body, 
head, or neck is unsupported.) Others have advocated for different 
``yield'' behavior of seating systems in crashes, but without any 
evidence that one type of ``yielding'' will produce better outcomes in 
crashes than other ``yield'' patterns.
    The automotive safety community, including NHTSA, Alliance members, 
other vehicle manufacturers and equipment manufacturers, has devoted 
substantial resources over the past two decades to studying the issue 
of seating system performance in crashes, especially since the Hybrid 
III crash dummy was validated in the late 1990s for use to research 
injury risk during high-speed rear impact crashes. NHTSA continues to 
perform substantial research to evaluate the contribution of seat back 
performance to injury risk in crashes. In 2004, NHTSA terminated a 
rulemaking proceeding on this subject, noting:

        ``Improving seating system performance is more complex than 
        simply increasing the strength of the seat back. A proper 
        balance in seat back strength and compatible interaction with 
        head restraints and seat belts must be obtained to optimize 
        injury mitigation. Comprehensive information needed to 
        determine that proper balance is not available, although there 
        has been work on pieces of the problem.'' 69 Fed. Reg. 67068, 
        67069 (November 16, 2004).

    Although terminating rulemaking in this area, NHTSA promised to 
continue research on issues related to rear impact protection, and 
specifically the performance of seats in this crash mode, and has done 
so. However, as the agency noted in 2004, the available crash data do 
not show that seating system performance in crashes represents a 
significant national problem. NHTSA has committed to continuing 
research into these issues as other safety priorities allow, and the 
Alliance agrees that NHTSA has assigned an appropriate priority to this 
issue, given the relatively small number of injuries attributable to 
this condition.
    You asked how frequently the condition of rear impacts resulting in 
seat back failures arises. The answer is that these crashes are very 
rare, and the contribution of seat performance is even harder to 
discern. As NHTSA noted in 2004:

        ``. . . [R]ear impacts cause less than 2 percent of moderate-
        to-severe injuries. Similarly, the Fatality Analysis Reporting 
        System (FARS) shows that about 3 percent of all traffic crash 
        fatalities involved occupants of vehicles struck in the rear 
        (FARS annualized data 1998-2002). Thus, in comparison to other 
        crash modes, there is considerably less data available to 
        assess the potential benefits of upgrading FMVSS No. 207 for 
        higher speed rear impacts. The problem associated with the 
        relatively small number of moderate-to-severe injuries in rear 
        impacts is compounded by the difficulty in determining the 
        extent to which those injuries can be attributed to seat 
        performance.'' 69 Fed. Reg. 67068, 67069 (November 16, 2004)

    The science of crash energy management is much more sophisticated 
in 2011 than it was when FMVSS 207 was adopted, and has moved beyond 
the requirements of the NHTSA standard, which is a component-based 
approach, to a vehicle systems perspective that seeks to improve 
outcomes in crashes for all vehicle occupants. The crash data support 
the conclusion that modern seat and vehicle design are performing very 
well in minimizing serious injury and death in rear impacts. As any 
area of crash safety, future improvements and refinements are 
constantly being studied, but in this case are more complex than simply 
increasing the strength and stiffness of the seat back frame. Alliance 
members are taking appropriate steps to protect occupants, both front 
and rear, in crashes, through vehicle design strategies that are drawn 
from among the best available solutions today.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                             Vernon Betkey

    Question 1. While young driver fatalities have declined in the last 
decade, motor vehicle crashes remain the leading cause of death for 
drivers 15-20 years old. What are the states doing to address this 
issue? What are your thoughts on a national GDL standard such as the 
STANDUP Act?
    Answer. 49 of the 50 states have graduated licensing laws. 
According to AAA, nearly all states have tightened the passenger and 
nighttime driving restrictions in the last several years. (See 
attachment.) 30 states and DC ban cell phone use by novice drivers. 34 
states ban text messaging for all drivers, including novice drivers.
    GDL laws are difficult to enforce because law enforcement officials 
cannot easily distinguish between a 16-year-old novice driver and a 
fully licensed 17-year-old. New Jersey is leading the Nation with its 
decal program which makes it easier for law enforcement to enforce GDL 
laws. Research on the New Jersey effort has not yet been published. 
Other states are likely to follow suit if the decal strategy is found 
effective. Many states have developed training materials for law 
enforcement on teen driving.
    States have also been very active in developing educational 
programs on teen driving. Many states have peer-to-peer educational 
efforts such as the Texas Teens in the Driver Seat program and the 
Illinois Operation Teen Safe Driver program. A number of states are 
currently developing educational programs aimed at parents. Oregon, for 
example, has developed a teen driving curriculum specifically for 
parents. Most states host teen driving summits, support their local 
SADD chapters and conduct media campaigns aimed at teen drivers. A 
number of states support statewide teen driving coalitions whose 
purpose is to review teen driving laws and policies and make 
recommendations to their Governor ors state legislatures for 
improvements. The New Jersey Teen Driving Commission is a prime example 
of this.
    In addition to efforts involving public funds, states are engaged 
in privately-funded teen driving programs. More than half of the states 
have participated in the Ford Driving Skills for Life program over the 
last several years. The program focuses on teaching teens four basic 
driving skills (hazard recognition, speed management, space management 
and vehicle handling) through an online academy, games, contests, Ride-
And-Drives, summer camp and other activities.
    A number of states have received funding from the Allstate 
Foundation for peer-to-peer educational programs. Ten states are 
currently receiving additional Allstate funding to form state 
coalitions to address the teen driving issue.
    In 2010, GHSA published Protecting Teen Drivers: A Guidebook for 
State Highway Safety Offices funded by State Farm, http://
www.ghsa.org/html/publications/sfteen/index.html. GHSA is currently 
developing a more detailed case study report of state teen driving 
programs which is expected to be published next spring.
    GHSA would support a national standard that is research-based, 
comprehensive and attainable. The difficulty with the STANDUP Act is 
that 49 out of 50 states are not in compliance. Only DC and NJ are. If 
the nighttime restriction is set at 10 p.m., then no state would be in 
compliance. There is too much emphasis in the STANDUP Act on the age of 
licensure, to the detriment of passenger and nighttime restrictions--
aspects of GDL which are more researched and, hence, more supportable. 
GHSA does not support sanctions and would not support that part of the 
STANDUP Act.

    Question 2. What steps have the states taken to address improving 
driver education requirements for new drivers and monitoring the 
capabilities of elderly drivers to ensure they are prepared to drive 
safely on roads? What more can be done?
    Answer. Driver education is the responsibility of only three State 
Highway Safety Offices--OR, OH and VA. In other states, the motor 
vehicle administrations, the department of state, the department of 
revenue, the department of transportation or other regulatory agency 
are responsible for providing and regulating driver education.
    Despite that, GHSA recognizes the importance of driver education 
and has assisted in two national efforts on the topic. GHSA has been 
involved in the development of administrative standards for driver 
education which were released by NHTSA last year. The Association is 
represented on the working group to oversee implementation of the 
administrative standards. Last year, my state of Maryland as well as 
Oregon piloted the development of a new NHTSA assessment for state 
driver education programs. NHTSA has added this new assessment tool to 
its litany of assessments available to states and intends to market it 
to the states.
    NHTSA, through a cooperative agreement with the Association of 
Driver & Traffic Safety Education Association (ADTSEA), developed a 
model driver education curriculum as well as curriculum standards. The 
curriculum, the curriculum standards and the administrative standards 
constitute a best practice for state driver education programs.
    NHTSA should pilot test the ADTSEA curriculum, evaluate the pilot 
and widely market the results to the states. NHTSA also should collect 
information about the state of practice of driver education programs in 
every state. Once this baseline information is collected, then 
improvements in state driver education programs can be documented and 
evaluated against the ADTSEA model.
    With respect to elderly drivers, much more research is needed. 
Since elderly drivers age differently, there is no single age at which 
drivers should be permitted to drive or have their drivers' license 
revoked. Current age-related driver tests by the state motor vehicle 
administrations do not accurately evaluate an elderly's physical or 
cognitive ability to drive.
    The AAA Foundation has developed a good skills assessment tool for 
elderly drivers, Drivers 65+, but it is designed only to be an early 
warning tool to be used by seniors and their families. There is no 
single, evidence-based, widely accepted test of an elderly driver's 
knowledge, physical abilities and cognitive abilities that can 
determine whether an elderly driver should continue to drive or not. 
NHTSA funded a promising approach several years ago but that was never 
replicated and has not been widely used by the states. NHTSA should 
continue to fund research that would support the development of a more 
appropriate testing standard that can be used with elderly drivers.
                                 ______
                                 
                               Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
              Prepared Statement of The Hertz Corporation

    This statement is submitted on behalf of The Hertz Corporation 
(``Hertz''), both to endorse the statement submitted by the American 
Car Rental Association, and to address comments made by National 
Highway Traffic Safety Administration (``NHTSA'') Administrator David 
L. Strickland In his testimony before the Subcommittee on July 27, 
2011.
    First, please note that Hertz wholeheartedly agrees with and 
endorses the statement submitted by the American Car Rental 
Association. Those comments provide an important Industry perspective 
which the Subcommittee has not yet heard, and identify significant 
issues with sections 411 and 412 of the discussion draft of the 
reauthorization legislation.
    Second, we do wish to separately address the comments made by 
Administrator Strickland in support of his Agency's request that 
Congress expand NHTSA authority so that the Agency has direct 
regulatory authority over rental car companies in the same manner as 
the Agency now has control over vehicle manufacturers. From its 
earliest formation, NHTSA has always been charged with ensuring the 
safety of the design of new motor vehicles and new motor vehicle 
equipment, by giving the Agency authority to regulate the activities of 
motor vehicle and equipment manufacturers, dealers and distributors In 
order to: (1) ``prescribe motor vehicle safety standards for motor 
vehicles and motor vehicle equipment in interstate commerce;'' and (2) 
``carry out needed safety research and development.'' 49 U.S.C.  
30101. NHTSA has never had regulatory authority over individual or 
fleet owners of vehicles, which authority has always been reserved for 
States, many of which regulate through periodic inspection and 
maintenance programs and some of which regulate through vehicle 
registration renewal requirements (see, e.g., State of California 
Registration Renewal/Recall Enforcement Program).
    In response to questioning from Senator Roy Blunt (R-MO), NHTSA 
Administrator Strickland stated that he was seeking regulatory 
authority over rental car companies because, he said, there is evidence 
that rental car companies are not fixing vehicles subject to recall in 
a timely manner, and that rental car companies are renting vehicles 
subject to recall to consumers prior to the completion of the recall 
repair. Both assertions are erroneous and neither assertion has any 
basis In the complete record before NHTSA In its Inquiry Into rental 
car repair completion rates, NHTSA Docket No. AQ 10-001.
    First, and perhaps most importantly, Hertz and other major rental 
car companies are not renting vehicles subject to NHTSA safety recall 
notices pending completion of the repair or an interim remedial measure 
that makes the vehicle safe to operate before final repair is conducted 
(as in the Toyota floor mat example provided In the ACRA comments). 
With the exception of the one tragic accident in 2004 with respect to 
one rental car company, Hertz is aware of no other accidents which have 
been shown to be the result of a rental car company renting a vehicle 
subject to a NHTSA recall prior to completion of the recall remedy, or 
of an Interim remedial step approved by the vehicle manufacturer to 
make the vehicle safe prior to the final recall repair. Certainly, no 
other such accident has been identified in the NHTSA audit query or In 
the materials submitted to the NHTSA docket related to the audit query.
    The rental car companies themselves submitted evidence that, on 
average, 80 percent of vehicles subject to recall are repaired within 
60 days, and that in those few Instances In which repairs are not 
conducted In that timeframe, vehicle parts availability and 
availability of dealer bays to conduct repairs are the primary 
culprits. Data submitted by Hertz to NHTSA on July 22, 2011 (which is 
attached), demonstrates both points. While three vehicle manufacturers 
submitted data that suggested slower rates of recall repairs, both Ford 
and Chrysler specifically stated on the NHTSA record that the recall 
repair completion data presented by vehicle manufacturers is not 
accurate as to the timing of recall repairs or as to the ownership of 
the vehicle at the time a recall Is announced. These Inaccuracies 
Include: (1) that the vehicle manufacturers overstated the number of 
vehicles in the rental car fleet, in some cases by more than 85 
percent, because they relied on R.L. Polk & Company vehicle 
registration data which often lags as much as 2 months or more In 
reporting change of vehicle ownership at the end of the relatively 
short, 12-18 month term that vehicles remain In rental car fleets; and 
(2) that vehicle manufacturers reportedly used their own dealer claims 
records to determine date of recall repair, but many vehicles are 
repaired at rental car maintenance facilities, meaning that dealer 
recordkeeping and claims records are likely to be incomplete. Both Ford 
and Chrysler suggested that NHTSA should instead rely on data submitted 
by rental car companies as to repair completion rates, and that data 
shows consistently timely repairs.
    Given the specific demonstration by rental car companies that they 
are not renting vehicles pending recall repairs, It Is unclear why 
NHTSA is now expressing concern about the speed with which rental car 
companies are repairing recalled vehicles. Obviously, rental car 
companies have every economic incentive to get recalled vehicles 
repaired and back on the road as soon as possible. Since the NHTSA 
audit query has clearly shown that the greatest constraint to timely 
recall repair completion is vehicle manufacturer capacity to produce 
new parts and franchised dealer capacity to repair vehicles, if speed 
of repair is truly a concern at NHTSA, the Agency could use Its 
existing authority under 49 U.S.C.  30120(c) to require manufacturers 
to be ready to accomplish recall repairs within 60 days of announcement 
and to prioritize recall repair availability to fleet owners and/or 
other vehicle population segments, as appropriate. NHTSA's legitimate 
regulatory Interest In encouraging faster production of replacement 
parts so recalled vehicles can be repaired promptly and put back Into 
the stream of commerce by responsible fleet owners like Hertz, can be 
addressed by the Agency's existing regulatory authority. No change in 
the current NHTSA authorizing statute is needed.
    When the actual facts regarding recall management practices of 
rental car companies are understood, It is clear that the rental car 
Industry has--with the single exception noted above--an excellent 
safety record handling vehicle recalls. Given that safety record, 
rental car companies should not be singled out for NHTSA regulatory 
authority and oversight with respect to rental car industry completion 
of safety defect repairs among all other vehicle owners whose vehicles 
need these repairs, and certainly not among other commercial owners of 
vehicles, delivery companies, government and company employee fleets, 
and the rental industry's direct competitors at taxi, limousine, car-
sharing and other private car services.
                                 ______
                                 
                               Attachment
                                                  Arent Fox
                                                      July 22, 2011
Via e-mail and First-Class Mail

O. Kevin Vincent, Esquire
Chief Counsel
National Highway Transportation Safety Administration
Washington, DC.

Re: Hertz Corporation Supplemental Submission of Recall Repair 
            Completion Rates

Dear Kevin:

    As you know, this firm represents The Hertz Corporation 
(``Hertz''). I am writing to provide you with the attached supplemental 
information regarding recall repair completion rates for National 
Highway Transportation Safety Administration (``NHTSA'') vehicle 
recalls in the Hertz rental fleet that have been initiated since July 
1, 2010.
    Hertz is reporting recall repair completion rates since July 1, 
2010 for 50-state national recalls of private passenger cars as to 
which Hertz had more than ten vehicles in its fleet affected by the 
recall. Please note that for all of these recalls, from the time that 
the owner notification letter specifying YIN information was received 
by Hertz, the vehicle was coded in Hertz' computer systems as on ``S'' 
(Safety) hold pending repair. The ``S'' hold designation directs rental 
personnel that the affected vehicles are not to be rented pending 
completion of the recall repair.
    As we previously indicated in discussions with the agency, until 
late 2010, Hertz was using a computerized system to track maintenance 
on vehicles which did not capture all of the data sought by NHTSA and 
that we would like to report here. As a consequence, the attached 
actually understates Hertz' timely recall repair completion 
performance. Many off-site repairs and vehicle sales/scrappage 
conducted could not be tracked exactly into 30, 60, 90 and 120-day 
periods. However, those completions are later accounted for in the 
column ``percentage completed to date.''
    As you can see from the attached chart, Hertz maintenance 
facilities are averaging repair rates of 81 percent and better within 
60 days, and this does not include offsite repairs and sold/scrapped 
vehicles. In most instances in which Hertz has not been able to 
promptly repair vehicles (several of which are footnoted on the 
attached), delay was caused by parts availability and available access 
to dealer facilities to obtain the repair. When parts are available and 
repairs can be conducted at Hertz facilities, repair completion rates 
are significantly shortened. In all cases, rental counter personnel are 
instructed not to rent affected vehicles awaiting recall repair. Given 
this, NHTSA can be assured that Hertz has every incentive to repair 
these vehicles as promptly as possible to get them back on the road, 
and prompt repairs are in fact happening.
    The attached data is significantly more reliable than data 
submitted by the vehicle manufacturers in early 2011. Consequently, we 
ask that NHTSA evaluate Hertz' recall repair completion performance 
based on this data. We also ask that NHTSA acknowledge that in this 
period, as in prior periods, Hertz' policy has been to place vehicles 
subject to NHTSA recalls on ``Safety'' hold so that such vehicles are 
not rented to the public before a repair or interim remedial measure 
approved by the manufacturer has been performed. Indeed, we should note 
here that in compiling this data, Hertz identified additional vehicles 
the company had pulled from the rental pool and put on ``S'' hold based 
on vehicle manufacturer service campaigns for ``customer 
satisfaction,'' which Hertz concluded had a safety component even 
though no NHTSA recall was being conducted. So, the attached data 
actually understates the number of Hertz vehicles that have been on 
``Safety'' hold for vehicle manufacturer issues in the last 12 months.
    Given that, unlike other commercial users or individual customers, 
Hertz is actually parking vehicles subject to recall, waits of 60-120 
days or more for a repair cause significant strain and business 
disruption to Hertz and its rental customers. As we have previously 
noted, under 49 U.S.C.  30120(c), NHTSA has considerable authority to 
require manufacturers to prioritize recalls and to conduct recalls 
within what NHTSA considers a reasonable time. Hertz asks that NHTSA 
exercise this authority to shorten the time frames from defect 
notification to repair for vehicle users like Hertz who lose use of 
their vehicles pending the defect repair.
    We also continue to recommend that NHTSA convene a meeting of 
vehicle manufacturer and rental car company industry participants to 
address open issues with respect to: (1) unclear communication to 
vehicle owners (including rental car companies) about required steps 
when vehicles are subject to safety recall or are subject to some other 
sort of notification, including a ``customer satisfaction'' issue which 
appears to have a safety implication; (2) the possibility of according 
rental car companies priority treatment with respect to part and repair 
availability for vehicles subject to safety recalls; and (3) the 
accuracy of vehicle manufacturer safety campaign completion data. We 
think the parties could choose a neutral to moderate their discussions 
and that much could be achieved ifNHTSA directs the parties to work 
toward resolution of these and other issues.
    We would be pleased to provide further detail or information about 
any particular recall. Please let us know if you have questions about 
any of the attached information.
            Sincerely,
                                       Deanne M. Ottaviano.

                                               Hertz Rental Car Fleet 50-State Private Passenger Vehicles
                                                          NHTSA Recall Repair Completion Rates
                                                              July 1, 2010 to July 15, 2011
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                Percent
   Rental         Date                                                               Total      Percent     Percent     Percent     Percent    Completed
Availability     Issued               Mfg                    Recall Number         Owned at    Completed   Completed   Completed   Completed    to Date
                                                                                  Activation    30 Days     60 Days     90 Days    120 Days       \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
          S     7/7/2010   Ford                       10C13                               20          50          85          85          85         100
          S    7/16/2010   GM                         2010216                             47       68.75          75          75       81.25         100
          S    8/19/2010   CHRY                       K08                                 12        1.82        1.82        1.82        1.82       98.15
          S    8/19/2010   GM                         2010243                           7011       69.12       75.11       77.84       78.49       99.94
          S    8/19/2010   CHRY                       K15                                 22       86.36       90.91       90.91       95.45         100
          S    8/27/2010   NISSAN                     R1029                             1413       58.64       65.69       67.02       67.49         100
          S    9/28/2010   MAZDA                      6010H \2\                          866       39.36        44.3       46.31       47.07       99.42
          S   10/25/2010   2010312                    2205                             58.34       62.51       63.82       64.97       99.55
          S   10/27/2010   MERCED                     2010100002                         319       53.45       58.33       60.34       64.66       94.67
          S    11/4/2010   VW                         97S8 \3\                           156       15.18       20.94       21.99       31.94       98.08
          S   11/10/2010   MAZDA                      5409D                              495       42.37       49.91       53.48       55.37         100
          S   11/18/2010   GM                         2010351                           1703       76.46       80.27       81.09       81.42       99.82
          S   11/30/2010   GM                         2010211                             12       83.33       83.33       83.33       83.33         100
          S   11/30/2010   NISSAN                     PM062                             1484       81.38       89.72       95.09       96.91        99.8
          S    12/1/2010   GM                         2010309                            608        32.8       63.68        75.2       79.68       99.84
          S   12/10/2010   CHRY                       K13 \4\                             33        3086       39.51       39.51       39.51        82.5
          S   12/20/2010   MAZDA                      6110K                             4373       55.84       72.27       77.33       78.44       99.61
          S   12/21/2010   GM                         2010370                            498       79.36       88.98       90.58       91.18         100
          S   12/29/2010   GM                         10426B                             617       80.26       95.63       98.06       98.38       99.51
          S    1/14/2011   GM                         2010256                            157       75.16       85.71       86.34       86.34         100
          S    2/10/2011   CHRY                       K37                                 55       68.85       78.69       78.69       78.69       98.18
          S    2/17/2011   VW                         20I4                               894        76.4       84.13        85.5       85.93       99.89
          S    2/24/2011   TOYO                       A0P                               3144       96.63       91.39       93.11       93.55       98.92
          S    3/10/2011   GM                         2011057                            148       92.57       95.95       95.95       96.62         100
          S    3/17/2011   GM                         2011029                             15       73.33          80          80          80         100
          S    3/22/2011   MAZDA                      6211B                             4377       77.15       82.31       83.71                   98.79
          S    4/12/2011   MITSU                      SR10-001                            11       81.82       81.82       90.91                     100
          S    4/12/2011   SUBARU                     WVP26                               12       66.67       83.33       83.33                   91.67
          S    4/15/2011   TOYO                       B0B                                156       53.37       65.64       69.94                   89.74
          S    4/26/2011   VW                         97V3                               372       85.79       90.62       91.96                   98.66
          S    4/28/2011   TOYO                       B0F                                 52       76.92       88.46       88.46                   92.31
          S     5/9/2011   GM                         2011149                           1523       81.38       90.95                               97.24
          S     5/9/2011   HONDA                      11V176                             297       82.82       92.26                               92.59
          S    5/10/2011   GM                         2011142                           2995       74.04       90.39                               96.76
          S    5/17/2011   NISSAN                     PC012                               73       35.29       44.71                               91.78
          S     6/9/2011   GM                         2011162                            630       84.52                                           93.02
          S    6/30/2011   CHRY                       L23                                868       55.41                                           57.37
          S     7/5/2011   GM                         2011191                             12       23.08                                              25
          S    7/12/2011   MAZDA                      6411F                               44                                                        2.27
          S    7/28/2010   GM                         2010038 \5\                         56       33.33       35.09       36.84        38.6         100
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ This Column includes off-site repairs and vehicle sales/scrappage which could not be tracked in 30,60,90 and 120-day periods
\2\ Pursuant to Mazda requirements, this vehicle had to be repaired at the Mazda dealership, and available access to a dealership caused significant
  delays. Note that, pursuant to Hertz policy with respect to these and all other vehicles subject to NHTSA recall, affected vehicles were coded and
  rental personnel were instructed not to rent vehicles pending recall repair completion
\3\ These vehicles were in Hawaii when recall was announced, and delays were encountered in getting necessary parts and getting access to repairs at
  available dealer under recall. Note that, pursuant to Hertz policy with respect to these and all other vehicles subject to NHTSA recall, affected
  vehicles were coded and rental personnel were instructed not to rent vehicles pending recall repair completion.
\4\ These vehicles were in Hawaii when recall was announced, and delays were encountered in getting necessary parts and getting repairs at dealer under
  recall. Note that, pursuant to Hertz policy with respect to these and all other vehicles subject to NHTSA recall, affected vehicles were coded and
  rental personnel were instructed not to rent vehicles pending recall repair completion
\5\ This NHTSA recall was related to floor mats causing potential pedal entrapment in 2009-10 Pontiac Vibe and, pursuant to manufacturer instructions,
  removal of floor mat made vehicle safe for use while awaiting redesign and delivery of new floor mats.

                                 ______
                                 
        Prepared Statement of Jan Withers, National President, 
                  Mothers Against Drunk Driving (MADD)

    Thank you Chairman Pryor and Ranking Member Toomey for the 
opportunity to submit testimony before the Committee and for holding 
this important hearing. Last year, MADD celebrated its 30th Anniversary 
with a rally on Capitol Hill to celebrate our Nation's past success and 
to focus on what more must be done to eliminate drunk driving.
    Since our founding in 1980, drunk driving fatalities have dropped 
by over 40 percent, with more than 300,000 lives saved. We are proud of 
our success, but as we reflect on three decades of advocacy with the 
goal of saving lives, we must not accept complacency. We all must 
recommit to saving lives and the elimination of drunk driving. Every 
one of us should be outraged that:

  <bullet> In 2010 alone, 10,839 people, one-third of all highway 
        fatalities, were killed due to drunk driving.

  <bullet> Over 350,000 people were injured last year in drunk driving 
        crashes.

  <bullet> 50-75 percent of convicted drunk drivers will continue to 
        drive on a suspended license.

  <bullet> Drunk driving costs our Nation $129 billion per year.

  <bullet> One Arkansas resident holds the record for most DUIs with 44 
        convictions.

    MADD has put a face to the crime of drunk driving, sharing story 
after story of lives cut short due to someone's senseless actions. It 
is these stories, including my own, that continue to propel our 
organization forward, moving toward the attainable goal of eliminating 
this public health epidemic once and for all.
    I came to MADD in 1992 after my 15-year-old daughter, Alisa Joy, 
was killed by an underage drinker who chose to drive drunk after 
consuming numerous beers. Alisa was a gift of sunshine to us. She was a 
kind and funny person, evoking a gracefulness of spirit as well as 
movement. I loved watching her friends naturally gravitate to her as 
much as I loved watching her dance. In both, she radiated joy.
    On a balmy evening during spring vacation, Alisa and two of her 
friends decided to go out with two senior boys. While out, the guys 
drank a couple of ``six-packs'' they had previously hidden in the 
woods. On the way home, when the driver's judgment and reactions were 
impaired, he lost control of the car. As the car was vaulted into the 
air after hitting a guardrail, the right side was sliced away and Alisa 
was ejected from the car. She sustained massive injuries as her body 
was hurled through the forest of trees.
    The driver had a blood alcohol concentration of .08--the illegal 
limit. I personally know what the effects of a .08 BAC sound like as I 
listened to a respirator pump air into Alisa's lungs in the emergency 
room. I personally know what the effects of underage drinking feel like 
when Alisa was declared dead. A piece of me died with her at that 
moment.
    The statistics we often hear are not just numbers to me. Alisa Joy 
Withers was my baby. She had a face and a story to tell. Now I must 
tell her story, instead. Many of you have children with stories to 
tell. We want them to be able to tell their own stories--not have their 
mother telling it for them after they died. This is why I am here 
representing MADD.
Campaign to Eliminate Drunk Driving
    Fortunately, MADD has a plan. In 2006, following research of proven 
countermeasures, MADD announced its Campaign to Eliminate Drunk Driving 
which:

  <bullet> First, supports more resources for high-visibility law 
        enforcement;

  <bullet> Second, requires convicted drunk drivers to install an 
        ignition interlock device; and,

  <bullet> Lastly, turns cars into the cure through the development of 
        advanced in-vehicle technology.
High-Visibility Law Enforcement
    Studies show that the combination of paid media ads with law 
enforcement is proven to deter drunk drivers from getting behind the 
wheel. MADD supported authorizing $29 million per year for NHTSA to 
conduct three annual mobilization efforts as part of SAFETEA-LU. We 
thank the Committee for authorizing the program, and we hope to see it 
continue at even more robust funding levels. Drunk Driving: Over the 
Limit, Under Arrest is conducted twice yearly and Click it or Ticket 
once per year. Both campaigns have been highly-effective.
    The paid ads target audiences who have the highest risk of driving 
drunk. While the ads are running on television and radio, law 
enforcement conducts sobriety checkpoints and saturation patrols. 
Would-be offenders see the advertisements, see law enforcement out in 
force, and realize that they will be caught if they drive drunk. This 
deterrence approach is one of the most effective tools the Nation has 
to prevent drunk driving.
    MADD recommends that the next reauthorization bill include 
increased funding for a minimum of 3 yearly crackdowns focusing on 
drunk driving and seat belt enforcement.
    We commend the Committee for the inclusion of Section 109, the High 
Visibility Enforcement Program, in its draft bill, and specifically for 
stipulating ``at least three'' national crackdown periods each year.
Interlocks Save Lives
    An ignition interlock is a breath test device linked to a vehicle's 
ignition system. The interlock allows a DUI offender to continue to 
drive wherever they need to go--they just can't drive drunk. The 
research on interlocks is crystal clear and irrefutable. Since New 
Mexico and Arizona implemented all offender interlock laws, DUI 
fatalities in those states have been reduced by 36 and 46 percent 
respectively.
    Every American should be protected under an all-offender interlock 
law. MADD is now hitting roadblocks from the alcohol industry and DUI 
defense attorneys as we try to pass this law in state legislatures. We 
strongly urge this Committee to work with the Senate Environment and 
Public Works (EPW) Committee to develop a strategy to encourage every 
state to adopt an all-offender interlock law as part of the 
reauthorization bill.
    Under this Committee's jurisdiction, incentives could be offered to 
states which enact an all-offender interlock law in the first half of 
the life of the new Federal law, and under the EPW Committee's 
jurisdiction, an all-offender interlock Federal standard could be 
included for the second half of the life of the law. This lifesaving 
measure is sound policy.
    MADD commends the Committee for including Section 107(g), Grants to 
States That Adopt and Enforce Mandatory Alcohol-Ignition Interlock 
Laws, in the draft bill.
Advanced Alcohol Detection Technology
    While interlocks are currently the most proven technology available 
to stop drunk driving, a program is underway to provide an advanced in-
vehicle option for consumers. This technology could potentially 
eliminate drunk driving. The Driver Alcohol Detection System for 
Safety, or DADSS, is the result of a research agreement between NHTSA 
and many of the world's leading auto manufacturers.
    The purpose of this agreement is to research, develop, and 
demonstrate non-invasive in-vehicle alcohol detection technologies that 
can very quickly and accurately measure a driver's BAC. The Insurance 
Institute for Highway Safety estimates that over 8,000 lives could be 
saved if the technology is widely deployed in the U.S.
    Senator Tom Udall and Senator Bob Corker have introduced bipartisan 
legislation, called ROADS SAFE, which would authorize an additional $12 
million per year for DADSS. In the House, Representatives Shelley Moore 
Capito, Heath Shuler, and John Sarbanes have introduced identical 
legislation.
    Just this week a diverse coalition of organizations and companies 
sent a strong letter of support to Chairman Rockefeller and Ranking 
Member Hutchison, outlining the importance of this life-saving research 
effort. MADD would like to submit this letter for the record.
    MADD would like to thank the Committee for including ROADS SAFE in 
the draft bill under Section 111, Driver Alcohol Detection System for 
Safety Research. We look forward to working with the Committee to 
ensure that this program is authorized and funded.
Reevaluating the Highway Safety Grant Formula Program
    Turning to the grant programs, MADD agrees with the Governors 
Highway Safety Association that the current program needs to be 
streamlined. It is also critical that dollars are spent on programs 
that work. SAFETEA-LU traffic safety grants represent the majority of 
funds that states spend on drunk driving prevention. With respect to 
the impaired driving grant program, funding must be spent on activities 
that save the most lives, with meaningful performance and activity 
measures in place to gauge program effectiveness. NHTSA must have the 
authority to ensure states are moving in the right direction.
    A series of Department of Transportation Office of the Inspector 
General (OIG) and Government Accountability Office (GAO) reports have 
been released, showing what is needed to improve traffic safety grant 
programs. The OIG and GAO have made several recommendations to NHTSA, 
including the development of performance measures in coordination with 
the states. While NHTSA has since worked with the states to develop 
performance measures, MADD does not feel that these measures are 
meaningful enough to fulfill the intent of the OIG and GAO.
    MADD appreciates the work this Committee has done over the years in 
directing GAO and the OIG to review NHTSA's programs, and outlining 
steps that NHTSA can take to improve its oversight functions and the 
effectiveness of state expenditures.
    We commend the Committee for including provisions in Section 102 
that require performance measure development and provide additional 
oversight authority to the Secretary of Transportation.
Conclusion
    MADD applauds the Committee's leadership to eliminate drunk driving 
and specifically thanks the Committee for including several important 
provisions in its draft reauthorization bill:

  <bullet> Section 109--High Visibility Enforcement Program, with at 
        least three national crackdown periods;

  <bullet> Section 107(g)--Grants to States That Adopt and Enforce 
        Mandatory Alcohol-Ignition Interlock Laws;

  <bullet> Section 111--Driver Alcohol Detection System for Safety 
        Research;

  <bullet> Section 102--Inclusion of performance measure development 
        and additional oversight authority to the Secretary of 
        Transportation to ensure states spend funds on activities that 
        will save the most lives and prevent the most injuries.

    Thank you for holding this important hearing to advance our 
Nation's highway and highway safety programs. You are to be commended 
for your leadership on these issues.
                                 ______
                                 
       Prepared Statement of the American Car Rental Association

    This statement is submitted by the American Car Rental Association 
(``ACRA'') on behalf of its members, which include every major car 
rental company (with the exception of the Hertz Corporation).
    ACRA members--along with the Hertz Corporation--account for more 
than 90 percent of all vehicles rented in the United States each year. 
Safety is a top priority for our industry, and we appreciate the 
opportunity to comment on the Motor Vehicle and Highway Safety 
Improvement Act of 2011 discussion draft.
    We understand that the Motor Vehicle and Highway Safety Improvement 
Act introduced on Friday, July 29 by Senators Pryor and Rockefeller 
does not contain Sections 411 and 412, which were part of the draft 
discussed during the July 27 Subcommittee Hearing. Because those 
particular sections are of significant interest to our industry, we 
appreciate the opportunity to provide our comments for the record.
    The Motor Vehicle Safety Act (``MVSA'') was enacted in 1966 to 
promote safety on our Nation's roadways for all vehicle operators and 
their passengers. Under the MVSA, all vehicle owners have been treated 
equally including rental car companies; numerous other owners of fleets 
of vehicles such as the Federal Government, state and local government 
entities; corporate fleet owners; and individual owners. For the first 
time, the discussion draft inexplicably singled out rental car 
companies from hundreds of millions of other vehicle owners (fleets and 
individuals).
    If the concern is that someone drives and/or is a passenger in a 
vehicle subject to a recall--without knowledge of the recall--it 
obviously should make no difference whether the owner of the vehicle is 
a rental car company or taxi company, government agency or a parent 
transporting the neighborhood kids to the park. Yet, the draft 
legislation was directed only at rental car companies. Such 
discrimination has no rational basis and ignores the fact that the 
major rental car companies (uniquely among vehicle owners in general) 
ground/do not rent vehicles subject to a recall notice in almost all 
instances.
    Section 412 of the discussion draft, as noted, was the first-ever 
attempt to regulate the rental car industry under the Motor Vehicle 
Safety Act. As a result, it would seem to require some justification, 
analysis or data (particularly since the Administration has recognized 
the burden regulation puts on business and the need to carefully 
justify regulation). We have seen no such data or analysis presented by 
NHTSA or any other proponent of the bill, and we do not believe a case 
can be made that the regulation of our industry in this way is 
justified.
    When NHTSA launched its Audit Query last fall to investigate how 
rental car companies were responding to recall notices versus the 
general population of vehicle owners, a number of rental car companies 
including Enterprise Holdings, The Hertz Corporation and Avis Budget 
Group offered to provide NHTSA assistance in the agency's review. 
Ultimately, representatives of those companies met with representatives 
of NHTSA and voluntarily responded to NHTSA's requests for information.
    In its initial inquiry NHTSA asked three automobile manufacturers--
Ford, General Motors and Chrysler--for data on response rates to 
certain selected recalls. When the data was submitted, Ford and 
Chrysler each advised NHTSA that the manufacturers' data was likely to 
be inaccurate because rental car company fleets turn over much more 
rapidly compared to other vehicle owners. They also each advised NHTSA 
that the best source of information concerning the completion rates for 
rental cars would be the rental car companies themselves. However, 
NHTSA did not request the rental car companies to provide such 
information.
    Enterprise Holdings, The Hertz Corporation and Avis Budget Group 
nonetheless voluntarily provided their own current and accurate data in 
an effort to educate NHTSA and help the agency avoid reaching erroneous 
conclusions. Therefore, we are understandably troubled by Administrator 
Strickland's answers to Senator Blunt's questions during the July 27 
hearing because it appears he is not familiar with the information 
provided by the rental car companies to NHTSA (including information 
which was, at the time of his testimony, posted on the agency's 
website).
    More specifically, Administrator Strickland appeared to be unaware 
of three critical facts during his testimony. They are:

        1. With rare exceptions the major rental car companies do not 
        rent any vehicle subject to a recall notice until the recall 
        work is completed. The rare exceptions consist of instances 
        when no safety issue would be presented by operation of the 
        vehicle pending completion of the recall work given the 
        particular circumstances presented by the recall.

        2. The major rental car companies have recall work completed on 
        80 to 90 percent or more of their vehicles within thirty to 
        sixty days. This record likely far exceeds that of any other 
        group of vehicle owners. (Meanwhile, to our knowledge, NHTSA 
        has taken no steps to try to analyze completion rates of any 
        category of vehicle owners besides rental car companies.)

        3. When rental car companies experience delays in getting 
        recall work done promptly, it is often because necessary parts 
        are not readily available. However, because those vehicles are 
        not available for rent in almost all instances, there is no 
        public safety issue created by such delays.

    The rental car industry is proud of its performance in handling 
recalled vehicles and believes it exceeds that of any other class of 
vehicle owners. To the extent that NHTSA has a problem with how vehicle 
owners respond to recall notices, that problem does not lie with rental 
car companies.
    For example, consider the Toyota pedal entrapment recall in 2010. 
Toyota advised vehicle owners that if they removed the drivers' side 
floor mat, the vehicle could be safely operated pending Toyota's 
development and implementation of a repair for the pedal. Rental car 
companies responded by removing the floor mats from these vehicles and 
continuing to rent them while Toyota developed a remedy. Removal of the 
drivers' side floor mat was so effective as an interim solution that 
NHTSA permitted Toyota to continue to manufacture and sell the affected 
vehicles in the very same condition that caused the recall--but without 
the floor mats. Thus, Toyota continued to sell such vehicles for months 
until the auto manufacturer was able to develop a fix for the problem 
and notify owners that they could now bring their vehicles to a Toyota 
dealer to have the fix implemented. In the period after that second 
notice, rental car companies continued to rent these vehicles without 
the floor mats recognizing that, just as before the Toyota notice of 
the final remedy had been sent, there was no safety issue presented as 
long as the floor mats had been removed. Following Toyota's notice that 
the pedal fix was ready to be implemented, rental car companies had the 
pedal fix completed. The fact that our industry rented these vehicles 
without the floor mats during the interim (something which would be 
prohibited by the proposed legislation unless disclosures were made) 
cannot be criticized given that all involved recognized the vehicles 
were safe to operate in that condition. To prohibit such rentals makes 
no sense and is an example of regulation without justification.
    A typical recall notice advises all vehicle owners that an 
appointment should be made to have the vehicle inspected and/or 
repaired at an authorized dealer as soon as possible. If the work 
cannot be done within sixty days, a complaint may be filed with NHTSA. 
Recall notices do not typically recommend that the vehicle owner cease 
operation of the vehicle in the interim period nor does the notice 
recommend owners advise unsuspecting passengers or other users of the 
vehicle of the existence of the recall.
    Notwithstanding the fact that a typical recall notice does not 
recommend the owner discontinue operation of the vehicle, it is, as 
noted earlier, the practice of the rental car industry, in almost all 
instances, to cease renting such vehicles until the recall work is 
completed. In this regard, we believe our industry is unique among 
vehicle owners including taxicabs, limousines, and corporate and 
governmental fleets in taking this step pending completion of the 
recall work.
    There are some instances, rare in our experience, when the 
manufacturer's notice advises that the owner ``Not drive the vehicle to 
the dealer'' or words of similar import. In such cases, it is the 
practice of our members to not only cease renting such vehicles but to 
also take immediate steps to retrieve any vehicles already on rent.
    Members of the Committee undoubtedly are aware that there was a 
tragic accident in 2004 involving a rental car that was subject to a 
recall. As tragic as this accident was, it must be placed in the 
context of the scope of our business and our track record. Since this 
accident in 2004, nearly 7 years and billions of rental days later, 
there has not been any similar incident. In fact, as an industry we are 
not aware of another such incident even predating the one in 2004. 
Moreover, our industry's practices have substantially changed since 
then due to technological improvements and policy changes with respect 
to how recalled vehicles are handled.
    Furthermore the discussion draft (which was prepared and submitted 
without consultation with our industry) proposed a ``disclosure'' 
process that would be unworkable and apparently was prepared with 
little knowledge of the car rental industry. Firstly, we note the draft 
legislation was silent on the specific disclosure that would be 
required. Even if it were possible to make a disclosure, rental car 
companies would undoubtedly be subject to litigation with respect to 
the adequacy of any disclosure that was made.
    Setting aside the potential for litigation, and the failure to 
specify the disclosure to be made, the required disclosure would be 
impossible to provide given current business practices. For instance, 
many customers rent vehicles without ever going to a rental counter and 
engaging with a rental agent. In fact, customers often use kiosks or 
other methods to bypass the counter, go directly to their vehicle and 
drive to the exit booth with a vehicle of their own selection. One 
small but growing segment of the rental car business is car sharing and 
the car sharing model provides for no interaction with a rental car 
company agent at the time of the transaction.
    In short, even if the statute provided more clarity, there is no 
practical way the car rental industry could comply with the disclosure 
requirement--regardless of whether a vehicle was being rented for an 
hour, a day, a week or longer.
    Another obvious problem with Section 412, as proposed in the 
discussion draft, was that it provided no time between receipt of a 
recall notice and the obligation to disclose and/or to cease renting. 
Many rental car companies, including those representing more than 90 
percent of the rental car business in the United States, have locations 
across the country but receive recall notices at a central location. 
There is no way a recall notice could be received at a central office 
of a major rental car company and somehow be instantaneously 
communicated all across the country so that a written disclosure would 
be available to a customer (assuming the customer went to the rental 
counter) and/or that the company could instantaneously cease renting 
the vehicles in question.
    Furthermore, to identify the vehicles in rental car company fleets 
subject to a recall requires VIN numbers from the manufacturers 
(typically not provided in the mailed recall notice). Those vehicles 
then have to be identified in company computer systems and marked as 
subject to a recall. The discussion draft language apparently was 
drafted on the mistaken assumption that all this would occur 
instantaneously upon receipt of the recall notice. Unfortunately, this 
is not the case.
    Section 411 of the discussion draft proposed that used car sales 
require a disclosure of the existence of a recall or no sale could take 
place until the recall was completed. Some rental car companies are 
engaged in the retail sale of vehicles, and we believe it is the 
practice of such companies to have recall work performed before a 
vehicle is sold to a retail customer. However, the vast majority of 
rental vehicles are sold by rental companies in wholesale channels, at 
auctions and/or to automobile dealers who are knowledgeable and fully 
capable of ascertaining the status of a recall on a given vehicle. It 
is not standard practice that recall work is done prior to sales in 
wholesale channels as the expectancy is that recall work is performed 
prior to the ultimate sale to a retail customer. We have no objection 
to a requirement that used car dealers have such work done before a 
retail sale (although there may be legitimate concerns in the used car 
industry with respect to the ability to obtain adequate information to 
identify such vehicles within used car dealers' inventories). However, 
there is no reason why the wholesale sale of vehicles should be 
regulated in this way. At any given time, as recall notices are 
received, rental car companies will have vehicles in transit to dealers 
and/or to auctions or already at auctions for sale. It would be 
burdensome and costly for those vehicles to have to be pulled back from 
sale in those venues. There is no offsetting benefit to be obtained 
given the nature of wholesale buyers and their ability to have the 
recall work done (for which they will be compensated by the 
manufacturer) once they have acquired possession of the vehicle. Thus, 
we believe that any version of section 411 of the discussion draft 
ultimately proposed should be amended to clarify that it applies only 
to retail sales.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
